<html>
<title> - IRAQ IN U.S. FOREIGN POLICY</title>
<body><pre>[Senate Hearing 109-449]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-449
 
                      IRAQ IN U.S. FOREIGN POLICY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                            OCTOBER 19, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                    U.S. GOVERNMENT PRINTING OFFICE
27-403                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., U.S. Senator from Delaware................     3
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Rice, Hon. Condoleezza, Secretary of State, Department of State, 
  Washington, DC.................................................     9
    Prepared statement...........................................    14

       Additional Questions and Answers Submitted for the Record

Responses of Secretary Rice to questions from:
    Senator Lugar................................................    69
    Senator Biden................................................    70
    Senator Hagel................................................    84

                                 (iii)

  


                      IRAQ IN U.S. FOREIGN POLICY

                              ----------                              


                      WEDNESDAY, OCTOBER 19, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-106, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Voinovich, 
Sununu, Martinez, Biden, Sarbanes, Dodd, Kerry, Feingold, 
Boxer, Nelson, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. The committee is very pleased to 
welcome our Secretary of State, Condoleezza Rice. Today we will 
continue our ongoing oversight of United States policies toward 
Iraq. We're engaged in a difficult mission in Iraq. The 
President and the Congress must be clear with the American 
people about the stakes involved and the difficulties yet to 
come.
    Almost 2,000 heroic Americans have died in Iraq during the 
past 2\1/2\ years. During the insurgency, thousands of Iraqi 
Muslims have been killed by other Muslims. Each day, the Iraqi 
people are living with the fear caused by these tragic and 
senseless acts of violence, but they continue to show their 
resilience.
    This is the 30th full committee hearing on Iraq held by the 
Senate Foreign Relations Committee since January 2003. In 
addition, we have held numerous other hearings that have 
partially touched on the subject of Iraq. We have maintained 
this focus because success in Iraq is critical to United States 
national security. Permanent instability or civil war in Iraq 
could set back American interests in the Middle East for a 
generation, increasing anti-Americanism, multiplying the 
threats from tyrants and terrorists, and reducing our 
credibility in the world.
    In late July, our committee held a series of three hearings 
on Iraq. Our intent in those hearings was to go beyond 
describing conditions in Iraq or highlighting strategies that 
have not worked. Our goal was to systematically examine options 
for improving security, advancing political development, and 
demonstrating economic progress in Iraq. With the help of nine 
distinguished experts, we considered whether changes in 
military tactics, alliance strategy, resource allocations, 
Iraqi military training, or other factors should be adopted. 
And we asked whether there are ways to overcome ethnic and 
sectarian divisions that would produce a workable, if 
imperfect, consensus on the structure of Iraq's Government. The 
experts, while expressing qualified optimism on some issues, 
testified that there were few easy answers in Iraq.
    The insurgents and terrorists continue violent attacks 
intended to incite internal ethnic and religious conflict and 
to provoke a civil war among Iraqis. Progress in training and 
equipping Iraqi forces is painstaking work that does not lend 
itself to shortcuts. Some of Iraq's neighbors, particularly 
Syria and Iran, are interfering in Iraq for their own purposes. 
Any final political settlement will have to address thorny 
issues, such as who controls oil revenues, who runs the court 
system, who leads the security forces, and who has the power to 
tax.
    Today's hearing provides the committee with the chance to 
engage Secretary Rice on many of these subjects, as well as to 
discuss the constitutional referendum that has just occurred in 
Iraq. This past weekend, millions of Iraqis voted to pass a 
constitution. The apparent success of the vote was a welcome 
development, although it does not solve the fundamental 
political problem of ethnic and sectarian fragmentation. A 
majority of Sunnis opposed the Constitution, and voters in two 
Sunni-dominated provinces overwhelmingly rejected the document. 
Thus, even as passage of the Constitution allows elections for 
a new government to go forward in December, the larger hope of 
reaching a political settlement between all of the major ethnic 
groups has not yet been realized. Further, we cannot assume 
that the establishment of democratic institutions in Iraq, in 
the short term, will yield a corresponding diminishment of the 
insurgency.
    The Constitution and Iraqi attitudes toward it reflect the 
divisions within society. The Kurds and the Shiites who have 
dominated the drafting of the Constitution have opted for a 
weak central-government structure that maximizes their autonomy 
in the regions where they predominate. Meanwhile, most Sunnis 
reject such an arrangement as leaving them with few resources 
and little power. These perceived inequities fuel the 
insurgency by Sunni rejectionists and threaten civil conflict 
that could mean the permanent division of Iraq.
    It has become common in discussions of Iraq to say that 
without security, little can be achieved politically or 
economically. But it's also important to understand that there 
is no purely military solution in Iraq. Success depends on 
establishing a political process that gives all the major 
ethnic groups a stake in the government.
    It's notable that insurgent attacks in some Sunni areas 
were intentionally suspended during the voting to allow Sunni 
voters to go to the polls in the hopes of defeating the 
Constitution at the ballot box. This demonstrated that a 
substantial element of the insurgency is focused on the 
political outcome in Iraq, not merely on nihilistic terrorist 
philosophies.
    For the next 2 months, until the December elections, the 
task before the coalition is convincing the Sunni minority to 
participate in the process, despite their distrust of the 
Constitution. To this end, we must also prevail on the Shiites 
and the Kurds to be flexible, even though they already have 
much of what they want in the current Constitution.
    We appreciate the creativity and the energy that our 
Ambassador Zalmay Khalilzad has applied to these objectives in 
the runup to the vote last weekend. We're eager to hear from 
Secretary Rice if more can be done to support his efforts.
    The December elections stand as a rallying point for Iraqis 
who want to make the political process work. The election of a 
Parliament offers the prospect of tangible political power for 
the Sunnis while demonstrating to all Iraqis that the benefits 
of political self-determination have arrived.
    During this period, we must explore whether we can convince 
disaffected Sunnis, including the elements of the insurgency 
that are focused on a rational political outcome, to negotiate 
or otherwise replace violence with political means.
    As we pursue these issues, we should recognize that most 
Americans are focused on an exit strategy in Iraq. Even if 
withdrawal time lines are deemed unwise because they might 
provide a strategic advantage to the insurgency, the American 
people need to more fully understand the basis upon which our 
troops are likely to come home. That is part of the reason why 
this committee has spent a great deal of time examining the 
training of Iraqi forces and the progress of the Iraqi 
political process, two elements that can lead to short-term 
improvements in Iraq and a withdrawal of some American troops.
    The American people also need realistic and clear 
assessments of our progress in Iraq, even when the indicators 
are sobering. Beyond Iraq, they need more information about how 
the outcome in Iraq relates to United States national security 
and the broader War on Terrorism. They also need to see an all-
out diplomatic effort aimed at addressing regional issues, 
including maintaining the momentum of the Arab-Israeli peace 
process. These are all vitally important issues to America's 
foreign policy.
    We are deeply grateful to Secretary Rice for joining us 
today to address them, and we look forward to an enlightening 
discussion with her.
    I would like to yield now to the distinguished ranking 
member of the committee, Senator Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, thank you for having this 
hearing, and thank you for your diligence over the last several 
years of bringing in as many informed voices as possible from 
left, right, and center to deal with this issue.
    I'd like the record to show, I did not see the chairman's 
statement before he made it. You're going to find some 
remarkable similarities in what I'm about to say and what the 
chairman just said. As a matter of fact, it dawned on me, there 
is a remarkable consensus--left, right, and center--leaders on 
my side of the aisle, like Senator Feingold and others, to 
leaders on the Republican side of the aisle, like Senator Hagel 
and others--we all agree--whether we disagree with the 
administration or not on how we got to Iraq, the circumstances 
under which we got to Iraq, and how we proceeded when we first 
got there; there is no doubt that there's a great deal at 
stake. I don't know anybody who's suggesting that we should--to 
use the phrase--it's a very trite phrase, but one that's very 
popular--``cut and run,'' I've heard no one suggest that. But I 
also heard the chairman today--and you'll hear me say--that the 
American people need some benchmarks here as to: What's the 
plan? What's the plan? How are we going to proceed?
    And, Madam Secretary, your being here is very, very 
important, and I truly welcome you here. You have always been 
available to me personally, and I assume other members of the 
committee when we have asked your attendance. But I would 
respectfully suggest that at the moment when the American 
public's patience is being tried, they're questioning the 
collective judgment of their government and how we're 
proceeding--and I don't just mean the President; I mean across 
the board--someone of your stature--and there's few of your 
stature and your credibility--needs to be seen frequently, in 
my view, by the American people before the U.S. Congress, and 
other leaders, as well, in the administration, making clear 
what the facts are on the ground.
    I would note, notwithstanding the herculean efforts of the 
chairman, the last time, other than your confirmation hearing, 
that we've had a senior administration official here 
specifically talking about Iraq, in detail, was May 18, 2004. 
May 18, 2004. And that was when Secretary Wolfowitz and 
Secretary Armitage were here. And it's not for lack of trying, 
I understand. I mean this sincerely. I have an inordinately 
high regard, as all my colleagues do, for our chairman, and he 
has done everything to bring in informed judgments, as well. 
But I can't overemphasize, Madam Secretary, what I have had the 
opportunity to say to the President and to you, as well as to 
Mr. Hadley and others, that in my judgment the gap between the 
rhetoric on Iraq and the reality the American people see on the 
ground has created a genuine credibility chasm. Not personal, 
in a sense. Credibility as to what we say about Iraq. Does it 
comport at all with what they see?
    One way to begin to regain the trust of the American 
people, I think, is regular public accountability, and that's 
why I'd like to see, literally, monthly hearings with senior 
officials to report on both the progress and the problems. With 
more than 140,000 American troops on the line, I think that's 
the least we can do, and it's--it's not inconsistent--I'm 
asking for a month at a time; I'm not married to that, but 
regular--not inconsistent, Mr. Chairman, what you said in your 
opening statement, of the need for the American people to know 
the progress and the lack of progress and--warts and all.
    The American people--I know you know this; I hope I'm not 
sounding like I'm lecturing, Madam Secretary; you know this 
better than I do--the American people are tough. They are 
really tough. And if they think there's a coherent plan, if 
they think there's a coherent rationale for what we're doing 
and a coherent rationale for how we bring our troops home, 
under what circumstances, they'll do anything. They will do 
anything. And there's no partisan interest in Iraq. There's 
only one interest, a national interest.
    Your role is critical in advancing that national interest, 
because now stabilizing Iraq, as the chairman has pointed out, 
is a political and diplomatic challenge, equally as much as it 
is a military challenge. I've not heard a single person, 
including you, Madam Secretary, suggest there's a military 
solution alone to the situation in Iraq.
    So, we have someone of your stature, credibility, and 
visibility who started off her career as Secretary of State by 
saying, ``This is a time for diplomacy.'' And you've been 
engaging in that, and to your credit. But I think it is really 
front and center at this very, very moment.
    Saturday, in my view, was a good day in Iraq. It was moving 
to see Iraqis of all sex and all ethnicities, voting in large 
numbers. But I hope that we've learned a lesson from previous 
good days in Iraq. Each time, there seems to be a tendency, 
when we've had previous good days in Iraq, to declare victory 
prematurely. Whether it was with the fall of Baghdad or the 
capture of Saddam, the transfer of sovereignty, or the 
elections last January, each time one good day was followed by 
a lot of totally predictable--totally predictable--bad days, 
difficult days. So, while we should be encouraged by the 
referendum, we must be clear-eyed about the hard, hard, hard 
road ahead.
    While the Constitution appears to have passed, it is not 
yet the national compact that our able Ambassador to Iraq has 
tried to forge. And I think the best move you all have made in 
the last several years is sending Zal to Iraq. In fact, there's 
a risk, as a consequence of the election, that Sunni bitterness 
at having failed to defeat the draft will add even more fuel to 
the insurgency and possibly lead to a full-blown civil war.
    Now, I know some have said that this overwhelming show of 
support for voting indicates that the insurgency is essentially 
on its last legs. I hope I'm wrong. I predict it would be 
rejuvenated--rejuvenated, as a--not diminished--as a 
consequence of the overwhelming rejection, not of the 
Constitution, in whole, but by the Sunnis, the majority of the 
Sunnis. And apparently, although the numbers aren't in yet, 
that I'm aware of, a fairly sizeable majority of Sunnis.
    That's why, in my judgment, we must place a premium on two 
overriding priorities. And, again, I apologize, I'm going to be 
somewhat redundant with what the chairman had to say, and say 
it slightly differently. We must intensify the efforts to bring 
the Sunnis into the political process as our Ambassador has 
been doing very, very well, but on his own.
    Last week's agreement to establish a committee to further 
amend the Constitution next year offers a ray of hope that we 
might be able to--we, with others involved, might be able to, 
in fact, form a consensus constitution. Last week's agreement 
to establish it was, as I said, in large part, due to the 
incredible negotiating skills of our Ambassador. But to 
succeed, it seems to me we need a second equally important 
change. We must fully engage the major powers and Iraq's 
neighbors in a stabilization strategy, something we simply have 
not done til now--and it is my hope that it's in training. I'm 
not presuming to suggest what's happening, but it is my hope 
that it's in training.
    The major powers, with us in the lead, could form a contact 
group, or whatever you want to call it, that would become 
Iraq's main partner, taking some of the burden off of us. It 
would show the Iraqis a united international front, which would 
make it easy for them to make the hard compromise necessary for 
the political process to trump the violence. Every Iraqi leader 
we--I think all of us who have been to Iraq a number of times--
every Iraqi leader I have met with, Sunni or Kurd or Shi'a, 
acknowledges they've got to make difficult compromises. But if 
I can put it in trite political terms--and we're all 
politicians--it's awfully hard to go back to a constituency 
that has been brutalized, that--as the Shi'a have, or the 
Kurds--who has gotten everything they want in a constitution, 
and be their leader and say, ``No, we ought to give some of 
that up. We ought to give some of that up for the Sunnis. We've 
got to get the Sunnis in the deal.'' Give me a break. Politics 
is local. Politics is politics is politics. To put it in crass 
terms, those leaders who know they have to make concessions 
have to go and say, ``The devil's making me do it. We have no 
choice. The international community, the world, is looking at 
us. We need to make further concessions.'' It's that simple and 
that complicated, I think, Madam Secretary. And I think we 
cannot do that alone, no matter how significant your diplomatic 
skills or our Ambassador's skills.
    We need to show the Iraqis a united international front, 
which makes it easier for them to make the decisions they know 
they have to make. And it's just that kind of strong 
international pressure, I would argue, that forced the Shiites 
and the Kurds to reverse their last-minute gambit to rig the 
referendum in their favor. For all of those who say the United 
Nations has no influence at all, I would note that the Iraqi 
Parliament voted overwhelmingly to say that you had to have 
two-thirds of those eligible to vote in a province to vote to 
overturn the constitutional referendum. And you had the 
embattled and, some would argue, not particularly impressive--I 
don't share that view--Secretary General of the United Nations, 
through a press person coming out and saying, ``No, that's not 
good enough.'' And what happened? With your good offices and 
others, immediately they turned that vote around. Tell me 
international pressure doesn't matter. It matters. It matters.
    And so, we also need, I think, a regional strategy, Madam 
Secretary, to either force or induce Iraq's neighbors to act 
more responsibly. Countries like Saudi Arabia, Jordan, Iran, 
Turkey, and Syria have tremendous influence with the 
communities within Iraq. They can make a difference between an 
Iraq on the road to stability or one toward chaos. Some argue 
that such a strategy is naive. Well, the Clinton administration 
was not naive in Bosnia when it successfully engaged the 
Serbian leader, Milosevic, and another thug named Tudjman in 
the Dayton process. They're both thugs. Thugs. We engaged them. 
We got the Dayton process. It was the beginning of the end of 
the chaos.
    And this administration, through the significant efforts of 
diplomacy was not naive when it engaged the Afghans' neighbors, 
including Iran--including Iran--in bringing Afghan factions 
into the Bonn Conference, producing what you rightfully have 
shown and visited and acknowledged and showcased Mr. Karzai, 
which was the last best hope there.
    So, why would others join us? When I raise this, some of my 
colleagues look at me and say, ``Why''--I've been beating on 
this, I realize, for awhile--they say, ``Why would others join 
us?'' Because they have as much at stake as we do in Iraq not 
becoming a permanent source of instability in the heart of the 
Middle East.
    There are other important steps that I think we have to 
take, Madam Secretary. We're doing a better job training Iraqi 
security forces. It was a long time in coming. I know we've had 
our ongoing differences in that, but we're underway. But we 
still don't know how many Iraqi troops must be able to operate 
independently or with minimal U.S. support to allow us to draw 
down. You have a lot of stars sitting behind you, figuratively 
and literally. We've got to know. We have a right to know. 
What's the game plan? Like that old song, ``What's the plan, 
Stan?'' Tell us, how many, trained at what level, to what 
degree, are needed in order for us to reasonably look toward 
drawing down? We're not setting timetables. We're not saying 
``cut and run.'' We're saying give us a plan. ``Staying the 
course'' is clearly something the American people will not 
follow. Will not follow. So, tell us, what are the standards?
    And, finally, we have to build the capacity of the Iraqi 
Government to provide essential services. As you well know--and 
I'm not blaming anybody--the Defense Ministry in Iraq is a 
basketcase. We've had to essentially go in there and put our 
uniforms in place running the show. They're a basketcase. The 
Interior Department is a basketcase. There is no capacity to 
govern at this point. There is none. And so, again, that's not 
meant as a criticism; it's an observation. The American people 
intuitively know it. We all know it, specifically. So, what's 
the plan? What, specifically, is the plan?
    The approval of the Constitution was an important hurdle, 
but national elections and elite political deals won't lead to 
stability, in my view, as long as average Iraqis can't turn on 
the lights, can't drink the water, can't step out of their 
homes without stepping into raw sewage, and can't let their 
daughters leave the house for fear of being kidnapped. And now 
we've learned that, because of incompetent management and high 
security costs, that our $20 billion reconstruction effort is 
about run out of money. Why have we failed so miserably to 
deliver tangible improvements to the daily lives of the Iraqi 
people? And what is the plan to turn the reconstruction effort 
around? There has to be a plan. There may be one. I'm unaware 
of it. And I have tried, assiduously as I can, to learn what it 
is.
    We must move with a sense of urgency, Madam Secretary, in 
all these fronts. The less progress we make, the more Iraq 
risks becoming what it was not before we went in, a pre-9/11 
Afghanistan, a haven for radical jihadists in the center of the 
Middle East. It would be a terrible irony--terrible irony--if 
that were to happen. It would become, as someone said, a Bush-
fulfilling prophecy. Worse, it would be a terrible blow to 
America's fundamental security interests.
    So, I think what the American people really want to hear--
and I know I want to hear from the administration--is a plan to 
bring our troops home, as soon and as safely as possible, while 
preserving our fundamental security interests--and they are 
real, and they are deep, those interests. We must not compound 
the mistake that was made in invading Iraq without a plan, by 
leaving Iraq without a plan to prevent from becoming a haven 
for terror and the grist from which not only a civil war will 
occur, but a regional war.
    So, Madam Secretary, I hope you can provide some clarity 
for such a plan today. I realize it's a big job. But, as I 
said--I'd conclude, Mr. Chairman, by saying I think the 
American people--I know we all do; I don't mean just ``I''--the 
American people are tough, they're resilient, they're smart. 
They just want to know, What is the plan? What's the plan?
    Thank you very much.
    [The prepared statement of Senator Biden follows:]

Prepared Statement of Joseph R. Biden., Jr., U.S. Senator From Delaware

    Madame Secretary, welcome. I'm glad you're here. It's important 
that you're here. And let me tell you why.
    In my judgment, the gap between the administration's rhetoric on 
Iraq and the reality the American people see on the ground has created 
a credibility chasm.
    One way to help regain the trust of the American people is regular, 
public accountability. That's why I'd like to see monthly hearings with 
senior officials to report on both the progress and the problems. With 
140,000 American troops on the line, that's the least we can all do.
    There is no partisan interest in Iraq. There is only a national 
interest. Your role is critical to advancing that national interest 
because stabilizing Iraq is a political and diplomatic challenge as 
much as it is a military challenge.
    Saturday was a good day in Iraq. It was moving to see Iraqis of all 
sects and ethnicities voting in large numbers.
    But I hope that we have learned a lesson from previous good days in 
Iraq.
    Each time, there seemed to be a tendency to declare victory 
prematurely--whether it was with the fall of Baghdad, the capture of 
Saddam, the transfer of sovereignty, or the elections last January.
    Each time, one good day was followed by a lot of difficult days. 
So, while we should be encouraged by the referendum, we must be clear-
eyed about the very hard road ahead.
    While the Constitution appears to have passed, it is not yet the 
national compact that our able Ambassador to Iraq has tried to forge. 
In fact, there is a risk that Sunni bitterness at having failed to 
defeat the draft will add even more fuel to the insurgency, and 
possibly lead to a full-blown civil war.
    That is why, in my judgment, we must place a premium on two 
overriding priorities.
    First, we must intensify the effort to bring Sunnis into the 
political process. Last week's agreement to establish a committee to 
further amend the Constitution next year offers a ray of hope that this 
can be achieved.
    But to succeed, we need a second equally important change.
    We must fully engage the major powers and Iraq's neighbors in a 
stabilization strategy--something we simply have not done till now.
    The major powers, with us in the lead, could form a contact group 
that would become Iraq's main partner, taking some of the burden off of 
us. It would show the Iraqis a united international front, which would 
make it easier for them to make the hard compromises necessary for the 
political process to trump violence.
    It was just that kind of strong international pressure that forced 
the Shiites and Kurds to reverse their last minute gambit to rig the 
referendum in their favor.
    We also need a regional strategy to either force or induce Iraq's 
neighbors to act responsibly. Countries like Saudi Arabia, Jordan, 
Iran, Turkey, and Syria have tremendous influence with the key 
communities in Iraq. They can make the difference between an Iraq on 
the road to stability--or toward chaos.
    Some argue that such a strategy is naive. Well, the Clinton 
administration was not naive in Bosnia when it successfully engaged the 
Serbian leader Milosevic and the Croatian leader Tudjman in the Dayton 
Peace Process. And this administration was not naive when it engaged 
Afghanistan's neighbors--including Iran--in bringing Afghanistan's 
factions into the Bonn Conference.
    Why would others join us? Because they have as much of a stake as 
we do in Iraq not becoming a permanent source of instability in the 
heart of the Middle East.
    There are other important steps we must take. We are doing a better 
job of training Iraqi security forces.
    But we still don't know how many Iraqi troops must be able to 
operate independently or with minimal U.S. support to allow us to draw 
down--and what the time line is for training those troops to those 
standards.
    Finally, we must build the capacity of the Iraqi Government to 
provide essential services. The approval of the Constitution was an 
important hurdle, but national elections and elite political deals 
won't lead to stability as long as average Iraqis can't turn the lights 
on, can't drink the water, can't step out of their homes without 
stepping into raw sewage, and can't let their daughters leave the house 
for fear of kidnapping.
    And now we have learned that because of incompetent management and 
high security costs, the $20 billion reconstruction effort is running 
out of money.
    Why have we failed so miserably to deliver tangible improvements in 
the daily lives of the Iraqi people and what is the plan to turn the 
reconstruction effort around?
    We must move with a sense of urgency on all of these fronts. The 
less progress we make, the more Iraq risks becoming what it was not 
before we went in--a pre-9/11 Afghanistan--a haven for radical 
jihadists in the center of the Middle East. That would be a terrible 
irony. Worse, that would be a terrible blow to America's fundamental 
security interests.
    So I think what the American people really want to hear from the 
administration is a plan to bring our troops home as soon and safely as 
possible while preserving our fundamental security interests.
    We must not compound the mistake that was made in invading Iraq 
without a plan by leaving Iraq without a plan to prevent it from 
becoming a haven for terror. I hope, Madame Secretary, that you can 
provide clarity on such a plan today.

    The Chairman. Thank you very much, Senator Biden.
    Secretary Rice, we appreciate your patience in listening to 
us. We very much look forward to listening to you, and we thank 
you for your thoughtful prepared statement. Please deliver it 
in full, if you wish to do so, or abbreviate it. If you choose 
to abbreviate it, it will be accepted for the record, of 
course, in full.
    Secretary Rice.

    STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Rice. Thank you very much, Mr. Chairman. Thank 
you for inviting me.
    I would like to deliver this in full. It's my first 
opportunity to talk to you specifically about Iraq.
    I've spoken many times about why we are there, but I would 
like to talk about how we assure victory. In short, with the 
Iraqi Government, our political military strategy has to be to 
clear, hold, and build. To clear areas from insurgent control, 
to hold them securely, and to build durable national Iraqi 
institutions.
    In 2003, enforcing U.N. resolutions, we overthrew a brutal 
dictator and liberated the nation. Our strategy then emphasized 
the military defeat of the regime's forces and the creation of 
a temporary government with the Coalition Provisional Authority 
and an Iraqi Governing Council. In 2004, President Bush 
outlined a five-step plan to end the occupation, transferring 
sovereignty to an Iraqi interim government, rebuilding Iraq's 
infrastructure, getting more international support, preparing 
for Iraq's first national election this past January, and 
helping to establish security. Our soldiers and marines fought 
battles, major battles, against the insurgency in places like 
Najaf, Sadr City, and Fallujah.
    In 2005, we emphasized transition--a security transition to 
great reliance on Iraqi forces, and a political transition to a 
permanent constitutional democracy. The just-concluded 
referendum was a landmark in that process. Now we are preparing 
for 2006.
    First, we must help Iraqis as they hold another vital 
election in December. Well over 9 million Iraqis voted on 
Sunday. Whether Iraqis voted ``yes'' or ``no,'' they were 
voting for an Iraqi nation and for Iraqi democracy. And all 
their voices, pro and con, will be heard again in December. As 
the referendum passes, those who voted ``no'' this time will 
realize that their chosen representatives can then participate 
in the review of the Constitution that was agreed upon last 
week. This process will ultimately lead to Iraqis selecting a 
lasting government for a 4-year term.
    We must then have a decisive strategy to help that 
government set a path toward democracy, stability, and 
prosperity. Our Nation, our service men and women, are fighting 
in Iraq at a pivotal time in world history. We must succeed. I 
look forward to working together with you on winning.
    We know our objectives. We and the Iraqi Government will 
succeed if, together, we can break the back of the insurgency 
so that Iraqis can finish it off without large-scale military 
help from the United States, keep Iraq from becoming a safe 
haven from which Islamic extremists can terrorize the region or 
the world, demonstrate positive potential for democratic change 
and free expression in the Arab and Muslim worlds, even under 
the most difficult conditions, and turn the corner financially 
and economically so there is a sense of hope and a visible path 
toward self-reliance.
    To achieve this we must know who we are fighting. Some of 
these people are creatures of a deposed tyrant; others, a small 
number of homegrown and imported Islamic extremists. They feed 
on a portion of the population that is overwhelmed by feelings 
of fear, resentment, and despair.
    As I have said, our strategy is to clear, hold, and build. 
The enemy's strategy is to infect, terrorize, and pull down. 
They want to spread more fear, resentment, and despair, 
inciting sectarian violence, as they did 2 weeks ago in Hillah, 
when they blew up devout worshipers in a mosque and committed 
this atrocity during the holy month of Ramadan. They attack 
infrastructure, like electricity and water, so that average 
Iraqis lose hope. They target foreigners. The enemy forces have 
never won even a platoon-sized battle against our soldiers and 
marines, but their ultimate target is the coalition center of 
gravity, the will of America, of Britain, and of other 
coalition members.
    Let us say it plainly. The terrorists want us to get 
discouraged and quit. They believe we do not have the will to 
see this through. They talk openly about this in their writings 
on their Web sites. And they attack the Iraqi Government, 
targeting the most dedicated public servants of the new Iraq. 
Mayors, physicians, teachers, policemen, and soldiers--none are 
exempt.
    Millions of Iraqis are putting their lives on the line 
every single day to build a new nation, and the insurgents want 
most to strike at them. Sadly, this strategy has some short-
term advantages, because it is easier to pull down than to 
build up. It is easier to sell fear than to grow hope. But the 
enemy's strategy has a fatal flaw. The enemy has no positive 
vision for the future of Iraq. They offer no alternative that 
could unite Iraq as a nation. And that is why most Iraqis 
despise the insurgents.
    The enemy leaders know that their movement is unpopular. 
Zawahiri's July letter to Zarqawi reveals that he is, 
``extremely concerned'' that, deprived of popular support, the 
insurgents will ``be crushed in the shadows.'' ``We don't want 
to repeat the mistakes of the Taliban,'' he warned, ``whose 
regime collapsed in days because the people were passive or 
hostile.'' Knowing how unpopular they are, the enemy leaders 
also hate the idea of democracy. They will never let themselves 
or their ideas face the test of democratic choice.
    Let me turn now to our political military strategy. We are 
moving from a stage of transition toward the strategy to 
prepare a permanent Iraqi Government for a decisive victory. 
The strategy that is being carried out has profited from the 
insights of strategic thinkers, civilian and military, inside 
and outside the government, who have reflected on our 
experience and on insurgencies in other periods of history.
    We know what we must do. With our Iraqi allies, we are 
working to clear the toughest places--no sanctuaries for the 
enemy--and to disrupt foreign support for the insurgents. We're 
working to hold and steadily enlarge the secure areas 
integrating political and economic outreach with our military 
operations. We're working to build truly national institutions 
by working with more capable provincial and local authorities. 
We are challenging them to embody a national compact, not tools 
of a particular sect or ethnic group. These Iraqi institutions 
must sustain security forces, bring rule of law, visibly 
deliver essential services, and offer the Iraqi people hope for 
a better economic future.
    None of these elements, as you have said, Mr. Chairman, can 
be achieved by military action alone. None are purely civilian 
either. This requires an integrated civil/military partnership. 
Let me briefly review that partnership.
    Clearing the toughest places, no sanctuaries: As we enlarge 
security in major urban areas, and as insurgents retreat, they 
should find no large area where they can reorganize and operate 
freely. Recently, our forces have gone on the offensive. In Tal 
Afar, near the Syrian border, and in the west, along the 
Euphrates Valley, in places like al Qaim, Haditha, and Hit, 
American and Iraqi forces are clearing away insurgents. As one 
terrorist wrote to another, ``If the government extends its 
control over the country, we will have to pack our bags and 
break camp.''
    Syria and Iran allow fighters and military assistance to 
reach insurgents in Iraq. In the case of Syria, we are 
concerned about cross-border infiltration, about unconstrained 
travel networks, and about the suspicious young men who are 
being waved through Damascus International Airport. As a part 
of our strategy, we have taken military steps, as with our 
offensive in Tal Afar, to cut off the flow of people or 
supplies near that border. We are also taking new diplomatic 
steps to convey the seriousness of our concerns. Syria--and, 
indeed, Iran--must decide whether they wish to side with the 
cause of war or with the cause of peace.
    Second, to hold and enlarge secure areas: In the past, our 
problem was that once an area was clear militarily, the Iraqi 
security forces were unable to hold it. Now Iraqi units are 
more capable. In August 2004, five Iraqi regular army 
battalions were in combat. Today, 91 Iraqi regular army 
battalions are in combat. A year ago, no American advisors were 
embedded with these battalions. Now all of these battalions 
have American advisors.
    With more capable Iraqi forces, we can implement this 
element of the strategy, holding secure areas, neighborhood by 
neighborhood. And this process has already begun.
    Compare the situation a year ago in places like Haifa 
Street in Baghdad or Baghdad's Sadr City or downtown Mosul or 
Najaf or Fallujah, with the situation today. Security along the 
once notorious Airport Road in Baghdad has measurably improved. 
Najaf, where American forces fought a major battle last year, 
is now entirely under independent Iraqi military control.
    As this strategy is being implemented, the military side 
recedes, and the civilian part, like police stations and civic 
leaders and economic development, move into the foreground. Our 
transition strategy emphasized the building of the Iraqi Army. 
Now our police-training efforts are receiving new levels of 
attention.
    Third, we must build truly national institutions. The 
institutions of Saddam Hussein's government were violent and 
corrupt, tearing apart the ties that ordinarily bind 
communities together. The last 2 years have seen three 
temporary governments govern Iraq, making it extremely 
difficult to build national institutions, even under the best 
of circumstances. The new government that will come can finally 
set down real roots. To be effective, that government must 
bridge sects and ethnic groups, and its institutions must not 
become the tools of a particular sect or group.
    Let me assure you, the United States will not try to pick 
winners. We will support parties and politicians, in every 
community, who are dedicated to peaceful participation in the 
future of a democratic Iraq. The national institutions must 
also sustain the security forces and bring rule of law to Iraq. 
The national institutions must also visibly deliver essential 
services. Thanks to you and other Members of Congress, the 
United States has already invested billions of dollars to keep 
electricity and fuel flowing across Iraq. In the transition 
phase, we concentrated on capital investment, adding capacity 
to a system that had deteriorated to the point of collapse. But 
with freedom, the demand for electricity has gone up by 50 
percent, and the capability we have added is not being fully 
utilized because of constant insurgent attacks. We are, with 
the Iraqis, developing new ways to add security to this 
battered, but vital, system. And the Iraqis must reform their 
energy policies and pricing in order to make the system 
sustainable.
    The national institutions must also offer the Iraqi people 
hope for a better economic future. Millions of farmers, small 
businessmen, and investors need a government that encourages 
growth rather than fostering dependence on handouts from the 
ruler. The next government will need to make some difficult, 
but necessary, decisions about economic reform.
    In sum, we and the Iraqis must seize the vital opportunity 
provided by the establishment of a permanent government.
    Now, what is required?
    First, the Iraqis must continue to come together in order 
to build their nation. The state of Iraq was constructed across 
the fault lines of ancient civilizations, among Arabs and 
Kurds, Sunni and Shi'a, Muslims and Christians. No one can 
solve this problem for them. For years, these differences were 
dealt with through violence and repression. Now Iraqis are 
using compromise and politics.
    Second, the Iraqi Government must forge more effective 
partnerships with foreign governments, particularly in building 
their Ministries and governmental capacity. On our side of this 
partnership, the United States should sustain a maximum effort 
to help the Iraqi Government succeed, tying it more clearly to 
our immediate political military objectives. On Iraq's side, 
the Government must show us, and other assisting countries, 
that critical funds are being well spent, whatever their 
source. They must show commitment to the professionalization of 
their government and bureaucracy, and they must demonstrate the 
willingness to make tough decisions.
    Third, Iraq must forge stronger partnerships with the 
international community beyond the United States. The Iraqis 
have made it clear that they want the multinational military 
coalition to remain. Among many contributors, the soldiers and 
civilians of the United Kingdom deserve special gratitude for 
their resolve, their skill, and their sacrifices. Now the 
military support from the coalition must be matched by 
diplomatic, economic, and political support from the entire 
international community. Earlier this year, in Brussels and 
Amman, scores of nations gathered to offer more support. NATO 
has opened a training mission near Baghdad, and now, as Iraq 
chooses a permanent constitutional government, it is time for 
Iraq's neighbors to do more to help.
    The major oil-producing states of the gulf have gained tens 
of billions of dollars of additional revenue from rising oil 
prices. They are considering how to invest these gains for the 
future. These governments must be partners in shaping the 
region's future.
    We understand that across the region there are needs and 
multilateral programs in the Palestinian territories, Lebanon, 
Afghanistan, and Pakistan, as well as Iraq. Rather than 
consider them in a disjointed way, they, together, form part of 
a broad regional effort in transforming the Arab and Muslim 
world. We hope that the governments of the region, as well as 
others in Europe and Asia, will examine these needs and then 
invest decisively on an unprecedented scale, to become 
continuing stakeholders in the future of Iraq and of the 
region.
    Finally, the U.S. Government must deepen and strengthen the 
integration of our civilian and military activities. In Iraq, 
we have established an effective partnership between the 
Embassy and Ambassador Khalilzad, on the one hand, and the 
multinational forces command and General Casey, on the other.
    To be sure, civilian agencies have already made an enormous 
effort. Hundreds of civilian employees and contractors have 
lost their lives in Iraq. But more can be done to mobilize the 
civilian agencies of our Government, especially to get more 
people in the field, outside of Baghdad's International Zone to 
follow up when the fighting stops. We will embed our diplomats, 
police trainers, and aid workers more fully on military bases, 
traveling with our soldiers and marines.
    To execute our strategy, we will restructure a portion of 
the U.S. mission in Iraq. Learning from successful precedents 
used in Afghanistan, we will deploy Provincial Reconstruction 
Teams in key parts of the country. These will be civil/military 
teams working in concert with each of the major subordinate 
commands, training police, setting up courts, and helping local 
governments with essential services like sewage treatment or 
irrigation. The first of these new PRTs will take the field 
next month.
    Mr. Chairman, members of the committee, to succeed we need, 
most, your help and your support and that of the America 
people. We seek support across the aisle, from both Democrats 
and Republicans. And I know that we all, as Americans, know the 
importance of success in this mission. It is hard. It is hard 
to imagine decisive victory when violent men continue their 
attacks on Iraqi civilians and security forces and on American 
and coalition soldiers and marines. And we honor the sacrifice, 
because every individual has life stories and friends and 
families and incalculable sorrow that has been left behind. 
But, of course, there is a great deal at stake. A free Iraq 
will be at the heart of a different kind of Middle East. We 
must defeat the ideology of hatred, the ideology that forms the 
roots of the extremist threat that we face. Iraq's struggle, 
the region's struggle, is to show that there is a better way, a 
freer way, to lasting peace.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Rice follows:]

   Prepared Statement of Hon. Condoleezza Rice, Secretary of State, 
                  Department of State, Washington, DC

    Mr. Chairman, members of the committee, thank you for this 
opportunity to discuss our strategy in Iraq.
    I have spoken many times about why we are there. Today I want to 
discuss how to assure victory.
    In short, with the Iraqi Government, our strategy--the key--is to 
clear, hold, and build: Clear areas from insurgent control, hold them 
securely, and build durable, national Iraqi institutions.
    In 2003, enforcing U.N. resolutions, we overthrew a brutal dictator 
and liberated a nation. Our strategy emphasized the military defeat of 
the regime's forces and creation of a temporary government with the 
Coalition Provisional Authority and an Iraqi Governing Council.
    In 2004, President Bush outlined a five-step plan to end the 
occupation: Transferring sovereignty to an Iraqi interim government, 
rebuilding Iraq's infrastructure, getting more international support, 
preparing for Iraq's first national election this past January, and 
helping establish security. Our soldiers and marines fought major 
battles against the insurgency in places like Najaf, Sadr City, and 
Fallujah.
    In 2005, we emphasized transition: A security transition to greater 
reliance on Iraqi forces and a political transition to a permanent, 
constitutional democracy. The just-concluded referendum was a landmark 
in that process.
    Now we are preparing for 2006. First, we must help Iraqis as they 
hold another vital election in December. Well over 9 million Iraqis 
voted on Saturday. Whether Iraqis voted yes or no, they were voting for 
an Iraqi nation, and for Iraqi democracy.
    And all their voices, pro and con, will be heard again in December. 
If the referendum passes, those who voted no this time will realize 
that their chosen representatives can then participate in the review of 
the Constitution that was agreed upon last week.
    This process will ultimately lead to Iraqis selecting a lasting 
government, for a 4-year term. We must then have a decisive strategy to 
help that government set a path toward democracy, stability, and 
prosperity.
    Our Nation--our service men and women--are fighting in Iraq at a 
pivotal time in world history. We must succeed. Let's work together on 
how we will win.

                             OUR OBJECTIVES

    We know our objectives. We and the Iraqi Government will succeed if 
together we can:

--Break the back of the insurgency so that Iraqis can finish it off 
    without large-scale U.S. military help.
--Keep Iraq from becoming a safe haven from which Islamic extremists 
    can terrorize the region or the world.
--Demonstrate positive potential for democratic change and free 
    expression in the Arab and Muslim world, even under the most 
    difficult conditions.
--Turn the corner financially and economically, so there is a sense of 
    hope and a visible path toward self-reliance.

                          ASSESSING THE ENEMY

    To achieve this, we must know who we are fighting. Some of them 
creatures of a deposed tyrant, others a small number of homegrown and 
imported Islamist extremists, feed on a portion of the population 
overwhelmed by feelings of fear, resentment, and despair.
    I have said our strategy is to clear, hold, and build. The enemy's 
strategy is to infect, terrorize, and pull down.
    They want to spread more fear, resentment, and despair--inciting 
sectarian violence as they did 2 weeks ago in Hillah, when they blew up 
devout worshippers in a mosque, and committed this atrocity during the 
holy month of Ramadan. They attack infrastructure, like electricity and 
water, so that average Iraqis will lose hope.
    They target foreigners. The enemy forces have never won even a 
platoon-size battle against our soldiers and marines. But their 
ultimate target is the coalition's center of gravity: The will of 
America, of Britain, or of other coalition members. Let us say it 
plainly: The terrorists want us to get discouraged and quit. They 
believe we do not have the will to see this through. They talk openly 
about this on their Web sites and in their writings.
    And they attack the Iraqi Government, targeting the most dedicated 
public servants of the new Iraq. Mayors, physicians, teachers, 
policemen, or soldiers--none are exempt. Millions of Iraqis put their 
lives on the line every single day to build a new nation. The 
insurgents want to strike them.
    Sadly, the enemy strategy has a short-term advantage. It is easier 
to pull down than to build up. It is easier to sow fear than to grow 
hope.
    But the enemy strategy has a fatal weakness. The enemy has no 
positive vision for the future of Iraq. The enemy offers no alternative 
that could unite the Iraqi nation. That is why most Iraqis despise the 
insurgents.
    The enemy leaders know their movement is unpopular. Zawahiri's July 
letter to Zarqawi reveals he is ``extremely concerned'' that, deprived 
of popular support, the insurgents will ``be crushed in the shadows.'' 
``We don't want to repeat the mistake of the Taliban,'' he warned, 
whose regime ``collapsed in days, because the people were either 
passive or hostile.''
    Knowing how unpopular they are, the enemy leaders also hate the 
idea of democracy. They will never let themselves or their ideas face 
the test of democratic choice.

                              OUR STRATEGY

    Let me now turn to our strategy. We are moving from a stage of 
transition toward the strategy to prepare a permanent Iraqi Government 
for a decisive victory.
    The strategy that is being carried out has profited from the 
insights of a number of strategic thinkers, civilian and military, 
inside and outside of government, who have reflected on our experience 
and on insurgencies in other periods of history.
    With our Iraqi allies, we are working to:

--Clear the toughest places--no sanctuaries to the enemy--and disrupt 
    foreign support for the insurgents.
--Hold and steadily enlarge the secure areas, integrating political and 
    economic outreach with our military operations.
--Build truly national institutions working with more capable 
    provincial and local authorities. Embodying a national compact--not 
    tools of a particular sect or ethnic group--these Iraqi 
    institutions must sustain security forces, bring rule of law, 
    visibly deliver essential services, and offer the Iraqi people hope 
    for a better economic future.

    None of these elements can be achieved by military action alone. 
None are purely civilian. All require an integrated civil-military 
partnership. I will briefly review each of them.
    Clear the toughest places--no sanctuaries. As we enlarge security 
in major urban areas and as insurgents retreat, they should find no 
large area where they can reorganize and operate freely. Recently our 
forces have gone on the offensive. In Tall Afar, near the Syrian 
border, and in the west along the Euphrates Valley in places like Al 
Qaim, Haditha, and Hit, Iraqi and American forces are clearing away the 
insurgents.
    As one terrorist wrote to another: ``[I]f the government extends 
its control over the country, we will have to pack our bags and break 
camp.''
    Syria and Iran allow fighters and military assistance to reach 
insurgents in Iraq. In the case of Syria, we are concerned about cross-
border infiltration, about unconstrained travel networks, and about the 
suspicious young men who are being waved through Damascus International 
Airport.
    As part of our strategy, we have taken military steps, as with our 
offensive in Tal Afar, to cut off the flow of people or supplies near 
the border. We have also begun taking new diplomatic steps to convey 
the seriousness of our concerns. Syria and Iran must decide whether 
they wish to side with the cause of war or with the cause of peace.
    Hold and enlarge secure areas. In the past our problem was that 
once an area was clear, the Iraqi security forces were unable to hold 
it. Now, Iraqi units are more capable.

--In August 2004, five Iraqi regular army battalions were in combat. 
    Today, 91 Iraqi regular army battalions are in combat.
--A year ago, no American advisors were embedded with these battalions. 
    Now all of these battalions have American advisors.

    With more capable Iraqi forces, we can implement this element of 
the strategy--neighborhood by neighborhood. The process has already 
begun.

--Compare the situation a year ago in places like Haifa Street in 
    Baghdad, or Baghdad's Sadr City, or downtown Mosul, or Najaf, or 
    Fallujah, and the situation today.
--Security along the once notorious airport road in Baghdad has 
    measurably improved. Najaf, where American forces fought a major 
    battle last year, is now entirely under independent Iraqi military 
    control.

    As the strategy is implemented, the military side recedes and the 
civilian part--like police stations, civic leaders, economic 
development--move into the foreground. Our transition strategy 
emphasized building of the Iraqi Army. Now our police training efforts 
are receiving new levels of attention.
    Build national institutions. The institutions of Saddam Hussein's 
government were violent and corrupt, tearing apart the ties that 
ordinarily bind communities together. The last 2 years have seen three 
temporary governments govern Iraq, making it extremely difficult to 
build national institutions even under the best of circumstances. The 
new government to come can finally set down real roots.
    To be effective, that government must bridge sects and ethnic 
groups. And its institutions must not become the tools of a particular 
sect or group.
    The United States will not pick winners. We will support parties 
and politicians in every community who are dedicated to peaceful 
participation the future of a democratic Iraq.
    The national institutions must sustain the security forces. They 
also must bring the rule of law to Iraq.
    The national institutions must visibly deliver essential services. 
Thanks to you and other Members of Congress, the United States has 
already invested billions of dollars to keep electricity and fuel 
flowing across Iraq. In the transition phase, we concentrated on 
capital investment, adding capacity to a system that had deteriorated 
to the point of collapse. But, with freedom, the demand for electricity 
has gone up by 50 percent and the capability we have added is not being 
fully utilized because of constant insurgent attacks. We are developing 
new ways to add security to this battered but vital system. And the 
Iraqis must reform their energy policies and pricing to make the system 
sustainable.
    The national institutions must offer the Iraqi people hope for a 
better economic future.
    Millions of farmers, small businessmen, and investors need a 
government that encourages growth rather than fostering dependence on 
handouts from the ruler. The next government will need to make some 
difficult but necessary decisions.
    In sum, we and the Iraqis must seize the vital opportunity provided 
by the establishment of a permanent government.

                           WHAT IS REQUIRED?

    First, Iraqis must continue to come together in order to build 
their nation. The state was constructed across the fault lines of 
ancient civilizations, among Arabs and Kurds, Sunni and Shi'a, Muslims 
and Christians. No one can solve this problem for them. For years these 
differences were dealt with through violence and repression. Now Iraqis 
are using compromise and politics.
    Second, the Iraqi Government must forge a more effective 
partnership with foreign governments, particularly in building their 
Ministries and governmental capacity.

--On our side of the partnership, the United States should sustain a 
    maximum effort to help the Iraqi Government succeed, tying it more 
    clearly to our immediate political-military objectives.
--On Iraq's side, the government must show us and other assisting 
    countries that critical funds are being well spent--whatever their 
    source. They must show commitment to the professionalization of 
    their government and bureaucracy. And they must demonstrate the 
    willingness to make tough decisions.

    Third, Iraq must forge stronger partnerships with the international 
community beyond the United States.
    The Iraqis have made it clear that they want the multinational 
military coalition to remain. Among many contributors, the soldiers and 
civilians of the United Kingdom deserve special gratitude for their 
resolve, their skill, and their sacrifices.
    This military support must be matched by diplomatic, economic, and 
political support. Earlier this year, in Brussels and in Amman, scores 
of nations gathered to offer more support. NATO has now opened a 
training mission near Baghdad. And now, as Iraq chooses a permanent, 
constitutional government, it is time for Iraq's neighbors to do much 
more to help.

--The major oil producing states of the gulf have gained tens of 
    billions of dollars of additional revenue from rising oil prices. 
    They are considering how to invest these gains for the future.
--The governments must be partners in shaping the region's future.
--Across the region, there are needs and multilateral programs in the 
    Palestinian territories, Lebanon, Afghanistan, and Pakistan, as 
    well as Iraq. Rather than consider each in a disjointed way, 
    together they form part of a broader regional effort transforming 
    the Arab and Muslim world. We hope these governments, and others in 
    Europe and Asia, will examine these needs and then invest 
    decisively, on an unprecedented scale, to become continuing 
    stakeholders in the future of Iraq and their region.

    Finally, we--the U.S. Government--must deepen and strengthen the 
integration of our civilian and military activities.

--At the top in Iraq, we have established an effective partnership 
    between the Embassy and Ambassador Khalilzad on the one hand, and 
    the Multinational Forces command and General Casey on the other.
--To be sure, civilian agencies have already made an enormous effort. 
    Hundreds of civilian employees and contractors have lost their 
    lives in Iraq. But more can be done to mobilize the civilian 
    agencies of our government, especially to get more people in the 
    field, outside Baghdad's International Zone, to follow up when the 
    fighting stops.
--We will embed our diplomats, police trainers, and aid workers more 
    fully on military bases, traveling with our soldiers and marines.
--To execute our strategy we will restructure a portion of the U.S. 
    mission in Iraq. Learning from successful precedents used in 
    Afghanistan, we will deploy Provincial Reconstruction Teams (PRTs) 
    in key parts of the country. These will be civil-military teams, 
    working in concert with each of the major subordinate commands, 
    training police, setting up courts, and helping local governments 
    with essential services like sewage treatment or irrigation. The 
    first of these new PRTs will take the field next month.

    Mr. Chairman, members of the committee, to succeed, we need most 
your help and your support, and that of the American people. We seek 
support across the aisle, from Democrats and Republicans alike.
    I know this is hard. It is hard to imagine decisive victory when 
violent men continue their attacks on Iraqi civilians and security 
forces and on American or coalition soldiers and marines. Every 
individual has life stories, friends, and families--and incalculable 
sorrow for those left behind.
    But there is a great deal at stake. A free Iraq will be at the 
heart of a different kind of Middle East. We must defeat the ideology 
of hatred, the ideology that forms the roots of the extremist threat we 
face. Iraq's struggle--the region's struggle--is to show there is a 
better way, a freer way, to lasting peace.

    The Chairman. Well, thank you very much, Secretary Rice.
    Let me just mention that Secretary Rice can be with us only 
until 1 o'clock. That is a long time away, but the time will go 
rapidly as questions and answers ensue.
    The Chair would like to suggest----
    Senator Sarbanes. Mr. Chairman, could I--when was the last 
time Secretary Rice came before this committee? Could I 
inquire?
    The Chairman. I think, the confirmation process.
    Senator Sarbanes. February of this year?
    The Chairman. Yes.
    Senator Sarbanes. Thank you.
    The Chairman. Thank you very much.
    Now, we will attempt to have a 10-minute round so that all 
members can ask questions and have answers. That will depend 
upon the fairness that each member uses. If members are going 
to exceed their 10 minutes, this is going to make it very 
difficult for other members, who are more junior, to have their 
questions. So, the Chair asks cooperation from the outset. 
Please stay within the 10-minute limit, each one of you. Now, 
this new apparatus lists the time in front of you, so it is not 
ambiguous. Please pay heed.
    Now, I will start with the first questions to Secretary 
Rice.
    Secretary, I would refer to an article by David Sanger in 
the New York Times of October 17. The headline was, 
``Redefining the War: The Administration's New Tone Signals a 
Longer, Broader Conflict.'' This article takes up the dialog, 
or the messages, between the two al-Qaeda leaders that you have 
mentioned. It suggests that, in fact, Iraq is perceived as a 
battleground in the overall War on Terror, and that those, at 
least on the al-Qaeda side, or their allies, see the 
possibility not only of discouraging us, but, likewise, of so 
disrupting the Iraqi economy and the morale of people there, 
that essentially they will take control. Now, I would agree 
with your characterization. This is not a very constructive or 
optimistic point of view. But, from their strategy, they may 
feel that it's an effective one, that this is an area that is 
in play, that, given the divisions between the people of Iraq, 
who may or may not have an image of being Iraqi--as opposed to 
being Kurds or Shiites or Sunnis--that conceivably terrorism 
may win the day, and then, from there, radiate outward into the 
surrounding territory, destabilizing others. The camps in 
Afghanistan are no longer there, nor are various other 
emplacements that may have given some basis for the movement. 
Iraq could now be that basis.
    Now, this is, to say the least, troubling. As you've 
pointed out, these communications sometimes suggest that the 
insurgents there are being rather clumsy in killing so many 
people who are Iraqis, as opposed to aiming their fire entirely 
at Americans. And it suggests that the strategy might work 
better if they were humane with regard to Iraqis, and, 
likewise, with regard to some of the other objectives they've 
had.
    If true, if this is a serious strategy by the al-Qaeda 
movement and therefore the whole War Against Terror, then I 
would like for you to address: How do we change our military 
strategy or our diplomatic strategy? You have outlined the 
course we have taken--namely, to secure various situations, to 
try to enlarge that security to larger areas, to have a 
cleansing process--hopefully, more and more with the 
cooperation of Iraqis up front. But, at the same time, it's a 
very complex strategy, and I'm not certain that I have ever, in 
my own mind's eye, been able to envision exactly how it works, 
except in day-by-day battles and the occasional thought that 
this particular area really needs concentrated support.
    Can you describe if this is the goal of the terrorists? Is 
this going to be the base for the future? Our military people 
have briefed us on a whole circle of terrorism in which you 
have outposts like London or Madrid or European sites, where 
cells loosely connected, or even individuals, create terror. 
The terrorists may say, ``But, at the heart of this, at least 
we're going to have a home base.'' How do we fight that?
    Secretary Rice. Thank you, Mr. Chairman.
    I think that what this demonstrates is that--what is very 
clear post-September 11 is that we are in a broad war against 
terrorism, not a narrow one. This is not an issue of simply al-
Qaeda and Afghanistan. This is a question of going to the root 
cause of the extremist ideology that led people to fly 
airplanes into buildings on September 11, or led people to bomb 
in London or in Bali or so on. And the root cause of that 
extremist ideology is finding its place in a Middle East that 
has a sense of hopelessness, that has not advanced very far, 
where there is a freedom deficit in the Middle East that, 
unfortunately, really for about 60 years, we chose to ignore to 
try to deal and bring about stability. So, I think this does, 
in effect, go right to the heart of: What kind of Middle East 
is there going to be?
    We have one vision of what the Middle East is going to look 
like. It's going to be a Middle East that is modernizing, 
progressive, where women's rights are assured, where Islam 
finds its place alongside democracy, where there are stable and 
democratic governments, where liberty is no longer denied to 
the people. There is no doubt that that is a long-term 
generational struggle.
    The terrorist's view is that that long-term generational 
struggle should produce a Middle East that is closed, 
sectarian, where women have no rights, that looks, if you will, 
like the Taliban, but in a broad region. In order to do that, 
they have to expel us, they have to destabilize governments 
with which they are--we are associated. And from, I sense, 
Iraq, they also have to be sure that we don't win in the heart 
of that Middle East. And I think that's what they're saying.
    And so, the way that we frustrate their strategy for their 
vision of the Middle East--and, obviously, it's a vision of the 
Middle East that we could not tolerate, in terms of our own 
security interests; we would be fighting terrorism for many, 
many, many generations to come if, in fact, that kind of Middle 
East emerged--we, indeed, have to win in Iraq, which becomes 
one of the pillars of a democratic, stable, prosperous Middle 
East in which the freedom deficit is not a cause for the rise 
of extremism.
    You mentioned, also, we have to make progress in the 
Palestinian/Israeli issue, because that's another pillar. And, 
third, we have to see broad reform in the Middle East, so that 
beyond Iraq there is reform in places like Egypt and even in 
places like Saudi Arabia.
    Now, the Iraq-specific strategy has to be to defeat them on 
that ground, and that means not allowing them to hold 
territory. That means that once they have been expelled from 
territory, you use the opportunity to bring in stable civilian 
institutions, economic development. It's not just a matter of a 
military strategy of expelling insurgents. It's a matter of 
creating, then, a stable political and economic environment in 
the wake of expelling those insurgents.
    And, Mr. Chairman, what I was suggesting was that I think 
our military, now that they have Iraqi security forces that are 
more capable, is doing a very good job of clearing these 
places. We now have Iraqi security forces that can hold in many 
of these places. But we do need a more concerted civil/military 
approach to the followup on the political and economic side, 
and that's why we're considering a more integrated approach, 
along the lines that we've used in Afghanistan.
    But I have no doubt, Mr. Chairman, that they think that if 
they can win in Iraq--and winning in Iraq to them means waiting 
us out--if they can win in Iraq, then they will have 
established the foundation for their vision of the Middle East. 
That is what's at stake, and that's why we can't allow them to 
succeed.
    The Chairman. Now, at what point do we try to set some 
markers for progress of the Iraqis? For example, you're talking 
about waiting us out, but let's say that the Iraqis, after all 
is said and done, really don't want to have a united country; 
as a matter of fact, corruption abounds, the oil situation 
doesn't really improve, lights never come back on. Now, this is 
the sort of point in which some Americans would say, ``Why are 
we there? These folks not only don't appreciate us, but they're 
hashing the whole thing up. They literally don't want to have 
the sort of Iraq that was envisioned by the British and the 
French 50 years ago, when they raided there, in Syria and 
Lebanon. As a matter of fact, the Wahhabis from Saudi Arabia 
may very well be infecting the whole area. They don't respect 
boundaries.'' At what point do we have some benchmarks for the 
Iraqis to say, ``If you need us, succeed. Get on with it,'' as 
opposed to simply being on our case for being in the way and 
interfering with life, in general?
    Secretary Rice. Right. Well, Mr. Chairman, I think the 
Iraqis are demonstrating that they do, in fact, want a modern 
and unified and democratic Iraq. That's why they went out 8\1/
2\ million strong in January, despite the threats, and more--
almost a million more, in this past referendum, despite the 
threats. I think they're also demonstrating it in the fact 
that, you know, there are all kinds of anecdotes about women 
who talk about a better future for their kids by going to the 
voting box. We've all heard these anecdotes. Now, it's true 
that it's difficult, because Iraq was drawn on the fault line 
of these ancient civilizations, and they have, in the past, 
contained those differences by either repression or by 
violence. Now they're trying politics and they're trying 
compromise, and it's tough. And we will remember, in our own 
experience, that once you try to do this by politics and 
compromise, it will be messy and a bit untidy, and there will 
be ups and downs, but, for the most part, they've moved along a 
political schedule that has been very ambitious to get from the 
transfer of sovereignty to interim elections to a 
constitution--to a constitutional referendum--and now to 
elections in December. I think they've done remarkably. They 
have demonstrated to us that this is what they want to do.
    Now, we are pressing them very hard on this--they have to 
keep going. Senator Biden had a very interesting point. I 
remember being in Iraq myself and talking to Shi'a and Kurds 
and having to say to them--this was prior, of course, to the 
Sunnis now really fully engaging--I remember saying to them, 
``I know this is hard. We are telling you that people who you 
think repressed you, who were responsible for the atrocities 
against you, that you ought to open the political process. And, 
by the way, the Sunnis didn't vote in the last election. Why 
should you open the political process?'' ``But,'' I said to 
them, ``Sunnis also suffered under Saddam Hussein. There were a 
set of elite privileged Sunnis, high-ranking Ba'athists who 
supported the regime, but you have a chance now for a unified 
Iraq.'' I think everything suggests that that's what they want 
to do, and we need to support them in it.
    They are making progress along these benchmarks. Their 
security forces did manage, through tremendous efforts, to 
secure these elections better than the last elections. And, you 
know, the most interesting thing is, every time Zarqawi, who is 
the one who wants civil war--every time Zarqawi and his 
fighters do something to--that is sectarian--to blow up a Shi'a 
mosque or to go after a Kurdish party--they rally together to 
say, ``No, that's not who we are.'' I think they're doing 
remarkably well at trying to forge a united nation.
    The Chairman. Thank you very much.
    Senator Biden.
    Senator Biden. Thank you very much, Madam Secretary.
    I'm going to ask you some very specific questions, if I 
can. You've laid out some specifics here, everything from PRTs 
to the nature of training to reconstruction. When does the 
President believe, assuming his strategy is put in place, he'll 
be able to begin to bring home American forces?
    Secretary Rice. Well, I think that the President and his 
commanders have been very clear that we don't want to set a 
time schedule.
    Senator Biden. Well, I'm not asking for a timetable. I mean 
in the continuum here, assuming that the strategy you've laid 
out works out as you hope it does and begins to take root, 
where Iraqis are taking over more and more of the cities and 
towns, where, in fact, there is a coalescence of civilian 
competence, where there is an increase in the number of Iraqi 
forces capable of working with--alone or with American forces. 
If your strategy works, are we looking at being able to, 
sometime next year, draw down American forces? Not totally. Are 
we looking 2 years down the road? I mean, I've dealt, for 33 
years as a U.S. Senator, in the military. They have these 
plans. They never, never, never lay out a plan that doesn't 
have a strategy attached to it and say, ``If this works, this 
is what we're looking at.'' And I would respect--I know I'm a 
broken record, with you particularly, over the last 3 years, 
that I think one thing the Vietnam generation learned is, no 
foreign policy can be sustained without the informed consent of 
the American people. And we haven't gotten that informed 
consent, in terms of them knowing what they're signing onto 
from here on out.
    So, I'm not looking for a date to get out of Iraq, but at 
what point, assuming the strategy works, do you think we'll be 
able to see some sign of bringing some American forces home?
    Secretary Rice. Senator Biden, I don't want to hazard what 
I think would be a guess, even if it were an assessment of when 
that might be possible, because I think that the commanders 
have done this in the right way. They, of course, are making 
plans. They're looking at how the Iraqi forces are progressing. 
They're looking at how many of these forces are really capable 
of independent operations. And, by the way, by ``independent,'' 
we mean with its own logistics and indirect-fire support and 
all of that. They--there are 91 Iraqi battalions that are in 
the fight as the ``teeth,'' if you will, of the fight--that is, 
the combat power.
    Senator Biden. Right.
    Secretary Rice. But the question is: Do they still need 
American support, in terms of logistics?
    Senator Biden. And how much do they need?
    Secretary Rice. And how much do they need?
    Senator Biden. Yeah.
    Secretary Rice. It's not a surprising strategy to work 
first on the combat power, the ``teeth,'' if you will, and then 
to work on the enablers for that combat.
    Senator Biden. Madam Secretary, I don't disagree. But I 
would respectfully predict you'll hear repeatedly, today in the 
questioning, this notion of wondering what the benchmarks are 
here. What is the sense of when we know we're succeeding or not 
succeeding? How do we measure that? And I would suggest that 
you'll also hear that the Iraqis have to step up to the plate, 
they have to get to the point where, as the chairman said: When 
do we set benchmarks for them? And I'd respectfully suggest 
that if we indicated to them that we were going to--if the 
following things happened, we would be drawing down forces, 
that would help our effort, not hurt our effort. It would 
reinforce to the Iraqi people we don't plan on staying there 
forever, and it would put an inordinate pressure on Iraqi 
forces to step up to the plate. But I don't want to debate that 
in the 10 minutes we have. That's why I asked the question.
    Let me move to a second question. I know you know this, 
because, as my mother would say, ``God love you,'' you'd see me 
in your office, when you were National Security Advisor, on a 
regular basis--and I'm not suggesting you won't see me now.
    Secretary Rice. Anytime.
    Senator Biden. But back in April 2004, I laid out, in a 
speech, a proposal for the establishment of a contact group. 
And I think a lot of people thought, ``Well, okay, that's a 
Democrat speaking, even though he's talked a lot about this and 
supported the President on this,'' and it didn't mean much. And 
then former Secretary Kissinger and Schultz, in January 2005 in 
the Washington Post, wrote an op-ed piece saying, ``An 
international contact group should be formed to advise on the 
political and economic reconstruction of Iraq. Such a step 
would be a gesture of competent leadership, especially as 
American security and financial contributions will remain 
pivotal. Our European allies must not shame themselves in the 
traditional alliance by continuing to stand aloof for even a 
political process that, whatever their view of the recent 
history, will affect their future even more than ours, nor 
should we treat countries such as India and Russia, with their 
large Muslim populations, as spectators to outcomes on which 
their domestic stability may well depend.''
    Now, I know you heard me say that a hundred times. I've 
been banging at it. Others have. And your immediate past 
predecessor--your immediate past predecessor, Secretary of 
State Powell, recommended the creation of a contact group while 
he was in office.
    Now, what I don't understand is, why is the administration 
hesitating to establish a contact group? And I have met with 
Chirac, I have met with these foreign leaders. Depending on 
what you offer them as participation--to the extent of their 
participation, they all know they have a lot at stake. Why 
haven't we done this?
    Secretary Rice. Well, Senator, I'd like to answer that, and 
then I would like to come back, just for a moment, to your 
first question.
    Senator Biden. Sure.
    Secretary Rice. We do, in effect, have a number of groups 
that are meeting and working with the Iraqis on various 
aspects. For instance, there have been meetings, as you know, 
in Sharm el-Sheikh and in Brussels, of a large part of the 
international community to offer political and economic support 
to the Iraqis. Second, in advance of the referendum, Ambassador 
Jeffries was out in the region with Iraq's neighbors and 
talking to these neighbors.
    Senator Biden. Did those neighbors include Iran and Syria?
    Secretary Rice. We did not talk to the Iranians or the 
Syrians. I'll come back to that.
    The UAE, Saudi Arabia, Jordan, Egypt, and so forth, the 
neighbors, plus the----
    Senator Biden. I only have 3 minutes left. Is there a 
reason not to formalize this?
    Secretary Rice. I think, Senator, the reason not to 
formalize is that it allows everybody to play a role here 
commensurate with what they're able to do. And I think, 
actually, a formal contact group begins to exclude people, not 
to include them.
    Senator Biden. Well, I would----
    Secretary Rice. I think that the Bonn process that you 
talked about, that you appreciated, in Afghanistan, actually 
did not have a contact-group character; it had an 
international-community character. There was a ``Six-plus-
Two,'' but that, of course, predates the Bonn event.
    Senator Biden. It also had major powers.
    Secretary Rice. Well, we have major powers very involved, 
in Great Britain and in Japan, and I think you will see----
    Senator Biden. How about Russia, India, Pakistan, France?
    Secretary Rice [continuing]. They were all represented at 
Brussels, and they are all participating. The Iraqis are also 
reaching out to them. The Iraqis have been in all of those 
places.
    But let me just say one more thing about the international 
community.
    Senator Biden. Sure.
    Secretary Rice. There is no doubt that the international 
community needs to be more involved with the Iraqis. There's no 
doubt about it. Especially the neighbors. Now, they talk a 
great deal about their worries about instability. What 
Ambassador Jeffries did, and what Zal Khalilzad did before the 
referendum, was to say to them, ``All right, you have a stake 
in the stability, so what are you going to do about it?'' And, 
in fact, they have engaged the Sunni parties, and they have 
engaged the tribes, and they are working in that direction.
    Senator Biden. Well, Madam Secretary, I guess the generic 
point I have been trying to make for 2 years is that I think we 
are better served if this is not a totally United States-run 
operation--politically, economically, militarily--and that we 
have an opportunity, because France, for example, as you know 
as well as I do, is--14 percent of their population is Muslim, 
without the civil rights that most Americans have. They are 
very worried about failure in Iraq. They have not been very 
responsible, but they're very worried. We've--just not seemed 
to have put them in a position or a spot where we can force the 
international community to basically take a piece of this 
publicly for the world to see.
    I referenced a British proposal in a speech to Brookings on 
June 21 of this year, where the British said we should partner 
individual countries with individual clusters of Iraqi 
Ministries, where the civilians from those countries, who are 
experts in energy or experts in education or experts--would 
literally bring in--adopt, essentially, departments within the 
Iraqi Government. I have not met a single solitary expert who's 
visited the region--left, right, or center--who says any one of 
the Iraqi agencies has enough Iraqi civilian capacity to make 
that agency function. And so, I wonder, why have we not taken 
up--I realize it's old now--why aren't we reaching out to these 
other countries who have considerable administrative capacity, 
essentially, to take over the agency?
    Secretary Rice. Senator, we are reaching out, but, most 
importantly, the Iraqis are reaching out. Let's remember, this 
is a sovereign government, and they are reaching out. In fact, 
the Brussels conference did give specific arrangements that 
countries were prepared to take, with various Ministries and 
with various departments.
    Senator Biden. Can you tell us how many of those--how much 
money the international community has poured in since then? How 
many civilians they've brought into the country since then?
    Secretary Rice. Since Madrid, the international pledges to 
Iraq are about $13.5 billion.
    Senator Biden. Not the pledges. How much is--you know, 
``The check's in the mail.''
    Secretary Rice. We're working very hard on the disbursement 
of that. You know that's a problem, not just for Iraq, but 
broadly for the international community.
    Senator Biden. All right.
    Secretary Rice. Senator, I do need to go back to your 
question about how we benchmark, because we do have, with the 
Iraqis, a joint committee that is looking specifically at 
questions of what ``conditions based'' means, what Iraqi forces 
need to look like in order to be able to operate either 
independently or with minimal support. I think that the thing 
that we are focusing very much on, including General Casey and 
his people, is asking the questions: ``Are they making progress 
in the strategy of being able to really hold the territory that 
they've cleared? Are they making progress in being able to take 
over whole segments of the country, as they have in the south, 
for instance, in Najaf? Are they being able to take over 
responsibility for some of the toughest places, like in the 
road to the airport or Haifa Street, which was always 
considered a dangerous place?'' They are taking over 
responsibility now for some of the toughest places. Those are 
good benchmarks. And I think, frankly, they're better 
benchmarks such as: Can we point to things that they are 
actually doing, and doing capably? rather than trying to have a 
set of metrics that say, ``When we have so many of these and so 
many of those, then we'll be able to transfer responsibility.'' 
I think that's how General Casey thinks about benchmarks, and I 
think he's absolutely right.
    Senator Biden. Well, thank you, Madam Secretary. I think 
you've got to think bigger and bolder, or you're going to lose 
the folks. Thanks.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Secretary Rice, 
welcome.
    Madam Secretary, 3 weeks ago, the Saudi Arabian Foreign 
Minister was here. You met with the Foreign Minister, as this 
panel did. And I'm going to read the opening paragraph from the 
New York Times newspaper headline, ``Saudi Minister Warns U.S. 
Iraq May Face Disintegration.'' And it says, ``Prince Saud al-
Faisal, the Saudi Foreign Minister, said Thursday that he had 
been warning the Bush administration in recent days that Iraq 
was hurtling toward disintegration, a development that he said 
could drag the entire region into war.''
    Would you care to comment on the Foreign Minister's 
thoughts? Why would he make such a suggestion? Obviously, you 
don't agree. But this panel would very much appreciate your 
thoughts about it.
    Secretary Rice. Sure, Senator Hagel.
    I talked to Foreign Minister Saud al-Faisal about that 
statement. He says that that was not his intention, to suggest 
that U.S. policy is somehow contributing to the 
``disintegration of Iraq.''
    With all due respect to the Foreign Minister, I think the 
Iraqis are working very hard to prevent that disintegration by 
trying to vote and trying to build national institutions and 
trying to pass a Constitution, trying to get their economy in 
order. I really think that the proper role for Saudi Arabia or 
for any other country in the region is to help them, not 
critique them.
    I've made that point very clear to countries in the region. 
I think they understand that. The Saudis were very helpful in 
reaching out to Sunnis during this most recent runup to the 
referendum. They, of course, have important tribal ties that 
they can use to help to incorporate Sunnis into the process. Of 
course, financial support to the Iraqis as they try to build 
their infrastructure and their economy would be most welcome. 
Certainly, we will be reaching out to members of the region to 
see if we can secure greater financial support.
    So, this is a matter of being able to do something about 
the future. You don't just have to analyze it if you're Saudi 
Arabia. You have the opportunity to do something about it. In 
our conversations, the Saudis want to do something about what 
they may view as negative trends in the region.
    Senator Hagel. Well, this is a rather serious charge, and, 
as I noted, Madam Secretary, the Foreign Minister met with this 
panel and spoke rather clearly and plainly, even far deeper 
than what he said publicly. And I'm, I suspect, like many of 
us, concerned that a neighbor of Iraq who, as far as I know--
and maybe you're telling me something different--has not been 
helping Iraq--I understand they have been helpful. If that's 
not the case, you should clarify that. But this is rather 
serious. They live in the region. This isn't theory for the 
Saudis.
    Secretary Rice. I've said that they have been very helpful 
in the runup to the referendum, in reaching out to the Sunnis, 
in reaching out to the tribes. The Saudis have the capacity to 
help mitigate against what they may see as negative trends. And 
that was my point, that the Saudis not just comment on them, 
but actually actively be involved. I see now, in our 
discussions with the Saudis, since Ambassador Jeffries was out 
there, as Ambassador Khalilzad was in discussions with them, a 
much more active Saudi role in trying to help the Iraqis solve 
some of their problems.
    Clearly, one of the roles that the Saudis, and others, will 
need to play is that the United States has taken a large part 
of the initial burden, in terms of financial support for the 
Iraqi infrastructure, development for the training of the Iraqi 
security forces, and so forth. The region will have to be more 
supportive in that way, and I think they are prepared to be 
more supportive in that way.
    The other point that I would make is that Iraq needs 
political support. We have been working with the Arab League 
and with others to see if they will visit Iraq, if they will 
send trade missions to Iraq. Iraq needs to be integrated into 
the region and these are things that they can actively do, if 
they do, in fact, have concerns about the way things are going.
    But when I talked to Saud al-Faisal, he was very clear to 
say that he had not intended to imply that our policies were 
hurtling Iraq toward disintegration.
    Senator Hagel. Would you, then--picking up on what you just 
said, some of the testimony you gave, and especially in light 
of what Senator Biden has talked about--support a United 
Nations-sponsored Middle East regional security summit after 
the election of the Government of Iraq in December, to try to 
bring the partners in the Middle East together, with the United 
States taking a secondary role?
    Secretary Rice. Well, the United States did not take the 
lead role at Brussels. In fact, the lead role at Brussels was 
the Iraqi Government.
    Senator Hagel. I'm not talking about Brussels. I'm asking 
you a question about: Would you support a U.N.-sponsored Middle 
East regional conference after the election? With the Middle 
East players at the table.
    Secretary Rice. My view of these things, Senator, is that 
agenda is everything. And it is not that we have any problem 
with having people together to discuss the future of Iraq. We 
would want to make certain that any such agenda was, indeed, in 
line with the Iraqis' movement toward democracy, toward women's 
rights, and so forth.
    Senator Hagel. Well, I suspect it would be, but you don't 
have an answer for me on that.
    Secretary Rice. I don't have a problem with the idea of an 
international conference. Indeed, a number of us have talked 
about a follow-on international conference of some kind to 
Brussels.
    Senator Hagel. May I ask----
    Secretary Rice. My only point, Senator, is we have to be 
careful to commit to something until we know what its agenda 
might be.
    Senator Hagel. You may know that your Ambassador, 
Ambassador Bolton, answered a question about this yesterday 
regarding: Are we talking with the Secretary General of the 
United Nations about an accelerated, deepened U.N. role in Iraq 
after those elections? And he said that the current discussions 
were being held.
    Secretary Rice. Yes, they are. About a deepened U.N. role, 
I discussed that, with Secretary General Annan yesterday, when 
I met him in New York, because we do want more U.N. 
organizations involved. The United Nations has been terrific in 
overseeing this referendum. They're going to be very involved 
in the elections. But they need to be more involved in the 
reconstruction and the life of the country, as well.
    Senator Hagel. You mentioned, in your testimony, the Syria/
Iranian piece, and I think you said specifically in your 
testimony that the United States had begun taking new 
diplomatic steps to convey the seriousness of our concerns to 
Iran and Syria. Are we talking to Iran directly? How are we 
doing that? Can you explain what we're doing?
    Secretary Rice. Well, in terms of Syria, you know that I 
was just recently in France and Great Britain and in Moscow. We 
talked about our concerns there. David Welch has recently been 
in the region, talking with countries like Egypt and Saudi 
Arabia about our concerns. We've made them known to the Syrians 
publicly. We've also made them known through people. But this 
is a period of time in which the international community is 
deepening the isolation of Syria, for a number of reasons, 
including Resolution 1559 and questions concerning what might 
happen with the Melis Report. So, we want to be a part of a 
broader diplomatic effort, not to simply look at our own 
concerns.
    Senator Hagel. But what are we doing? You mentioned that we 
are doing--we're taking new steps, you say, diplomatic steps to 
convey the seriousness.
    Secretary Rice. Well, for one thing----
    Senator Hagel. Are we talking directly to Iran?
    Secretary Rice. The trips involving Syria were a part of 
those new steps.
    Now, with Iran, let me be very clear. We had, in 
Afghanistan, under U.N. auspices and under the ``Six-plus-
Two,'' direct discussions between Ambassador Khalilzad and his 
Iranian counterparts. That was in Afghanistan. We have 
considered whether contacts with Iran that are specifically 
related to Iraq might be useful between Ambassador Khalilzad 
and his counterpart on the same basis that we had them, 
essentially, in Afghanistan. We're considering whether that 
might be useful. But we don't lack channels to the Iranians.
    Senator Hagel. So, what are we doing differently, in this 
regard, from what we were doing 6 months ago to convey, as you 
say, the seriousness of our concern?
    Secretary Rice. I think, for one thing, Senator, remember 
this was related both to Iran and to Syria--the conditions in 
which Syria is living have changed dramatically in the last 6 
months. There is the deepening isolation of Syria regarding 
other matters, not just Iraq, the clear concerns of the 
Palestinians about the Palestinian camps in Lebanon, the clear 
concerns about the continued Syrian activity with Resolution 
1559, is the context in which we can approach questions of our 
concerns.
    Senator Hagel. But wouldn't you say that also about Iran? 
They just elected a new President, they have a new government.
    Secretary Rice. Unfortunately, I think their new President 
and their new government has looked as if it's going the other 
way.
    Senator Hagel. So, how are we, then----
    Secretary Rice. The speech to the United Nations----
    Senator Hagel [continuing]. Relaying our new concerns?
    Secretary Rice [continuing]. Was hardly welcoming, Senator. 
In terms of Iran, we are continuing to use the multiple 
channels we have to Iran.
    Senator Hagel. So, we have a new strategy? A new way to do 
this?
    Secretary Rice. What we have are new efforts, not new ways 
to do it, but new efforts, which means that we are turning up, 
if you will, the volume, diplomatically, on our concerns. We 
have really been more focused in the near term on our concerns 
about the Syrian border, because we think that there are things 
there that could be done forthwith that would have an almost 
immediate impact. And, again, the conditions now, and the 
conditions 6 months ago, concerning Syria are simply very 
different because of Syria's own diplomatic isolation.
    Senator Hagel. Do you think the Iranians have significant 
influence inside Iraq today?
    Secretary Rice. I think the Iranians have influence inside 
of Iraq. But the one thing that I would note is that I have not 
seen any evidence that the Iraqis want to trade Saddam 
Hussein's dictatorship and tyranny for Iranian-style tyranny.
    Senator Hagel. Thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    I don't know if Senator Sarbanes is--I guess he's not right 
here, so he'll be coming back shortly.
    Thank you, Madam Secretary. And thank you, Mr. Chairman, 
for holding this hearing. My hope would be, by the way--let me 
echo the concerns raised by, I think the--Senator Biden and 
Senator Sarbanes--we can't go this length of time again, quite 
candidly, from February, now, until mid-October, in having this 
kind of a public discussion about a policy that is draining our 
Treasury substantially. What is the number? I think somewhere 
between $4 and $6 billion a month, not to mention the lives 
that are being lost and soldiers being injured, as well as 
Iraqi citizens paying a price. This is just unacceptable, that 
we go this length of time without having a discussion about 
this subject matter in a public forum. So, I would hope that in 
the coming weeks and months, we can meet more frequently with 
you, Madam Secretary, in settings like this, so that the 
American public have an opportunity to hear the kinds of 
questions and drawn-out discussion. If we're available for Meet 
the Press and Face the Nation and other such programs, we ought 
to be available to this committee to meet more frequently--over 
an extended period of time, if necessary. I regret you're only 
going to be here a couple of hours.
    I was in Iraq last week, Madam Secretary, with Jack Reed, 
the Senator from Rhode Island, a member of the Armed Services 
Committee. And let me, first of all, say--which I think all of 
us agree with--and that is the incredible job that our military 
people are doing. I was impressed with them before I went, but 
even more so meeting the commanding officers there and the 
command structure, as well as the troops. They just do a 
fabulous job. And that's--it's something we can't be unmindful 
for. They're doing their job.
    I'm a little concerned--let me pick up with Senator Hagel's 
line of questioning. I have some others that I'd like to pursue 
with you in a minute, but I think he has an important line of 
questioning. While we were there, Qatar, going--before going to 
Iraq, there were news accounts about some military plans 
regarding Syria. Is there a White House Syrian group, for 
instance, that's meeting? Are we planning some action in Syrian 
that we ought to be aware of in this committee?
    Secretary Rice. Senator, our policy toward Syria is on the 
table; we want a change in Syrian behavior, we want a change in 
Syrian behavior on the Iraqi border.
    Senator Dodd. I understand that----
    Secretary Rice. And we want a change in regards to Lebanon, 
and in regards to the Palestinian/Israeli border.
    Senator Dodd. Are we considering military action, if 
necessary?
    Secretary Rice. Senator, I'm not going to get into what the 
President's options might be, but the course on which we are 
now launched is a diplomatic course, vis-a-vis Syria. We are, 
of course, engaged in military operations up west, near al Qaim 
and the Euphrates area, in order to try and stem the flow of 
insurgents who are coming across the Syrian border.
    Senator Dodd. I understand all of that.
    I'm talking about in Syria, now. You're not going to take 
the military option off the table in Syria, is that what you're 
telling me?
    Secretary Rice. Well, Senator, I don't think the President 
ever takes any of his options off the table concerning anything 
to do with military force. But the course that we are currently 
on is a course to use our military power to try to stem the 
tide of people who are coming in that area, to clear some of 
those towns in which insurgents have been living, up in al 
Qaim, in that region, and to put pressure on the Syrians, 
diplomatically, to take steps that would make it easier to stem 
the flow of the insurgents. That's the course that we're on.
    Senator Dodd. What about Iran? What is their--to pursue the 
line of questioning further, there's been growing concern about 
militias in the south having closer ties with Iranians, in 
fact, not being supportive, the efforts, particularly by our 
British allies in Basra and places like that. You, sort of, 
painted a happy-talk picture about how things are going here, 
and yet the reports we're receiving are that it's very 
troublesome what's occurring in the south.
    Secretary Rice. I think I haven't addressed the south, 
Senator. My only point was that the Iraqis show no interest in 
becoming tools of Iran, just as they've thrown off Saddam 
Hussein. In fact, there is considerable--as you know--tension 
between Iranians and Iraqis, for a variety of historical and 
cultural reasons. Now, that doesn't mean that Iran is not a 
troubling presence in the south. It is a troubling presence in 
the south. It has its friends and allies there. Indeed, we've 
been concerned about support for militias and support for 
insurgencies.
    The south is the British area. The British, of course, have 
diplomatic representation in Iran and can raise these issues 
with the Iranians directly. We have used channels that we do 
have with the Iranians. We are not without channels with the 
Iranians. We don't have a broad diplomatic engagement with the 
Iranians, but, of course, we have a Swiss channel, we have a 
channel that we've used in other places. And, as I said, we've 
even, on occasion, in Afghanistan, used the opportunity of the 
``Six plus Two,'' under U.N. auspices, to talk directly to the 
Iranians. So, we have channels to them. But the clear message 
should be to the Iranians from the international community, and 
I think it's coming not just from us, but from the neighbors, 
as well, that people expect the Iranians to behave as 
transparent neighbors, not as troublesome neighbors.
    The best bulwark against Iranian influence in that region 
is going to be the continued stabilization of the south, and 
the continued evolution of the politics in the south away from 
sectarian policies.
    Senator Dodd. Well, again, the meetings we had in the 
region--there's a great concern about what Iran's intentions 
are. And I want to underscore the point that Senator Hagel 
made. I hear you talking about the various contacts we have. I 
don't think any of us are suggesting full diplomatic relations 
with Iran at all, but if, in fact, politics and diplomacy are 
going to be the way in which we try and achieve our goals in 
Iraq and in the region, it seems to me that it's in our 
interest to try and find a way to successfully pursue the 
political and diplomatic track with Iran. As uncomfortable as 
it is, and our concerns about it, it seems to me that we're 
going to have greater results if we do that, and do it openly--
at least not shy away from the notion that we're engaged in 
that process.
    Secretary Rice. Senator, I believe that we can note that 
Ambassador Khalilzad has some flexibility, as he did in 
Afghanistan, to engage, through multilateral processes, his 
Iranian counterpart.
    Senator Dodd. Let me jump, if I can--I note in your 
statement here you had, on page 8 of your testimony, describing 
how much progress has been made in Iraq, and you talked about, 
``The security along the once-notorious Airport Road in Baghdad 
has measurably improved.'' Madam Secretary, I was there last 
week, and there's still--I was there a year and a half ago. I 
rode that road from the airport to the Green Zone. But Senator 
Reed and I were not at all allowed to travel that road, nor did 
we ask to do so. We were informed it was still rather dangerous 
to be traveling it here. My point in bringing this up is not 
just that particular point, but I think it's to be credible 
about how the situation is in Iraq. To suggest somehow that the 
security situation is vastly improved in this area, I think, is 
wrong, and it's dangerous, in my view. You're trying to build 
support for what's going on.
    Which draws me to the question of how the Sunnis are--
whether or not they're feeling as though, politically, they can 
engage in this process. As I understand it, despite the good 
turnout on Saturday--and I applaud that--there was a 
substantial no-vote by the Sunni population here. And, again, 
you can--when that occurs in this country, obviously we 
attribute it to being good politics and they're engaging in the 
process. I think it's a rather--a significant jump to suggest 
somehow that the Sunnis here have decided this is okay, because 
they're going to be fairly treated under the draft 
Constitution--or the Constitution that was approved of on 
Saturday.
    Haven't we, in a sense, allied ourselves too closely with 
the Shi'a and Kurd elements? And isn't it still a major problem 
for us, in terms of getting the Sunnis to feel as though they 
can be a part of a future Iraq under the circumstances? And 
shouldn't that no-vote by the Sunnis, despite the outpouring, 
be a matter of greater concern than you've reflected in your 
testimony?
    Secretary Rice. Senator, first of all, on the question of 
the improvement in security in some areas, it is possible to 
note improvement and still say that there is a very difficult 
security situation.
    Senator Dodd. Well, that road isn't safe today. You know 
that as well as I----
    Secretary Rice. The point is that I think that General 
Casey, in another testimony, talked about the fact there have 
been no major attacks against them on that road since June, so 
there has been an improvement.
    Senator Dodd. You wouldn't be on that road--if you fly to--
when was the last time you were in Iraq?
    Secretary Rice. I was there in April, and I hope to be back 
again soon.
    Senator Dodd. Well, I'm going to tell you right now, when 
you go back soon, they're not going to let you drive along that 
road.
    Secretary Rice. I'm sure that's the case, Senator. But the 
security along that road has been taken largely by Iraqis, and 
it's simply to note that they are starting to take on some of 
the most difficult tasks.
    But let me go to the question of the Sunnis. Of course the 
Sunnis voted overwhelmingly ``no.'' They made very clear that 
that was going to be the case, although a number of Sunnis did 
not vote against the Constitution, and a couple of major Sunni 
parties, including the Iraqi Islamic Party, came out--rather 
late in the day, unfortunately, but did come out in favor of 
the Constitution.
    Now, it is a balance in Iraq. The Sunnis are not the 
majority in the country. The Shi'a are the majority in the 
country. They participated heavily in the elections that 
created the first interim government, as did the Kurds. The 
Sunnis boycotted that initial election and, I think, believe 
now they made a mistake in boycotting that initial election.
    And so, what we have been trying to do ever since I was 
there, when I talked about Sunni participation, and certainly 
the tireless efforts that Zal Khalilzad has been putting in, is 
to create space for the Sunnis to enter the political process 
so that before many of the decisions that are critical to them 
are made, they would be fully a part of the political process. 
That's why the constitutional process has put off, to the next 
national assembly, some of the major decisions concerning how 
federal units--other than those that are in the Kurdish areas--
would be actually formed. That is, the law for that, the 
formulation of that, the rules for that have been put off to 
the next national assembly, when the Sunnis will be better 
represented.
    As was noted, there is now provision for the amendment of 
the Constitution in order to take care of people's concerns 
about the Constitution. So, what you really have is a very 
delicate, but, I think, thus far, successful, balancing act of 
recognizing that the Kurds and the Shi'a did participate 
overwhelmingly in the interim elections, they did dominate the 
transitional national assembly, but not forcing some of the 
decisions that are most important to the Sunnis until the 
Sunnis, now a part of the political process, can become more 
involved. So, certain very important things have been put off. 
Also, by the way, the question of future resources--the 
division of future resources has been put off to the future.
    It's a very difficult process. As I said, they were drawn 
along the fault lines of all of these civilizations. They're 
trying to deal with this new process.
    But I think you're going to see the Sunnis participate, in 
very large numbers, in the elections, because they now 
recognize that their best bet for protecting their interests is 
going to be to elect candidates that will protect those 
interests in the election.
    Senator Dodd. Well, thank you. I'm going to have to come 
back to that when we--in another round.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman. And thank 
you, Madam Secretary.
    I just returned from Liberia, where I participated in 
election oversight with some of your team. And I want to 
express my appreciation and admiration, including Ambassador 
Booth and Assistant Secretary Frazier, the USAID team, and 
everybody in the Embassy. They are doing good work.
    I also want to extend my thanks and appreciation to the 
U.N. election workers. They do amazing work in difficult 
circumstances.
    And I do want to follow up, this morning, on Senator Hagel 
and Senator Dodd's question about Iran and Syria and some of 
the discussion about possible military action. Under the Iraq 
war resolution, we restricted any military action to Iraq. So, 
would you agree that if anything were to occur on Syrian or 
Iranian soil, you would have to return to Congress to get that 
authorization?
    Secretary Rice. Senator, I don't want to try and 
circumscribe Presidential War Powers. And I think you'll 
understand fully that the President retains those powers, in 
the War on Terrorism and in the war in Iraq. But I will say to 
you that, on the matter of both Syria and Iran, our course is 
one that, on the one hand, is working on the Syrian border, 
militarily, Euphrates and the like, to try and clear that area 
of insurgent strongholds and to prevent the tracking of people 
back across the border.
    We are on a diplomatic course to try to get pressure and 
help with the Syrians to get them to take very specific actions 
that would stem the flow from that side of the border, and 
that's the course that we're on.
    Senator Chafee. So, that's a no.
    Secretary Rice. Senator, I am not going to be in a position 
of circumscribing the President's powers.
    Senator Chafee. Madam Secretary.
    Secretary Rice. Yes.
    Senator Chafee. Also in your statement you said that we're 
not going to pick winners--in your statement--we're not going--
we're not going to pick winners.
    Secretary Rice. That's right.
    Senator Chafee. And in answer to Chairman Lugar's question, 
he talked about a vision of the Middle East, which includes 
women's rights----
    The Chairman. The committee will be in order. Please cease. 
I thank you.
    Please proceed.
    Secretary Rice. Thank you, Senator.
    Senator Chafee. I'll start over. In your statement, your 
prepared statement, you said, ``We're not going to pick winners 
in elections.'' Yet, in answer to one of--Chairman Lugar's 
questions, you said you have a vision for the Middle East that 
includes women's rights and acceptance of Western engagement. 
How do you reconcile those two, if elections do not include 
those? This seemed to be a contradiction.
    Secretary Rice. If the elections do not include what?
    Senator Chafee. Women's rights or an engagement with the 
West. In answer to Chairman Lugar's question, you said, 
``That's our vision for the Middle East.''
    Secretary Rice. Yes.
    Senator Chafee. And then you said, ``We're not going to 
pick winners in elections.''
    Secretary Rice. I understand. We were very clear with the 
Iraqis that we expected them to have--that our partnership 
depended--as, by the way, it depends not just in Iraq, but 
throughout the Middle East--on respect for human rights, on 
respect for democracy. And, indeed, they've produced a 
Constitution that does, in fact, respect the rights of women, 
treats women as equal citizens in Iraq, gives, for instance, 
Iraqi nationality through----
    Senator Chafee. Let's look ahead. If there were elections--
--
    Secretary Rice. Yes.
    Senator Chafee [continuing]. That did not include that 
vision wouldn't we be, then, picking winners?
    Secretary Rice. Well, Senator, I think what we mean by 
``not picking winners'' is that we're not going to try to 
arrange the politics of Iraq to come out with some particular 
outcome. That would be, indeed, antidemocratic. But since we're 
making very clear throughout the region that deep relationships 
with the United States depend on democratic development--and 
not just in Iraq, which is far ahead, in terms of democratic 
development than any of its neighbors--I think our view of what 
kinds of outcomes we would hope for and expect are there. I 
think we have to trust the democratic process. I think we can 
trust the process in which 25 percent of the seats in the 
assembly are going to be for women. I think we can trust a 
process in which women are Ministers, in which women's rights 
are protected in the Constitution. Iraq seems to me to be much 
further along this road than almost any other state in the 
region.
    Senator Chafee. We'll see. Also, in your prepared statement 
you said, ``In 2004, President Bush outlined a five-step plan 
to end the occupation. And that is transferring sovereignty to 
an Iraqi interim government, rebuilding Iraq's infrastructure, 
getting more international support, preparing for Iraq's first 
national elections this past January, and establishing 
security.'' Five steps. It seems, of those five steps--a five-
step plan to end the occupation--we're failing, if you will, on 
three of them. And that would be rebuilding Iraq's 
infrastructure, getting more international support, and helping 
establish security. Yes, we've had the elections, and, yes, we 
have transferred sovereignty. So, that would say we're going to 
be there a long time. Would you agree?
    Secretary Rice. Well, Senator, I would put it a little 
differently. The first two steps, you're right, we have 
transferred sovereignty and ended the occupation, and there 
have been elections in Iraq. But it does not mean that there 
hasn't been forward movement on some of the other areas.
    On the security front, I think we all agree that the way 
that security is going to move forward is when we have capable 
Iraqi security forces. And Iraqi security forces are becoming 
more capable. They were very capable in this recent election. 
They've been very capable in Tal Afar. They're increasingly 
capable of taking and holding territory. So, we're making 
progress on the security front, though I would be the first to 
admit that security is still very difficult in Iraq, not the 
least of which because violent men can always blow up, through 
suicide bombs, innocent people. This is the case, by the way, 
inside of some of the most stable states in the world. And so, 
violent men are going to be able to grab the headlines and kill 
innocents. The question is: Are Iraqi security forces coming 
along to be able to stabilize the situation so there's not a 
threat to the political process? And I think they are making 
progress.
    And in terms of support from the international community, 
when the President spoke, we had not yet had the kind of 
outpouring of support for Iraq that you did have at the 
Brussels conference. I know that it, perhaps, didn't get that 
much attention back here. But you had over 80 countries 
pledging their support to Iraq in very specific ways, including 
support for their police training. You have, for instance, a 
police training academy in Jordan. You have Germans training 
police in the UAE. You have a NATO training mission for 
leadership of the armed forces inside of Iraq. Time and time 
again, people are coming now to support for Iraq. We need more 
help from the international community, but we have made 
significant progress.
    Senator Chafee. Well, we all wish that were true, but we 
can't kid ourselves, either. And I think we're there for a long 
time.
    Now, you said--by those criteria, certainly. By those five 
criteria, you said that the Palestinian/Israeli conflict, and 
confronting it, is a pillar to our success in the region. Those 
are your words.
    Secretary Rice. Yes.
    Senator Chafee. Now, I was at a dinner--I think it was 
Gridiron or something like that--and humor was encouraged. And 
the President ran a video of looking for weapons of mass 
destruction, looking under chairs, looking under the table, 
``Where are they? Where are the WMD?'' And, obviously, it was a 
joke. There were no WMD. It was all a joke, and the laugh was 
on us. Now the President's talking about ``the roadmap.'' And 
he's saying, in his words, in May, ``Israel must remove 
unauthorized outposts and stop settlement expansion.'' Is--are 
we going to someday see the same movie? ``Where is the roadmap? 
It must be under here somewhere. It's under this table. It's 
under this chair.'' Or is we really--are we really working to 
do what the President's saying? And that is, remove 
unauthorized outposts and stop settlement expansion?
    Secretary Rice. Well, interestingly, Senator, we've had the 
only return of territory to the Palestinians in the entire 
history of the conflict. The Israelis are out of the Gaza.
    Senator Chafee. I'm asking about settlement expansion.
    Secretary Rice. No, but if I may respond.
    Senator Chafee. I'm asking that question.
    Secretary Rice. Senator, I understand, and I will answer 
that question, but we can't lose sight of the historic change 
that has taken place, in that the Palestinians are actually now 
in control of the Gaza. We're working with them on issues of 
international egress and ingress, and matters of that kind. But 
let's remember that the Israelis took a historic decision to 
actually leave the territory.
    Senator Chafee. While 8,000 settlers moved out of Gaza, 
while 30,000 moved into the West Bank, in opposition to the 
President's stated----
    Secretary Rice. Actually----
    Senator Chafee [continuing]. Objectives.
    Secretary Rice [continuing]. Actually, Senator----
    Senator Chafee [continuing]. That's----
    Secretary Rice [continuing]. Actually----
    Senator Chafee [continuing]. That's why I'm asking the 
question.
    Secretary Rice. Actually, Senator, I don't think 30,000 
have moved into disputed territories in the West Bank.
    Senator Chafee. Probably more----
    Secretary Rice. No, it's not more. In fact, you have had 
settlements that we are concerned about in so-called E1 around 
Jerusalem. We have told the Israelis, in no uncertain terms, 
that that would contravene American policy. Indeed, we, by law, 
deduct some of the resources that we are providing to the 
Israelis as a part of their loan guarantees, because of 
settlement activity. We are determined that there is not going 
to be any prejudging of what a final status agreement might 
look like.
    But it's extremely important not to lose sight of the 
larger picture here. The Israelis are out of the Gaza. There 
are contacts and relationships between the Israelis and the 
Palestinians that are unknown in recent years because of the 
work that they did in the disengagement from the Gaza. We're 
training Palestinian security forces. They're going to have 
elections in January. This is an area that has started to move 
ahead. I think we just have to acknowledge that while there 
continue to be problems with settlement and even with the root 
of the fence, that there also has been great progress because 
of the Gaza withdrawal.
    Senator Chafee. I only make the point because it's your 
words that it's a pillar to our success in the----
    Secretary Rice. Absolutely.
    Senator Chafee [continuing]. Middle East. And as you look 
to these Palestinian elections ahead, it's going to be more and 
more difficult for the moderate Abu Mazens of the world to 
carry the day while these activities continue, in my view.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    I wanted to ask a question, first, about this system here, 
with beeps that go off and the red lights and so forth. How far 
beyond your 10 minutes do you have to go before something comes 
down from the ceiling----
    [Laughter.]
    Senator Sarbanes [continuing]. And snatches you out of your 
seat?
    The Chairman. Well, we'll----
    Senator Sarbanes. I just want to know whether that's also 
in the offing.
    The Chairman. It is in the offing. [Laughter.]
    Yes, they're secondary effects.
    Senator Sarbanes. Madam Secretary, do you think the 
Secretary of State visiting with the Foreign Relations 
Committee once a year in a public session to discuss U.S. 
foreign policy is adequate visitation?
    Secretary Rice. Senator, I would be glad to come more 
often. And I'm one of the most open people you will find to 
consultation, to briefings. Indeed, I would like very much to 
come more often. Obviously, the committee has work. Obviously, 
I'm on travel a great deal. We make available to you many 
officials of the Department. But you can be certain, I enjoy 
the process of testimony, and I'm very happy to come back more 
often.
    Senator Sarbanes. Well, Mr. Chairman, I believe we've been 
extending invitations to the Secretary----
    Secretary Rice. I think you have----
    Senator Sarbanes [continuing]. And they haven't----
    Secretary Rice [continuing]. There was one invitation that 
had to be cancelled, Senator, because I had to travel. That's 
the only invitation, of which I am aware, that I was unable to 
accept. But I just want to assure you, I see no reason that we 
cannot get together more often.
    Senator Sarbanes. Now, in response to questions put to you 
by my colleagues here today--and I want to make sure I'm not 
drawing an inaccurate conclusion--you said that the 
administration does entertain the possibility of using military 
action against Syria or against Iran, and that it's your view 
that the administration could undertake to do that without 
obtaining from the Congress an authorization for such action. 
Is that correct?
    Secretary Rice. Senator, I believe that what I said is that 
the President doesn't take any of his options off the table, 
and that I will not say anything that constrains his authority 
as Commander in Chief. But the course on which we are currently 
launched is a diplomatic course to try and bring international 
pressure on both Syria and Iran to do the right thing 
particularly on Syria.
    Senator Sarbanes. Well, I understand that, but I also 
understand that you're telling me that you also are reserving a 
military option against either of those two countries, and that 
you think you can exercise that military option without an 
authorization from the Congress.
    Secretary Rice. Senator, I just have to repeat, the 
President never takes any option off the table. And he 
shouldn't. As to his authority as Commander in Chief, I don't 
want to say anything that might appear to abridge that. But 
we're on a different course concerning Syria and Iran.
    Senator Sarbanes. Leaving aside the President's authority, 
do you think it would be wise to take such action without an 
authorization from the Congress?
    Secretary Rice. Senator, we are not on that course.
    Senator Sarbanes. I'm not asking you now to try to give a 
legal opinion with respect to his authorities, I'm asking you a 
question as to whether it would be wise to take such action 
without a congressional authorization.
    Secretary Rice. Senator, I am not in a position to, nor do 
I wish to, prejudge what the President might do in a 
hypothetical situation. But I can tell you that we're currently 
on a course that is diplomatic in character.
    Senator Sarbanes. Well, when you say, in your statement, 
that they must choose either the ``path of peace or the path of 
war''--I think that's the quote. Let me see if I can find it 
here. Do you recall that in your----
    Secretary Rice. I do, Senator. I recall that.
    Senator Sarbanes. Yeah.
    Secretary Rice. The ``path of war,'' meaning the 
continued----
    Senator Sarbanes. ``Whether they wish to side with the 
cause of war or with the cause of peace.''
    Secretary Rice. That's right. The ``cause of war,'' being 
the insurgents who are making war on the Iraqi people. That's 
what that refers to.
    Senator Sarbanes. Now, is Iran doing the same things that 
Syria is doing?
    Secretary Rice. The circumstances are different, Senator. 
And we have been concerned about the Iranian activities that 
may be supporting militias or insurgents in the south. It is a 
somewhat different situation. The concern in Syria is actually 
quite clear, which is that there are people who are coming in 
through Damascus Airport and then crossing the border into 
Iraq. And we believe that that can be rather easily cut off. 
It's a more complicated situation with Iran, but it's worrying.
    Senator Sarbanes. Now, on pages 7 and 8 of your statement, 
you outline a very ambitious agenda for the countries in the 
region, suggesting that they should take their oil revenues, 
become partners in shaping the region's future, and then invest 
very substantial sums. I mean, I don't know what you reason you 
have to think that they will do that, and it does raise this 
question of the reconstruction money that's going in.
    Now, the United States has contributed, as I understand it, 
tens of billions of dollars in reconstruction assistance in 
Iraq. Is that correct?
    Secretary Rice. That's correct.
    Senator Sarbanes. How much has come from other donors?
    Secretary Rice. The total pledge to Iraq, at this point, is 
about $13.5 billion.
    Senator Sarbanes. Right.
    Secretary Rice. The reference that I was making in the 
pages that you're referring to--now that we are moving to a 
permanent Iraqi Government, that commitment, that financial 
commitment, ought to be significantly increased.
    Senator Sarbanes. Well, how much of the $13.5 billion has 
actually been committed or disbursed?
    Secretary Rice. I'll have to get that for you, Senator.
    [The written answer submitted at a later date to the 
requested information follows:]

    According to our estimates, non-U.S. donors have disbursed about $3 
billion so far from their treasuries for assistance in Iraq--generally 
as deposits to the U.N. and World Bank trust funds, bilateral projects, 
or contributions to U.N. agencies for implementations.
    The Department will continue to work with other donors and with the 
Government of Iraq to ensure that international assistance is as 
timely, effective, and well coordinated as possible.

    Secretary Rice. Some of it is from multilateral 
institutions, for instance, the IMF and World Bank.
    Senator Sarbanes. I have a figure of $3 billion. Does that 
strike you as in the ballpark?
    Secretary Rice. I won't quarrel with that number. It may 
well be. But I'd just remind that most of them would say--and 
we have been pushing back on this--that the security situation 
makes it difficult for them to actually disburse the money and 
make the projects work more quickly. But I believe that, 
through discussion with them and through additional resources 
to be made available, that they really should invest in Iraq.
    Senator Sarbanes. Well, I know you think they should. The 
question I was asking is: What makes you think they will?
    Let me address the ``freedom deficit'' that you made 
reference to more than once so far in your testimony this 
morning. What is it you envision? Even if Iraq works out the 
way you're projecting--and, of course, there are lots of 
questions being raised about that, and many difficulties--but, 
beyond that, this tremendous freedom deficit that exists in the 
Middle East, are we going to have to embark on similar missions 
in order to correct the freedom deficit?
    Secretary Rice. I think we're addressing the freedom 
deficit. More importantly, people within the region--
nongovernmental organizations, citizens, opposition groups--are 
taking advantage of the opening the President has provided with 
his call for addressing the freedom deficit, to address it for 
themselves.
    Senator Sarbanes. But you have regimes that maintain 
authoritarian or totalitarian control. How are we going to 
address that question in order to restore the freedom deficit?
    Secretary Rice. Senator, we are addressing it. We're 
addressing it by making available to opposition and to citizens 
who wish to challenge the political system, or challenge the 
political ruling authorities, and making available assistance 
for democratic development, and for party-building. It's also 
the case that if you look, country by country in the region, 
yes, in some places the progress is small or slow, but it is 
progress. If you look at Egypt, which held--imperfect, to be 
sure--elections.
    Senator Sarbanes. Well, I'm looking at other countries that 
are much more constrained. And the question, of course, again, 
is whether we are entertaining using our military forces to try 
to address this freedom deficit.
    Secretary Rice. Senator, I don't think anybody thinks that 
the question of reform in the Middle East is primarily a 
military question.
    Senator Sarbanes. Well, now, let me ask you this question, 
because it was put to you by a number of my colleagues, and you 
say, ``Well, I can't really respond to it.'' Do you think 5 
years from now some American forces will have come out?
    Secretary Rice. Senator, I don't want to speculate. I do 
know that we're making progress with what the Iraqis themselves 
are capable of doing. As they are able to do certain tasks, as 
they are able to hold their own territory, they will not need 
us to do that.
    Senator Sarbanes. Well, let me make the question a little 
easier. What about 10 years from now?
    Secretary Rice. Senator, I think that it's not appropriate 
even to try and speculate on how many years from now there will 
be a certain number of American forces in Iraq. What is 
appropriate is to say the Iraqis have made progress, they're 
making more progress. They're not going to need us there when 
they can hold these places on their own.
    Senator Sarbanes. I have to say to you, that leads me to 
draw the conclusion that you're leaving open the possibility 
that 10 years from now we will still have military forces in 
Iraq.
    Secretary Rice. Senator, I don't know how to speculate 
about what will happen 10 years from now. But I do believe that 
we are moving on a course in which Iraqi security forces are 
rather rapidly able to take care of their own security 
concerns. As the President has said, at that point we are not 
going to need our forces there to do the things that Iraqis 
themselves ought to be doing. I assume, along with everyone 
else, that when the Iraqis are capable of doing that, then 
Americans are going to come home.
    Senator Sarbanes. Well, thank you.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Sarbanes. I do note that I went just over a minute, 
and the thing didn't come down from the ceiling. [Laughter.]
    The Chairman. Yes, it's very humane. [Laughter.]
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Secretary Rice, welcome. And thank you, Mr. Chairman, for 
holding this hearing.
    I think that the referendum and the turnout is a good, 
positive benchmark of progress in Iraq, where the people of 
Iraq, including Sunnis, now have a stake. I think this will 
have a motivational impact on the people of Iraq, that they 
have voted for this Constitution, will be constituting a 
permanent government, and the seeds of liberty are taking root 
there. It will be difficult, as it is in most countries that 
have been repressed, to quickly or easily establish a free and 
just society, but it seems to me that the components are there, 
and this is a measurable benchmark that a lot of us like to 
look for, for progress in Iraq.
    Secretary Rice, our opposition there are these various 
terrorist groups, whether they're remnants of Saddam's regime 
or al-Qaeda terrorists. I'd like to get your view on how much 
popular support these insurgents have. Are there indications 
that demonstrate what level of support these terrorists have? 
There were the Sunnis who came out in favor of ratification of 
this Constitution and their headquarters were bombed. But the 
question is: What measurements do you see, going forward, in 
support, if there is support, for these insurgents? And how 
well is the State Department and the Department of Defense 
coordinating on a strategy to counteract these terrorists?
    Secretary Rice. In answer to the second question, Senator 
Allen, we are coordinating very closely, between General Casey 
and Ambassador Khalilzad, but also with what I've described as 
an effort to have even greater integration of our political and 
military strategy so that we have civil/military teams in some 
of these places that have actually been cleared by our military 
forces.
    As to the popularity of the insurgents, I think that, in 
part, provides an answer to the question that's on everybody's 
mind: When will the Iraqis be able to do this on their own? The 
fact is that the insurgents are very unpopular. Every poll 
shows it. Anecdotal evidence of fighting between members of 
certain tribes and particularly the foreign fighters--
demonstrates it.
    I think it's hard to imagine how they could possibly be 
popular when what they do is slaughter innocent children or 
innocent school teachers. Their goal is to try and tear things 
down. We're trying to build things up. But they, themselves, 
have spoken of their concerns of their unpopularity. Indeed, 
they've tried to go after the heart of the democratic process 
by trying to terrify people into not voting. And they failed. 
They failed in January. And then, with even fewer attacks, they 
failed at the time of the referendum. And I would predict 
they're going to fail again in December.
    So, the milestones that we should be watching are whether 
the political process in Iraq is continuing ahead with more and 
more Iraqis finding their place in that political process, 
including Sunni participation, even though, clearly, for a 
while, violent men will be able to make life miserable for 
Iraqis by attacking their infrastructure or killing innocent 
civilians. But they don't have a positive political program for 
Iraq. And that's being revealed every day.
    Senator Allen. I do believe that the Constitution shows the 
people of Iraq that this is the sort of free and just society 
that they want to live in for themselves, as well as those for 
their children. The terrorists don't seem to have anything that 
would inspire or win the hearts of the people of Iraq. They 
don't want a Taliban-type government, nor do I think the vast 
majority of them want to go back to the repression that existed 
with Saddam Hussein's regime.
    Are you satisfied that this Constitution includes what I 
call the four pillars of a free and just society: Freedom of 
religion, freedom of expression, private ownership of property, 
and the rule of law? Do you consider this Constitution with 
respect to these values to be acceptable?
    Secretary Rice. It is a very good Constitution, Senator 
Allen. It is a Constitution for Iraqis, of course, and it is a 
Constitution that brings together democracy and Islam, which is 
very important to that region. But on all of the issues that 
you've raised--the rights of women, the freedom of religion, 
the individual rights that need to be protected--this is, 
indeed, a very good Constitution. The laws that will be passed 
to implement, if you will, some of the principles of the 
Constitution, some of that has been left--I think rightly so--
to future national assemblies, when they are more 
representative. But there is no doubt that, in terms of the 
Constitution itself, it is a good Constitution.
    Senator Allen. As we proceed, there was a concern that 
while there was a decrease in violence for this vote, this 
ratification, compared to January 30, that there was a concern 
that as we move toward December 15, when they're electing their 
permanent government, that the terrorists would increase their 
attacks. Now, with this progress that has been made, do we have 
any changes in our strategy as to how we're going to go 
forward? Not just us, but also, in addition, since this is a 
Constitution ratified by the people, the Iraqis actually 
governing themselves based upon their values, principles, 
Constitution, will we see more international support from other 
countries, other than the United States and the present 
coalition partners?
    Secretary Rice. Well, we do have----
    Senator Allen. I know those are two questions, but----
    Secretary Rice [continuing]. Of course.
    Senator Allen. I'm just--with this--you know, any sort of 
change in strategy for the next 2 months, plus added support.
    Secretary Rice. I think that you will see not so much a 
change in strategy as an intensification of efforts to make 
certain that the areas where insurgents are still concentrated, 
that we continue to go after those. I think that's General 
Casey's plan. Probably some of the decrease in violence has to 
do with having gone after some of those areas. But, clearly, 
the Iraqi security forces that played a major role in this last 
election will be there, and there will be even more of them, 
and perhaps they'll be a little bit more robust as we are 
trying to put enabler capability also in the Iraqi forces to 
allow them to do this job. I don't believe that people believe, 
at this point, that we need to bring in more forces from the 
outside to do this, but, rather, that the Iraqi forces are the 
best forces. They played an important role in January, they 
played an even more important role this October, and they'll 
play an even more important role in protecting the electoral 
process at the end of the year.
    I don't rule out that there will be violence, and maybe 
even a spike in violence, because the terrorists have made 
clear in all of their communications that they see the vote and 
democracy as the biggest threat to their success, because they 
know they're unpopular, and they know that if things go to the 
ballot box, then it's a bad thing for them. So, of course 
they'll try and disrupt those elections.
    Senator Allen. Well, the adjustments--I can understand how 
the overall game plan is the same, but adjustments, as 
circumstances on the ground and as----
    Secretary Rice. Of course.
    Senator Allen [continuing]. Progress goes forward, I think, 
will have to be made, or would logically be made. And, as you 
get more Iraqis standing up to secure their own communities and 
their own regions and country, it would seem to me that we'd be 
in more and more of a supportive role.
    However, for a country to succeed in the global community, 
the rest of the world does need to assist. You have everything 
from the problems we have with the worries about Syria; 
allowing terrorists to come in through Syria. They may be 
coming from North Africa or elsewhere. There's a concern about 
Iran and their influence. Then there's other countries I put in 
a different category, such as Jordan, Saudi Arabia, and Egypt, 
which can, I think, be more helpful, and then, also, our NATO 
allies, some of whom did not agree with our military action; 
however, could be very helpful.
    Do you see a use or an effort to try to get in these 
different variations of countries--some in the neighborhood, 
some important countries economically in the world--getting 
them more involved now that there is this clearly Iraqi 
Government and Constitution in place?
    Secretary Rice. Yes. And that's what I was trying to 
suggest, Senator, that we need to work harder again on, 
particularly, the region. And it's principally political and 
economic support. Frankly, I think, in terms of military 
support to something like the elections and the like, as I 
said, the Iraqi security forces are getting more capable. 
That's really going to be their responsibility. As they get 
more capable, it's very clear that the United States will not 
have to take on those tasks. We don't want to stay when we 
don't have to take on those tasks. But the region, and also our 
allies, could provide more financial and political support to 
the Iraqis. And we will be, and have been, working on exactly 
that.
    Senator Allen. Thank you very much.
    The Chairman. Thank you very much, Senator Allen.
    Let me call now on Senator Kerry.
    Now, I'll ask members to please observe, as Senator Allen 
did, that 10-minute situation so that we will be able to get to 
all of our Senators.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Madam Secretary, I apologize for not being here for 
testimony. I was up in Massachusetts looking at our dam. For 
the moment, it's holding together, and, we hope, will.
    The President has repeatedly summarized his Iraq plan in 
the following way, ``As the Iraqis stand up, we will stand 
down.'' And in his speech to the Nation 2 weeks ago, he, again, 
didn't lay out any kind of specific political or new diplomatic 
initiative. Certainly, he--what he really said was, more--
quote, ``more sacrifice, more time, more resolve.'' He went on 
to describe those who question his handling of the war as 
``self-defeating pessimists.''
    Now, writing in next month's Foreign Affairs, Melvin Laird, 
the former Secretary of Defense under Richard Nixon during the 
Vietnam war, says, ``Recent polls showing waning support for 
the war are a sign to the President that he needs to level with 
the American people. His west-Texas cowboy approach--shoot 
first and ask questions later, or do the job and let the 
results speak for themselves--is not working. As we learned in 
Vietnam,'' Laird writes, ``When troops are dying, the Commander 
in Chief cannot be coy, vague, or secretive.'' He goes on to 
suggest that you, Madam Secretary, are in the best position to 
perhaps help set the record straight.
    So, let me ask you: Do you think the President needs to do 
a better job to address what I don't think anybody would agree 
is a self-defeating pessimist in Melvin Laird, in his 
suggestion, as well as those of many other observers, 
Republican and Democrat alike, about the level of support and 
understanding of the American people and the specificity of how 
you are going to deal with the political solution to Iraq?
    Secretary Rice. Senator, I'm quite certain that we can 
all--and I count myself first and foremost among them--be out 
more, and do more, to address concerns or to address any 
ambiguities that people may feel that there are about how we're 
going to proceed to victory in this war. That's what I've tried 
to lay out today in talking about----
    Senator Kerry. Victory. How do you define ``victory''? What 
is ``victory''?
    Secretary Rice. When we have laid the foundation for an 
Iraqi Government that is clearly moving along its political 
path--and they are well along that political path now--a 
permanent government that has begun to really deal with its 
sectarian differences, as they are trying to do through this 
Constitution and their process, when we see that there is an 
insurgency--I'm a firm believer that this insurgency may be 
able, for quite a long time, to commit--let me call them 
cowardly violent acts against innocent people--that is, to blow 
up children standing at a school bus----
    Senator Kerry. We all understand what it is. And they would 
do that----
    Secretary Rice [continuing]. And they will do that.
    Senator Kerry [continuing]. For a long time.
    Secretary Rice. But if I could look at the way other 
insurgencies have died, if you will, it is when they are 
clearly no longer a threat to the political path and the 
political stability of the country. I think that you could 
suggest, for instance, that in Colombia there was a time when 
people questioned whether or not the Colombian Government would 
survive. Nobody questions that today, even though there is 
still an insurgency that, from time to time, has kidnappings 
and the like. Algeria is another case. And so, there is clearly 
a political path that has been followed to a stable political 
system, even with its problems--and, Senator, I'm sure you'd be 
the first to agree with me, that we continued for a long time 
in our own history to have political tensions and political 
problems.
    Senator Kerry. I understand, but, Madam Secretary, let's 
get to this definition within the context of what you're 
saying----
    Secretary Rice. Yes.
    Senator Kerry [continuing]. For this government. What 
you're saying begs a political solution, not a military----
    Secretary Rice. That's correct.
    Senator Kerry [continuing]. Solution. But mostly what we've 
been pursuing, up until recently, has been military--until, 
perhaps, Ambassador Khalilzad, who I think most of us would 
agree is doing an outstanding job under difficult 
circumstances, but with limited ability, because he's basically 
trying to resolve a fundamental difference between Shi'a and 
Sunni. Shi'a, who are dominant in numbers, and will dominate 
the government. Sunni, who want to return to power. Now, 
there's nothing in the political equation, and nothing in the 
Constitution, that resolves that fundamental--that fundamental 
divide. How do you do that? What are your plans to do that?
    Secretary Rice. Senator, I actually don't agree that 
there's nothing in the Constitution that addresses that 
fundamental divide. What addresses that fundamental divide is, 
it allows people, first of all, to have the vote as 
individuals, not as groups. And we have seen, since the start 
of the referendum and as people are getting ready for December, 
cross-cutting coalitions now developing in Iraq between some 
Kurds and some Shi'a, who--I'll use the terms in quotes, ``more 
secular Shi'a,'' some Sunnis who--for instance, the Iraqi 
Islamic Party that supported the Constitution. I think you're 
starting to see cross-cutting cleavages, and that's a very good 
thing, because within those institutions--the national 
assembly, the Presidency--they will have to use compromise and 
politics to reconcile their differences.
    Senator Kerry. But the fundamental differences, by any 
acknowledgment, were postponed. They came together, they agreed 
to have a committee that had the right to raise the fundamental 
issues, but they haven't resolved the fundamental issues.
    Secretary Rice. Senator, to ask them to resolve it within 
several months, I think would have been superhuman.
    Senator Kerry. Well, you're the ones who set the date for 
the Constitution----
    Secretary Rice. No.
    Senator Kerry [continuing]. With them.
    Secretary Rice. To ask them to get to a framework in which 
they can work in an evolutionary way to the resolution of 
differences that are centuries old, I think, is completely 
reasonable.
    Senator Kerry. Well, that is exactly the problem. But--
well, let me get to that with a question. I see the light's 
already on. It's incredible how fast the time goes. But many of 
our military leaders, Iraqi leaders, and the Iraqi people 
themselves are now saying, in effect, that our military 
presence is as much a part of the problem as it is the 
solution. General Casey, our top commander, recently told the 
Senate Armed Services Committee that our military presence, 
``feeds the notion of occupation,'' and, ``extends the amount 
of time that it will take for Iraqi security forces to become 
self-reliant.''
    The Iraq Sovereignty Committee, made up of elected members 
of the Iraqi National Assembly, released a report in September 
stating that the presence of U.S. troops prevents Iraq from 
becoming fully sovereign.
    A recent summary of numerous Iraqi public-opinion surveys 
concluded that a majority of Iraqis, ``oppose the United States 
presence in Iraq, and those who strongly oppose it greatly 
outnumber those who strongly support it.''
    So, what do you say to this growing sense--among our 
military leaders, who have told it to us when we visit Iraq, to 
the general, sort of, input of people who have spent a lifetime 
studying the region--that the presence is adding to the numbers 
of terrorists, adding to the perception of occupation, adding 
to the problem, and that it doesn't deal with the real problem, 
which is the political solution needed between Shi'a and Sunni?
    Secretary Rice. Well, first of all, Senator, when you come 
to the political solution, I think you have to see that these 
people have come a long way in 2\1/2\ years.
    Senator Kerry. I----
    Secretary Rice. It is very important, because you asked 
about a political solution. A political solution was not going 
to be born overnight in Iraq.
    Senator Kerry. That's not what you told America and that's 
not what you told this committee.
    Secretary Rice. Senator, as I've said before, we've had a 
long political evolution in the United States. We didn't even 
have it easy in Birmingham, let alone in Iraq.
    Senator Kerry. That's not what you told America, Madam 
Secretary.
    Secretary Rice. I ask us to focus on the political process 
that was laid out as a 2-year political process in the 
transitional administrative law, and they have been walking 
along in that political process.
    Now, is there a fundamental difference between Shi'a and 
Sunni? Many Iraqis will tell you that there is, in fact, not a 
fundamental difference. What there is are different interests 
that have to be reconciled and that have to be dealt with, both 
about the past and about the future.
    You're right, they have left, to a National Assembly that 
will be more representative, the writing of certain rules about 
how certain aspects of the Constitution will be carried out. 
That's the political process. There's nothing wrong with 
carrying out a political process in that way.
    As to our military presence, our military presence there is 
requested, under U.N. mandate now, by the Iraqi Government, 
itself. And it requests it because it knows that whatever 
people's views of our military presence there, our military 
presence is needed until Iraqi forces are able to be more 
responsible for their own security.
    Senator Kerry. Well, Madam Secretary, if I can just say to 
you, President Talibani, when he was here in Washington, had an 
interview with the Washington Post in which he said, we could 
withdraw 45-to-50,000 troops by the end of the year. He visited 
the White House, and he changed his tune. General Casey went to 
the Armed Services Committee and said we could withdraw troops 
by Christmas. Then the President said, ``Well, I think that's 
rumor or speculation.'' So, it seems as if you and the 
administration have a point of view about withdrawing that is 
quite different from Iraqis and quite different from our own 
military.
    Secretary Rice. Senator, we have a joint process with the 
Iraqis to determine, specifically, what conditions can be met 
by what forces. We want to be out of Iraq with our forces as 
soon as possible. We have no desire to stay in Iraq. But we 
also don't want to create a situation, in which we withdraw 
prematurely and leave Iraqi forces incapable of dealing with 
the insurgency that is made up of terrorists and Ba'athists, 
essentially, who would try and overthrow their government.
    Now, I laid out, earlier today, a set of steps we're trying 
to take, which demonstrate that political stability, and 
political control, rests with the Iraqi Government. It means 
that you go into areas, kick the insurgents out and create a 
secure environment, and then you create political and civil and 
economic development in that region so that area can be held.
    Senator Kerry. Right. Well----
    Secretary Rice. That is the political military strategy, 
and--by the way, most of the country is, of course, stable. 
We're talking largely about the Sunni area.
    Senator Kerry. Talking largely about Sunni. I understand 
that.
    Mr. Chairman, I know my time is up. You know, I just think 
that realistically, when you assess what you've just said, it 
really doesn't deal with that fundamental difference that I 
just described, which is--from every leader and every person 
you talk to in the region, they are all worried about Iran and 
Iran's influence with respect to the Shi'a. And the Shi'a have 
been adamant about the Islamic component of the state and about 
the federalization. The Sunni are adamant about the strong 
center, and not being fundamentally defined in Islamic terms. 
That is the fundamental difference here. And it seems to me 
that no amount of troops, and no amount of talk about the 
insurgency--and the insurgency according to every expert we 
talk to in CIA briefings and everything--is fundamentally 
Sunni. Fundamentally. Maybe 2 percent, slightly larger, are 
foreign fighters. The Iraqis don't want foreign fighters in 
there. In the end, the Shi'a and the Kurds will never tolerate 
them being there. So, if you could resolve the Sunni/Shi'a 
issue, which I think most people feel has not been addressed 
significantly, that's the way you're going to end violence.
    Secretary Rice. Senator, it's not conceivable that the 
Sunnis and the Shi'as are going to overcome hundreds of years 
of differences within a matter of a couple of years. But I 
would hope we all believe enough in democratic processes to 
believe that is really the only way that people resolve their 
ethnic and other differences. It has certainly been the case in 
much of the world that democratic institutions allow people to 
resolve their differences.
    By the way, the only other answer is that you repress one 
or the other. The only other answer to ``don't let them work it 
out through a democratic process'' is that the Sunni continue 
to repress the Shi'a. I think that's not acceptable to American 
values----
    Senator Kerry. Of course it's not.
    Secretary Rice [continuing]. And it's ultimately not 
acceptable to stability in the Middle East. So there are really 
only two choices.
    Senator Kerry. I would suggest to you, that's not the only 
other answer. With all due respect, that's not the only other 
answer. The other answer is that you, the administration, and 
the Sunni neighbors--mostly Sunni--get together. Why are they 
so absent? The Sunni neighbors ought to be involved in getting 
a compromise which the Kurds and Shi'a give up more than 
they've been willing to give up. And if you don't do that, this 
insurgency is not going to end.
    Secretary Rice. Senator, that's precisely what's happening. 
That's what Ambassador Khalilzad was in----
    Senator Kerry. That's stunningly late in the happening----
    Secretary Rice [continuing]. Well, it is----
    Senator Kerry [continuing]. Madam Secretary.
    Secretary Rice. Senator, for something that's been going on 
a couple of hundred years, they're actually doing pretty well. 
But, again----
    Senator Kerry. Our presence there has not been for a couple 
of hundred years.
    Secretary Rice. But, Senator, if I may just say, what it is 
we're replacing. We're replacing a situation in which this was 
done by repression, so that the Sunnis repressed the Shi'a 
majority and the Kurdish minority.
    Senator Kerry. Correct.
    Secretary Rice. That's not an acceptable outcome. And so, 
the placement of political institutions, a constitution, an 
assembly that will be elected with better Sunni representation 
in December, is the way to give these people a framework in 
which to resolve their differences.
    I agree with you, their neighbors need to be fundamentally 
involved in helping to close that divide. That's why we're 
reaching out to the Saudis and reaching out to the UAE and to 
others, to ask their support. They were very supportive in 
helping on the referendum to do precisely that.
    But it's not as if Iraq and the Middle East was stable 
along the Shi'a/Sunni divide before the liberation of Iraq.
    Senator Kerry. Of course not. I realize that.
    Thank you, Mr. Chairman. I appreciate your indulgence. 
Thank you.
    The Chairman. All right.
    Now, I did not interrupt the dialog. It was important. But 
it was 15 minutes.
    Secretary Rice. Sorry.
    The Chairman. And let me just say, please, if we're to have 
fairness to all of our Senators, we need to try to stay within 
the 10 minutes.
    Senator Kerry. Mr. Chairman, could I just say something 
about that quickly?
    The Chairman. Yes, of course.
    Senator Kerry. The reason it's so difficult is, this is the 
first hearing we've had since, I think, March.
    The Chairman. I appreciate it. That point has been made now 
several times. And we are having a hearing, and we're trying to 
stay within the rules.
    Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Madam Secretary, I'm sorry I was gone over half an hour, 
but I was meeting with Secretary Bodman to talk about a second 
declaration of independence from oil so that we become more 
independent from foreign sources of energy. I believe that 
we're in jeopardy today because we are getting too much oil 
from places that are not friendly to the United States. And I 
think your testimony was wonderful today. You should come back 
to the Foreign Relations Committee to testify every 3 or 4 
months, because the American people need to understand what it 
is that we're trying to do in Iraq.
    I just received a letter from a father who lost his son in 
Iraq, and he was responding to my letter of condolences. He 
wrote, ``In the spirit of helping you gauge public opinion, 
it's important to tell you that we do not consider the American 
mission in Iraq noble at all.'' The letter goes on to say, ``We 
hope Members of Congress begin to more seriously question this 
tragic mistake and call an end to continued financial support 
for a misguided effort that does not speak well for America and 
the world.''
    I think it's really important that the administration 
continue to level with the American people about how important 
it is that we are successful in Iraq, and that if we are not 
successful in Iraq, that the conflict will spill over into the 
Greater Middle East, because it is the goal of the 
fundamentalists to take it over. The best way I explain it is 
to say that we are fighting Muslim extremists, religious 
fanatics, who have hijacked the Quran so they can make people 
believe that jihad against the United States, and any people 
that share our values, is the way to get to heaven.
    One of the things that I'm really concerned about is how 
this affects the motivation of the insurgents. Through the 
chairman's auspices, we had a chance to meet with the King of 
Jordan and several other leaders. The question I asked them and 
ask today is: How do we convince the Muslims of the world that 
suicide and killing women and children represents a violation 
of the Quran, and that if you kill you don't go to heaven, you 
go to hell? I don't think we are getting information about this 
across to the American people.
    I'll never forget when Secretary Rumsfeld was briefing us 
in a private session, I asked him, ``What about Ayatollah Ali 
al Sistani?'' I know, that without Ayatollah Ali al Sistani, we 
would be in bad shape in Iraq. Al Sistani has been very 
supportive of peace in Iraq, even though we've never spoken to 
him.
    What are we doing to reach out to the Muslim world to reach 
the hearts and minds of millions of Muslims all over the world? 
Because if we don't do that, God only knows how long this is 
going to last.
    Secretary Rice. Senator, it's an essential issue, because, 
of course, this has to be within Islam, as well. Islam has got 
to declare itself not for people who blow up innocent 
schoolchildren, but for a peaceful route. And since we believe 
that, as you said, these people have hijacked this great 
religion and try to pervert its tenets, it's extremely 
important argument.
    Probably the most active person in this regard has been 
King Abdullah of Jordan, who has been active in holding 
conferences and meetings and seeking statements from 
influential clerics and scholars about both the need for Shi'a 
and Sunni Islam to come together, but also that it is not in 
accordance with the principles of Islam to kill innocents or 
take life. I think you're finally seeing more people speak up 
from within Islam. And we're encouraging it. We're encouraging 
people here, who, in the United States, are scholars of Islam 
or have contacts with the broader Islamic community, to do 
precisely that. There have been fatwahs that have actually been 
issued by clerics in Iraq, saying that for a follower of Islam 
to blow up innocent people is not a religious thing to do. But 
we have to--they and we--have to do much, much more to get this 
message out because Islam does not want to be tarred with the 
image like al Zarqawi. That isn't good for Islam, and I don't 
think that Islamic scholars or leaders want people to think 
that's what Islam is about.
    But they need more to speak out, and people are beginning 
to speak out.
    Senator Voinovich. And we're encouraging that to happen?
    Secretary Rice. Absolutely. One of the things that Karen 
Hughes has been doing is meeting with Muslims here in the 
United States and Muslims abroad. She's in Indonesia, as we 
speak, talking to those communities.
    But the real leadership for this needs to come from within 
the Muslim and Arab worlds. And, in that sense, I really do 
applaud King Abdullah in what he's doing. I think we can be 
good partners, because, of course, one thing that I remind 
people is that the United States has a large Muslim population. 
It is not as if we are isolated from the tenets of Islam.
    Senator Voinovich. I've talked to Karen Hughes about the 
fact that we need to do the job, right here in our country, of 
dealing with anti-Semitism and xenophobia, which is growing in 
our Nation, so we don't have a radicalization of our own Muslim 
populations right here in the United States.
    Secretary Rice. Right.
    Senator Voinovich. In that same line, the State Department, 
in terms of people that speak Farsi and Arabic, I know you've 
got a problem recruiting linguists. We really need to get more 
people in the Department to speak the language. I think it 
would help us a great deal.
    The other thing that bothers me, which deals with the issue 
of help from our neighbors is that it seems to me that we're 
not getting the help that we need from our allies. How do we 
get it in their heads how important this is? Now, for instance, 
our Italian brothers and sisters are going to withdraw 3,000 
troops. Bulgaria, 400. Poland, 1,700. The Ukraine, 1,600. I 
looked at a list of the amount of money that's been pledged so 
far. A billion dollars. A billion dollars. And about half of it 
is from the Japanese, in terms of reconstruction.
    What kind of help are we getting from these people, in 
terms of the reconstruction, because this is not just our 
problem, it's theirs, too?
    Secretary Rice. Senator, first of all, I think it may be 
that $1 billion is for specific kinds of activities. But, in 
fact, the total, internationally, is about $13.5 billion. 
You're right, a significant chunk of that, by the way, came 
from the Japanese.
    Senator Voinovich. How much did you just say?
    Secretary Rice. $13.5 billion, total. But that includes 
multilateral organizations like the World Bank and the IMF. And 
the Japanese are quite a large portion, actually, of the 
remaining money, although for instance, I think there's been 
about $500 million from Saudi Arabia and so forth.
    My point to you is that, you are right, this is not just 
our struggle. Iraq is a front line in the War on Terrorism. You 
know, when we look back on September 11, we see that there was 
an ideology of extremism that was growing and fulminating in 
the Middle East that came to strike not just us, but places 
like London and Madrid.
    Senator Voinovich. Osama bin Laden declared war against the 
United States in 1998, and we ignored it.
    Secretary Rice. And that same war, by the way, is being 
waged against London and Madrid and Bali and all kinds of 
places. So, this should be a full international effort. We will 
ask more from the international community. They are helping. 
The countries that you named that may, in fact, withdraw some 
of their forces, have pledged to do as much as they can, in 
terms of training and other kinds of support to Iraq, which, at 
this point, may be exactly what we need from them. So, they 
have not just walked out on their obligations. Those countries 
have been very clear that they want to continue to support the 
mission.
    But, of course, we need more support from the international 
system, and we especially need more support from the neighbors.
    Senator Voinovich. Well, I would suggest that you come up 
here more often. I know the President has a lot of things on 
his plate, but there's a lot of confusion out in the country 
today, and we need to repeat over and over again why we're in 
Iraq and what we're trying to accomplish. I think we have to 
level with the American people that this is not going to be 
over in 2 years. I refer to it as the ``fourth world war.'' The 
first one as the First World War, the Second World, the cold 
war, and now this is another world war. This is a formidable 
opponent that we have, and we're not going to be able to walk 
out of Iraq and it's going to be over with. This is going to 
continue. And we have a major challenge ahead of us. And it 
took us, what, 40 years to win the cold war? But millions of 
people today are enjoying democracy that didn't enjoy it before 
the cold war, and that's part of your vision and the 
President's vision.
    Secretary Rice. Yes. Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    Secretary Rice. May I--if you don't mind, just----
    The Chairman. Fine.
    Secretary Rice [continuing]. Because I wanted to just 
follow up on what Senator Voinovich has said. It is a long 
struggle. But on September 11, we learned that the Middle East 
was not stable. In fact, there was a deep malignancy growing in 
the Middle East. The freedom deficit, extremism, all of the 
reasons that we know. But the fact of the matter is, it's not 
as if the status quo was stable and holding. We had to make a 
decision that we were going to go after the root cause of what 
caused September 11. It's not just the people who flew those 
planes into the buildings. It's the extremist ideology that led 
them to fly those planes into buildings, or, as we've seen now, 
blow up a subway in London, or blow up small schoolchildren in 
Russia. This is a virulent and tough extremist ideology, an 
ideology of hatred that has its roots in a Middle East which 
has deep malignancies. If we tire and decide that we're going 
to withdraw and leave the people of the Middle East to despair, 
I can assure you that the people of the United States are going 
to live in insecurity and fear for many, many decades to come. 
If, instead, we can deliver on a different kind of Middle East, 
of which a different kind of Iraq is an essential part, then we 
have the chance to do, Senator Voinovich, what you talked about 
in Europe.
    I know people say the situations are different. But nobody, 
60 years ago, imagined a Europe in which there would not be 
major war again. Nobody imagined the reconciliation of Germany 
and France. Nobody took it seriously. But because the United 
States stayed true to its values, because we stayed and helped, 
we did achieve that. And now no one can imagine major war again 
in Europe.
    It'll be the case in the Middle East, too. It's not going 
to be a military operation of the kind we had to conduct 
against a big Soviet Union, but it is a generational struggle 
in the same way.
    Senator Voinovich. Thank you.
    The Chairman. Thank you very much.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Welcome, Secretary Rice. We always appreciate your presence 
here, and I will join the chorus and say we really do hope 
it'll be more often.
    The title of this hearing is ``Iraq and U.S. Foreign 
Policy.'' And that strikes me as a good start, because we need 
to make sure that our Iraq policy is advancing our foreign 
policy and national security goals, not obstructing them, as 
seems to me to be the case currently.
    The administration continues to speak about ``staying the 
course in Iraq,'' with the apparent end goal being elimination 
of the current insurgency and establishment of a peaceful 
democratic state. And, obviously, that is a laudable ambition, 
but it is not, and it cannot be, the basis for our foreign 
policy or our national security strategy.
    I feel that our current, largely single-minded and somewhat 
self-defeating focus on Iraq is causing us to overlook what 
should be our most fundamental goal, and that fundamental goal 
is combating the global terrorist networks that continue to 
threaten the United States. It's time to think about whether 
our military presence in Iraq is consistent with that goal. 
Increasing numbers of military experts are coming to the view 
that it is not. As is the America public. It's becoming 
increasingly clear that we have actually created a breeding 
ground for terrorism in Iraq and that the indefinite presence 
of tens of thousands of U.S. troops is often actually fueling--
fueling, not dampening--the insurgency.
    Obviously, that is not the fault of the brave men and women 
in uniform who are serving our country; it's the fault of the 
people who sent them to Iraq without a clear idea of what their 
mission was and how long it would take.
    I give credit to the courage of the Senator from Ohio, 
Senator Voinovich, for reading that letter from that family 
member.
    Madam Secretary, we owe our servicemembers some clarity and 
leadership. And we owe this country some serious thinking about 
how we can get our Iraq policy on track--on track so that it 
helps, rather than hinders us, in the broader fight against 
terrorism.
    In that regard, Madam Secretary, I want to return to the 
subject that Senator Biden and Senator Kerry were talking 
about, which has to do with whether to withdraw the troops--
should we start withdrawing the troops. I want to hone it more 
to the issue of whether it would be a good idea to have a 
public flexible timetable that we would suggest to finish the 
mission, achieve our goals, and bring the troops home. Notice I 
said ``a flexible timetable,'' not a drop-dead date, not a 
deadline, not ``cut and run.'' So, that's what my questions are 
about.
    And it's interesting that Senator Kerry quoted a very 
Republican former Wisconsin Congressman who was Defense 
Secretary under Richard Nixon, Melvin Laird. Let me quote 
something else from that same article that Senator Kerry 
mentioned.
    Melvin Laird said, ``We owe it to the rest of people back 
home to let them know that there is an exit strategy. And, more 
important, we owe it to the Iraqi people.''
    Our presence is what feeds the insurgency. And our gradual 
withdrawal would feed the confidence and the ability of average 
Iraqis to stand up to the insurgency.
    I'd like your reaction to Melvin Laird's remarks.
    Secretary Rice. I simply don't agree that it is our 
presence that is feeding the insurgency. I think the insurgents 
have a couple of aims. For some of them, one aim is to return 
to a day when high-ranking Ba'athists were in power who 
repressed, by force, Shi'a and Kurds. And, by the way, a fair 
number of Sunnis, too, who were in political opposition. That's 
one goal for some of them.
    For others that means, yes, the fact that we liberated Iraq 
is an irritant because they have a different view. They would 
prefer the Iraq that we were dealing with under Saddam Hussein.
    For the Zarqawi element of this, however, I would return to 
what Senator Voinovich said. These people were not just pacific 
people somewhere sitting around, and then we liberated Iraq and 
they decided there was a jihad to fight. This jihad, this 
violent extremist ideology has been developing in the heart of 
the Middle East out of the absence of freedom and the absence 
of hope for a very long time. It reached its full bloom--after 
several initial starts, it reached its full bloom on September 
11, when they flew those airplanes into those buildings.
    Now, we are fighting the global War on Terrorism, because, 
of course, we are tracking down and fighting the al-Qaeda 
network. And I was just in Afghanistan, which used to be their 
home base.
    Senator Feingold. Well, Madam Secretary, I'm sorry, this 
doesn't track with my question. My question was about the 
relationship between our presence in Iraq, our military 
presence, and the insurgency. And I want to tell you something, 
because I was in--this isn't just armchair people here in the 
United States--I was in Iraq in February, and I asked our 
military commanders the nature of the insurgency. At the time, 
they told me, as you were suggesting, a significant or major 
role of foreign insurgents being the ones that were blowing 
themselves up, and that, at that point, those who conducted 
some of those kinds of attacks were less likely to be Iraqis. 
This has changed. Your own people have told us that this has 
now changed. And what--the point here is, is that the way we 
are doing this is actually playing into the hands of the 
insurgents.
    I asked one of the top commanders in Iraq, I said, ``What 
would happen if we suggested to the world that there is a 
timeframe during which we will try to achieve this?'' His 
response to me, which, of course, was off the record, was, 
``Senator, nothing would take the wind out of the sails of the 
insurgents more than providing a clear public plan and 
timeframe for a remaining U.S. mission.''
    So, what I want to know is not the general statements about 
how we're fighting the war against terrorism, which, of course, 
we all agree on. Why does the administration continue to refuse 
even a flexible timetable for how long U.S. troops are likely 
to be in Iraq?
    Secretary Rice. Senator, we'd like our discussions of 
withdrawal and of bringing down the numbers of forces to be 
results-based rather than time-based. In terms of results, we 
know exactly what we want to achieve. We want Iraqi security 
forces that can hold their territory, where insurgents can't 
leave a city and then come back and terrorize the population. 
That's one of the things that we need to stay and achieve.
    Senator Feingold. Well, let me suggest on that point, Madam 
Secretary, with all respect, that I think one of the reasons 
you see that happening is that it's very credible for 
insurgents, for terrorists outside of Iraq, terrorists within 
Iraq, to convince people who are desperate that we're there to 
stay. You know, the President himself, in one of his speeches, 
said recently he didn't support necessarily putting more troops 
into Iraq, for fear that people would think we are going to 
stay there forever. Now, doesn't that same logic apply to the 
issue of a public timetable? I think the analysis actually is 
the reverse. The more you don't suggest that the so-called 
American occupation is going to end, the easier it is for them 
to recruit the insurgents.
    Secretary Rice. Senator, we've been very clear that we 
don't want to stay. That's a different matter than giving a 
timetable for when we think we will leave. I have no doubt that 
as the Iraqi security forces get better--and they are getting 
better, and are holding territory, and they are doing these 
things with minimal help--that we are going to be able to bring 
down the levels of our forces. I have no doubt that that's 
going to happen in a reasonable timeframe.
    The problem is, Senator, if you start making the issue when 
you will leave rather than what you have achieved, then you 
focus the insurgency and everybody else on when you will leave. 
If you focus this on what you will achieve, and recognize that 
you want to do that within a reasonable timeframe--because we 
don't want to stay. We've been very clear that we don't want to 
stay.
    Senator Feingold. Well, you see, Madam Secretary, that's 
what undercuts our credibility. People naturally are a little 
bit suspicious of a country that invades another country. 
That's a reasonable thing, to be suspicious. We have good 
intentions. But to the extent we don't suggest a vision, a 
scenario of when we might achieve these goals and when we might 
leave, naturally people become suspicious. They wonder if we're 
not there for some other reason. And you've heard the reasons--
oil or domination in the Middle East.
    I believe that this logic that the administration has is 
the actual opposite of what would be most likely to take the 
wind out of the sails of the insurgents. And I've got to tell 
you, Madam Secretary, you and the President are an ever-
narrowing group of people who believe that this logic is 
correct. Experts around the world, military experts, people I 
talk to in Iraq, experts here, just about everyone agrees, 
including Melvin Laird, that our approach, without talking 
about a public timetable, is feeding the insurgency.
    Secretary Rice. I understand your view of this, Senator. In 
talking with the Iraqi Government, which, after all, has 
probably most at stake here, the issue for them has been to 
have a joint committee that looks at conditions-based 
withdrawal.
    Senator Feingold. Then why did President Talibani suggest 
that there is a scenario of when we could bring the troops 
back? He specifically talked about a timeframe.
    Secretary Rice. Well, I think that the Iraqi Government--
the Minister of Defense, the Prime Minister, and others--are 
engaged in a process that allows us to know when we have 
achieved what we need to achieve. You do not want American 
forces to leave and then find out that Iraqi forces are 
incapable of holding their own territory. That's a mistake we 
have made in the past.
    Senator Feingold. Well, Mr. Chairman, the American people 
are for a vision of when we can finish this. The Iraqi people 
are for it. The Iraqi leaders are. Our generals in Iraq, when 
they're allowed to talk about this, are. There are very few 
left who believe that we should have a secret strategy that 
does not indicate when we can finish this.
    But I do thank you, Madam Secretary.
    Secretary Rice. Thank you, Senator. May I just say, I don't 
think we have a ``secret strategy,'' Senator. What we have is a 
strategy that will be based on results. That's the issue.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman. And thank you 
for holding this hearing.
    Madam Secretary, it's nice to see you, having sat in the 
chair for a long time in my prior--I know the hour is dawning, 
so I'll be brief. One of the benefits of being at the tail end 
is that I--a lot has been asked already.
    So, I appreciate very much your opening statement and the 
roadmap that it lays out. And I do believe that it does offer a 
vision for--a strategy, as well as how to accomplish it. And I 
thank you for that. I think it ought to be shared. I agree with 
Senator Voinovich that it's something we need to more clearly 
disseminate to the American people.
    I was recently with Secretary Rumsfeld visiting with some 
troops in Florida, and one of the things that really struck me 
was, out of the large number of troops that were there--many of 
them, of course, had served in Iraq--CENTCOM, we're proud to 
have in Florida--and one of the things that one of them brought 
up was the--really heartfelt sort of passion--was, ``When we're 
there, we understand our mission. We come back, and we are 
shocked and dismayed about how little is being said in America 
about the success of our mission, about the things that are 
happening, about how the Iraqi people interact with us, how 
they behave toward us, how they welcome us, and as well as the 
successes that are being accomplished, whether it be in health, 
whether it be in, frankly, creation of institutions, as well as 
how well the Iraqi troops are performing.''
    Now, I know this sounds completely out of place, because 
this sounds like a positive question, but I really do wish that 
you would share with us what you can about the frustration that 
this young man felt about how little is said about the good 
that they're accomplishing and how much they believe in their 
mission. Because, not to belabor the question, but it is so 
clear that there's a complete misdirection between basing 
success upon when we withdraw troops as opposed to basing 
success on when we've accomplished a certain mission, which you 
clearly detail in your opening statement.
    Secretary Rice. Thank you, Senator.
    When I talk to our troops, they express that they know what 
it is that they're fighting for. They know that an Iraq that 
finally achieves stability and achieves political 
reconciliation and some measure of prosperity is going to be a 
different kind of partner for the rest of the Middle East, and 
that the Middle East is going to be different, and that 
American children and grandchildren are then not going to live 
in fear of this extremist ideology, which has its roots in this 
very malignant water that is the Middle East.
    I think that the mission is being achieved in many ways. 
First of all, if you look at the political process, I know that 
it's difficult, and that they've put off some hard decisions, 
but, you know, with all due respect to us, we, unfortunately, 
put off the decision about how to deal with slavery for more 
than 100 years. And, unfortunately, it came back to haunt us. 
Hopefully, they'll do better than we did. In our original 
Constitution, my ancestors were three-fifths of a man. That 
wasn't a very good compromise. They haven't done anything 
nearly so outrageous.
    And so, I think we need to be supportive of the political 
process that they are engaged in. It's not just so that our 
troops know that their mission is succeeding, but so that the 
Iraqi people hear an expression of confidence in their ability 
to overcome their differences. All they ever hear is that 
somehow they want civil war. They don't want civil war. Zarqawi 
wants civil war. We need to express confidence that the Iraqi 
people, in this very difficult process, are working their way 
through their differences rather than using repression and 
violence. That is an extraordinary thing for Iraq.
    Second, our forces are sustaining the development of Iraqi 
forces that are fighting bravely, that are getting better and 
better, that are securing their own towns, that are securing 
their own roads, that are bringing stability to parts of the 
country which have not been stable, so that our economic and 
reconstruction plans can take place.
    If you talk to some of the commanders out there who have 
given sewage-treatment capability to a place, if you go to a 
place like Fallujah, where now they have 70 percent of the 
people with water and electricity, if you go to these towns in, 
for instance, what used to be called Sadr City, that had raw 
sewage running in the streets--and thanks to our people working 
with Iraqis, has been cleaned up and people have been given a 
better chance. The hundreds of schools that have been 
rehabilitated, the transformation networks that have been 
restored, the healthcare centers that are providing 
immunization to a population that had fallen into the worst 
ranks, in terms of child mortality and infant mortality, and in 
terms of lack of immunization, certainly for anything that 
approximated a developing country. We are doing a lot for the 
Iraqi people, and I think our forces know that their mission, 
in that sense, is making a difference in the lives of Iraqis. 
But the real difference that it's making is allowing Iraqis to 
pursue a political path, rather than a path of repression and 
violence.
    And I just want to repeat what I said to Senator Kerry. 
Iraq was maintained by violence and repression. That's how 
Shi'a and Kurds were kept from expressing their desires and 
their interests. That was not acceptable. Now they're trying to 
make a political compact between Sunnis and Shi'a and Kurds and 
Turkemen and all others. And that political compact is 
imperfect. Their Constitution is not perfect. They've left 
certain things that have to be worked out later on.
    But for a country that has been through what they've been 
through the last 2\1/2\ years, they've made remarkable 
progress. From our point of view, to stay with them and work 
with them until they are a pillar of a different kind of Middle 
East is going to make an enormous difference not just to their 
security, but to our security. That's what really has to be 
understood. It is not as if the Middle East was stable and 
humming along and happily moving toward political 
reconciliation and stability, and then we decided to liberate 
Iraq. The Middle East was a malignant place that produced an 
ideology of extremism so great that people flew airplanes into 
our buildings one fine September morning.
    We need to keep that in mind when we say, ``We caused 
instability in the Middle East,'' or, ``We're creating 
terrorists.'' What kind of Middle East do we think we were 
dealing with? The status quo was not sustainable. And so, 
Iraq--and, by the way, other cases, like Lebanon, like the vote 
for women in Kuwait, like municipal elections in Saudi Arabia, 
like the first Presidential elections in Egypt----
    Senator Martinez. Palestinian Authority.
    Secretary Rice [continuing]. The Palestinian Authority, 
which is now seeking real peace with Israel. This is a 
different Middle East, already, than the one that produced 
Mohamed Atta and the suicide bombers. And we have to stay with 
it.
    I want to assure you, I don't think that this is, largely, 
going to be a military commitment for the United States. When I 
talk about the cold war, I don't mean a military commitment of 
the 50 years that we had to stay in Europe, because it's a 
different kind of challenge. But we do have to stay committed, 
and we have to stay committed to success, not just to an early 
withdrawal.
    Senator Martinez. At the risk of being corny, I do get 
excited when I see the ink-stained finger and the smiling faces 
of people as they've exercised their right to vote, as millions 
of Iraqis had an opportunity to Sunday. I know you harken back 
to your youth in Birmingham. I also have an interesting 
growing-up experience, and I know that, for 46 years, the 
people in the land where I come from have not had an 
opportunity to go vote and to smile openly and point to a 
stained finger. That, in and of itself, I think, is a measure 
of success. The fact that over 60 percent of Iraqis have 
rejected the path of simply the old way of violence, but have 
chosen to engage in a political process, I think, is, frankly, 
encouraging.
    I thank you for your appearance today, and I'm going to 
give back a minute and 13 seconds. I know you count the clock, 
Madam Secretary.
    Secretary Rice. Thank you.
    Senator Martinez. Following Notre Dame, I know the clock is 
an important thing these days. [Laughter.]
    Secretary Rice. Unfortunately, it should have run out. 
[Laughter.]
    Senator Martinez. I understand.
    The Chairman. Thank you very much, Senator Martinez.
    Secretary Rice, if you would allow us, I'd like to give the 
full 10 minutes to Senator Boxer.
    Secretary Rice. Of course.
    The Chairman. Well, now Senator Nelson has appeared.
    Secretary Rice. Senator.
    The Chairman. Yes?
    Secretary Rice. I'm prepared to stay and take the questions 
of the other Senators.
    The Chairman. Very well. I would appreciate that.
    And, Senator Boxer, you're recognized.
    Senator Boxer. Thank you so much. And thank you for 
agreeing to stay for--so everyone can get their chance to ask 
you a question.
    I've given to your aide a CD-ROM that holds more than 
100,000 names, with addresses, of those who signed a petition 
asking for a change in the administration's Iraq policy, to 
come up with a success strategy that will lead to the return of 
our brave and courageous troops. It calls on the administration 
to now give us credibility, responsibility, and accountability 
in the war in Iraq.
    Now, the views expressed in that petition reflect recent 
polls. In a CBS News poll just the other day, 64 percent of 
Americans don't believe the result of the war with Iraq was 
worth the loss of American life and other costs, 57 percent 
don't believe removing Saddam was worth it, 55 percent believe 
the United States should not have taken military action against 
Iraq, and 59 percent of Americans believe United States troops 
should leave Iraq as soon as possible.
    I believe those poll numbers reflect deep disillusionment 
with this administration's false expectations and rosy 
scenarios. Today I'd like to look at some of what I call the 
``milestones of false expectation'' that we have been given by 
this administration, which I believe have led to these polls.
    First, the false expectation about the expected length of 
the war. In February 2003, Rumsfeld--Secretary Rumsfeld said 
the war, ``could last 6 days, 6 weeks, I doubt 6 months.'' The 
truth is, we have 17,000 Americans dead and wounded, and still 
counting.
    Then the false expectations about the response of the Iraqi 
people. Vice President Cheney said, ``My belief is we will, in 
fact, be greeted as liberators.'' The truth is that attacks 
against United States military personnel are common outside the 
Green Zone, and when I was in Iraq, I guess, a month before you 
were there, there was actually attacks inside the Green Zone 2 
days or 3 days before.
    Then the false expectations about the cost of the war. 
Mitch Daniels, budget director, said, ``Iraq will be an 
affordable endeavor, will not require sustained aid.'' The 
truth is, we're up to $200 billion, and counting, while 
deficits at home are soaring. Soaring.
    There were false expectations about burden-sharing. USAID 
Administrator Natsios said, ``The rest of the rebuilding of 
Iraq will be done by other countries, but the American part 
will only be $1.7 billion. We have no plans for any further 
funding for this.'' We now know that the United States has 
obligated $17.1 billion in reconstruction assistance for Iraq. 
Foreign donors have obligated $2.7.
    The administration created false expectations about finding 
weapons of mass destruction in Iraq. In May 2003, President 
Bush told Polish TV viewers, ``We found the weapons of mass 
destruction,'' referring to two mobile trailers. The truth is 
that Saddam Hussein did not have any WMD when the war began, 
and the trailers were for hydrogen generation.
    The administration created false expectations about the 
strength of the insurgency. In May of this year, Vice President 
Cheney said, ``I think the insurgents--they're in the last 
throes, if you will, of this insurgency.'' Well, the truth is, 
insurgent attacks have remained constant.
    And I want to show you a chart. From the minute he said 
that, insurgent attacks remained constant. We'll put that up. 
Experts are telling us that our presence is fueling--fueling--
the insurgency. This is where Vice President Cheney made his 
comments and we see the same, and a huge spike over here.
    So, we've heard false expectations about the length of the 
war. Let's put up the other chart. The length of the war, the 
response of the Iraqi people, the cost of the war, burden-
sharing, WMDs, and the insurgency. I'm sure you cannot see 
this, but this is just a list of all these things and the 
quotes.
    The administration created false expectations not just for 
the American people, but also for the Iraqi people.
    Listen to an Iraqi woman named Marwa, as told to 60 
Minutes, ``We've had our own pain for I don't know how long, 
for as long as I can remember, under Saddam's regime and now 
under the United States occupation. If it isn't going to get 
any better than this, then leave us to heal by ourselves. We 
don't need foreign interference.``
    Listen to Sammy, another Iraqi citizen, ``We never had 
terrorism before the occupation and before the American Army 
was here. We never had al-Qaeda. We never had Zarqawi. We never 
had car bombs.''
    And I'd ask unanimous consent to place in the record a 
State Department listing of those countries that had al-Qaeda 
right before 9/11. Noteworthy: Iraq is not on this list.
    The Chairman. It will be placed in the record.
    Senator Boxer. Thank you.
    [The State Department listing previously referred to 
follows:]

Albania

Algeria

Afghanistan

Azerbaijan

Australia

Austria

Bahrain

Bangladesh

Belgium

Bosnia

Egypt

Eritrea

France

Germany

India

Iran

Ireland

Italy

Jordan

Kenya

Kosovo

Lebanon

Libya

Malaysia

Mauritania

Netherland

Pakistan

Philippines

Qatar

Russia

Saudi Arabia

Somalia

South Africa

Sudan

Switzerland

Tajikistan

Tanzania

Tunisia

Turkey

Uganda

United Arab Emirates

United Kingdom

United States

Uzbekistan

Yemen


    Senator Boxer. Madam Secretary, our country is sick at 
heart of the spin and the false expectations. They want the 
truth, and they deserve it. But when you were asked, this past 
Sunday on Meet the Press, about the anxiety of the American 
people, you said, ``We went to war in Iraq because we were 
attacked on September 11.'' You said that again. Never mind 
that Dick Cheney said Saddam Hussein had nothing to do with 
September 11. The 9/11 Commission found no link. Your own State 
Department said there wasn't one al-Qaeda cell inside there. 
But yet, that's what you said.
    You said, ``The fact of the matter is, when we were 
attacked on September 11, we had a choice to make. We could 
decide that the proximate cause was al-Qaeda and the people who 
flew those planes into buildings, and, therefore, we would go 
after al-Qaeda or perhaps the Taliban and our work would be 
done, and we could try to defend ourselves, or we could take a 
bolder approach, which was to say that we had to go after the 
root cause of the kind of terrorism that was produced there, 
and that meant a different kind of Middle East.''
    Now, Secretary Rice, when I voted to go to war against 
Osama bin Laden--and every Senator did after 9/11--it was never 
our mission, to quote you, ``to form a different kind of Middle 
East.'' It was our mission to go after those who attacked us, 
to get Osama bin Laden, as the President said, ``dead or 
alive.'' I voted for the use of force against those responsible 
for 9/11. Now, in an unbelievable rewriting of history, you 
talk about this bolder mission we undertook in response to 9/11 
to transform the Middle East with Iraq as an anchor.
    And I ask unanimous consent to place into the record the 
war resolution that was passed by this Senate and the House 
declaring war on those who attacked us. And, Mr. Chairman, not 
one mention of Iraq or rebuilding a different Middle East.
    The Chairman. It will be placed in the record.
    [The joint resolution previously referred to follows:]

                              S.J. Res. 23

  JOINT RESOLUTION To authorize the use of United States Armed Forces 
 against those responsible for the recent attacks launched against the 
                             United States
    Whereas on September 11, 2001, acts of treacherous violence were 
committed against the United States and its citizens;
    Whereas such acts render it both necessary and appropriate that the 
United States exercise its rights to self-defense and to protect United 
States citizens both at home and abroad;
    Whereas in light of the threat to the national security and foreign 
policy of the United States posed by these grave acts of violence;
    Whereas such acts continue to pose an unusual and extraordinary 
threat to the national security and foreign policy of the United 
States; and
    Whereas the President has authority under the Constitution to take 
action to deter and prevent acts of international terrorism against the 
United States: Now, therefore, be it
    Resolved by the Senate and House of Represenative of the United 
States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This joint resolution may be cited as the ``Authorization for Use 
of Military Force'.

SEC. 2. AUTHORIZATION FOR USE OF UNITED STATES ARMED FORCES.

    (a) That the President is authorized to use all necessary and 
appropriate force against those nations, organizations, or persons he 
determines planned, authorized, committed, or aided the terrorist 
attacks that occurred on September 11, 2001, or harbored such 
organizations or persons, in order to prevent any future acts of 
international terrorism against the United States by such nations, 
orgzniations or persons.
    (b) War Powers Resolution Reguirements.--
          (1) Specific Statutory Authorization.--Consistent with 
        section 8(a)(1) of the War Powers Resolution, the Congress 
        declares that this section is intended to constitute specific 
        statutory authorization within the meaning of section 5(b) of 
        the War Powers Resolution.
          (2) Applicability of Other Requirements.--Nothing in this 
        resolution supercedes any requirement of the War Powers 
        Resolution.

    Senator Boxer. So, I want to ask you this question. Can you 
provide for me documentation that building and rebuilding the 
Middle East was the reason we went to war after 9/11? Can you 
give me that documentation?
    Secretary Rice. Senator, the question that I've raised is 
whether or not the way to resolve what happened to us on 
September 11, the way to deal with future threats of the kind 
that we faced on September 11, is to simply assume that if we 
take down al-Qaeda and go after Osama bin Laden and get him, 
and, indeed, even change Afghanistan, that that will protect 
us, in the long term, from the kind of attack that we faced on 
September 11.
    Senator Boxer. So, when you asked us to go to war--when 
this President asked us to go to war, that's what you had in 
mind? But you never told the U.S. Senate?
    Secretary Rice. Senator----
    Senator Boxer. And you never told the----
    Secretary Rice [continuing]. Senator Boxer----
    Senator Boxer [continuing]. American people?
    Secretary Rice [continuing]. Senator Boxer, the resolutions 
stand on their own. My point is that the President and I and 
others believe that the problem--the attack that we experienced 
on September 11 is not just because Mohamed Atta and his 
hijackers flew planes into buildings, it is because they were 
representing an extremist ideology.
    Senator Boxer. Excuse me----
    Secretary Rice. I will be the first to say----
    Senator Boxer [continuing]. I'm not trying to get into the 
mind of any of the people who attacked us. I want to capture 
them, not get into their mind.
    The point I'm making is, here, not what their mindset was, 
but what our goal was in going after the people who attacked 
us. And what you are saying here today is a way broader vision 
of that. And either you didn't tell the American people that at 
the time, you didn't tell the U.S. Senate that at the time, 
because, let me tell you, if the people of the United States of 
America knew at the time that our mission was to rebuild the 
entire Middle East, which you have, several times, called a 
malignancy, that part of the world, if that was what the war 
was about, the first war, and even the second war, they would 
have walked away from this administration long before they've 
walked away. And they are gone.
    Secretary Rice. Senator----
    Senator Boxer. They don't want----
    Secretary Rice [continuing]. Senator----
    Senator Boxer [continuing]. They don't want the job of----
    Secretary Rice [continuing]. Senator, I would like to 
answer----
    Senator Boxer [continuing]. Rebuilding the Middle East on 
the backs of our brave men and women and the taxpayers of the 
United States of America. They want to go get the people who 
attacked us and defend our own country from them in the future.
    Secretary Rice. Senator, may I have an opportunity to 
answer? Thank you.
    Senator Boxer. Yes.
    Secretary Rice. Senator, the war resolutions stand on their 
own. The war resolution against al-Qaeda was very clear, and it 
led us to war in Afghanistan to try to deal with the near-term 
camps that produced al-Qaeda.
    Second, the Iraqi regime had been not just a regime that 
was, according to all intelligence, and according to U.N. 
resolution after U.N. resolution after U.N. resolution, a 
threat because of its attachment to weapons of mass 
destruction, but also because of its role in terrorism and also 
because it had been a threat to its neighbors. Our first war 
against Iraq was not because it had weapons of mass 
destruction, but because it tried to annex Kuwait.
    So, yes, it had been a force for instability in the region. 
Everybody knew it. And if you look at the resolutions that the 
United Nations had passed against Iraq, they are not just about 
weapons of mass destruction, they are also about terrorism and 
about the threat to Iraq's neighbors. We were in a state of war 
with Iraq, flying missions over Iraq to keep their forces from 
threatening their neighbors just before the 2003 action was 
taken.
    Now, Senator, I understand what the Senate voted for in the 
resolution on al-Qaeda, and I know what the Senate voted for in 
the resolution on Iraq. What I am describing to you the 
administration's broader strategy for a Middle East that will 
not produce these kinds of ideologies of extremism. Look at the 
9/11 report on what the root causes of September 11 really 
were, and they were the extremist ideology that produced these 
people. Nineteen of them, of course, are dead, but even if you 
caught every single one of them, you would still be dealing 
with the extremist ideology that produced them, and there will 
just be more of them to come. Until you deal with the root 
cause, which, frankly, is the nature of the Middle East, it is 
the fact that there is a freedom deficit. It is that those 
extremist elements have been allowed to grow and prosper 
because they have no legitimate channels of political dissent 
and activity. Unless you deal with that overwhelming problem in 
the Middle East and produce a different kind of Middle East, 
you're going to be capturing individual terrorists until our 
grandchildren are all too old to care.
    So, what I'm describing to you, Senator, is not what you 
voted for in the war resolution, but the broader strategy of 
the administration, and, by the way, the broader strategy that 
is shared by Prime Minister Blair and a number of reformists in 
the Middle East itself, that America's goal has to be a Middle 
East in which people are not denied freedom, in which women are 
not denied their rights, in which repression is not the way in 
which politics is managed, and in which, just as we did in 
Europe, we provide a democratic foundation for a lasting peace. 
That's what I'm describing to you.
    Senator Boxer. Well, I know my time's up, I would just say 
you make a great speech, but you miss the point I made, which 
is that the American people were not told after 9/11 that the 
purpose was to rebuild the Middle East when they sent their 
sons and daughters to war. And 25 percent of the dead are from 
my State. So, they have to be told the truth, they were not 
told the truth, there's changing missions, changing reasons, 
twisted language here, and I just say it's no wonder they 
walked away from this administration.
    Secretary Rice. Well, Senator, let me give you an analogy, 
because I am trying to answer your point. And, by the way, I 
honor, of course, the sacrifices that the American people have 
made. We're from the same State. I know what has happened in 
California.
    But let me just note that we also didn't go and defeat 
Adolf Hitler in order to produce a democratic Germany. We went 
and defeated Adolf Hitler because he was a threat to peace and 
security. We defeated Saddam----
    Senator Boxer. I understand that. I lost relatives in the 
holocaust. It has nothing to do with what we're talking about 
today.
    Secretary Rice. Senator, may I finish my answer to you?
    Senator Boxer. To me. I think----
    Secretary Rice. Well, Senator, it's----
    Senator Boxer [continuing]. You're----
    Secretary Rice [continuing]. It's very----
    Senator Boxer [continuing]. It's very intriguing----
    Secretary Rice [continuing]. Senator, I'm trying to answer 
your question, and I'd appreciate an opportunity to do so.
    We didn't go to World War II to defeat Adolf Hitler in 
order to produce a democratic Germany, but we understood, after 
the war, that unless we produced a democratic foundation for a 
new Europe, we would be fighting wars in Europe time and time 
again. And now we cannot imagine a Europe in which France and 
Germany fight. Now we cannot imagine a Europe in which 
America's going to have to go back and fight in a major war.
    We went in to deal with Saddam Hussein because he was a 
threat to peace and international security, as resolution after 
resolution after resolution noted. But, having liberated Iraq, 
it is our goal to form a democratic foundation so that you have 
Iraq as a pillar of a different kind of Middle East. Because if 
we really think that the Middle East was stable, then we can't 
explain what produced this extremism and this ideology of 
hatred. Dealing with that is what will give you long-term 
peace, not catching terrorists one by one.
    The Chairman. Thank you very much, Senator Boxer.
    Thank you, Secretary.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I have been in and out in 
other committee meetings, so I'm going to defer to my 
colleague, Senator Obama, and then I will pick up after him.
    Secretary Rice. Thank you.
    Could I just mention, Senator, I'm happy to stay, but I am 
supposed to be briefing the House in just about 10 minutes.
    Senator Nelson. Yes.
    Secretary Rice. Thank you.
    The Chairman. Senator Obama.
    Senator Obama. Well, thank you very much, Secretary Rice. 
I'm glad you are here. As has been noted, I think this dialog 
was overdue. And I hope that we will have some additional 
opportunities to talk about our strategy here.
    Let me just pick up on the last colloquy between yourself 
and Senator Boxer and attempt to clarify why Senator Boxer's 
points weigh on the minds of many of us.
    The breadth of the mission in Iraq is relevant, not just 
looking backward, but also going forward. I was not in this 
Chamber to vote on the resolutions. I can say that the 
argument, initially, for going to war in Iraq seemed to be a 
relatively narrow one: Saddam Hussein threatened stability in 
the region, potentially possessed weapons of mass destruction, 
and, if we did not get rid of him, could be part of a broader 
terrorist network that threatened the security of the United 
States.
    Based on what I heard you say on Meet the Press, and what I 
have heard you repeat today, it appears that we are now 
involved in a broader mission; it is to construct a democratic 
structure in an intact, cohesive Iraq that will then spread 
democracy and freedom to other parts of the Middle East. It's a 
difficult task. You acknowledge it. But it's one that you think 
is absolutely necessary for our long-term security interests.
    This broadening of the mission is disturbing and difficult 
for those of us in the Senate to deal with because it requires 
a leap of faith on our part that a mission of that breadth can 
be accomplished in a reasonable timeframe, to use your words. 
And when Senator Feingold or others on this panel ask what 
exactly that meaningful timeframe is, what that reasonable 
timeframe might be, the administration declines to provide any 
sense of what that is. I heard you say, today at least, you 
think it's going to be less than 50 years, which is 
encouraging. But, beyond that, we don't know. What we hear is: 
We're going to ``stay the course.''
    Now, if the mission is that broad, and the measure of 
result- or condition-based success is premised on us having 
executed the transformation of Iraq into a stable, democratic, 
multiethnic nation state that is not harboring any terrorist 
activity, then the concern is that that could take a very long 
time. Experts may have different estimates, in terms of how 
long it will take, but my guess is even those experts upon 
which you rely are indicating that that is a multiyear, even 
multidecade, process that continues to involve billions of 
dollars of American taxpayer money and potentially the 
continuing death of our troops. That is why this issue of the 
nature of this mission, and what constitutes success, is so 
important.
    You've tried to provide what that success would look like, 
but I have to say it appears to be a moving target. I pay 
extremely close attention to this, and it is still not clear to 
me exactly what the scope of our mission and the definition of 
success are.
    Having used up half my time, let me go to a few key points 
that you spoke about.
    You indicated that our objectives would be to break the 
back of the insurgency, keep Iraq from becoming a safe haven 
for terrorists, demonstrate positive potential for democratic 
change and free expression, and turn the corner financially and 
economically so that there is a sense of hope.
    Let me ask this. If we had an Iraq that was made up of a 
Kurdish north, a Shi'a south, and a disgruntled Sunni center, 
that constituted a loose federation and was not engaged in all-
out civil war, but wasn't practicing the sort of democracy that 
we enjoy here in the United States, and there was still some 
insurgent activity, but not at the current levels, would that 
meet your criteria of success? Or, is our measure of success 
something much broader: A coherent, multiethnic national 
coalition government that has all the accoutrements of 
democracy, as we understand it?
    Secretary Rice. Thank you, Senator Obama.
    I would, first of all, note that the goal of overthrowing 
Saddam Hussein was certainly linked to his ability to make 
mischief and instability in the region. As we saw when we had 
to fight him in a war in 1991. So, that's the first point. But 
then, having overthrown him, we did face the question of: 
``What would we leave?'' Because, of course, you don't just 
overthrow or liberate a place and then have no idea of how it 
moves forward from then, particularly in a society that is as 
fractured and had been through a long period of 
totalitarianism, like Iraq. So, that's the answer. It is not as 
if it were: We had taken a broad mission somehow at the 
beginning of the war. But having overthrown him, we did owe the 
Iraqi people, their neighbors, and the international community 
an answer as to what we thought the future looked like.
    Now, I would distinguish between a short-term goal in which 
I do think the involvement of our military forces is needed. 
That short-term goal is to make Iraqi forces capable enough of 
holding their own territory against insurgents so that there is 
not, as I suggested in the case of Colombia, a threat to the 
political stability of the Iraqi regime. In other words, there 
will be some level of insurgency, I'm quite sure, for quite 
some time to come. Can they pull off a kidnapping? Can they 
have a bombing here, a bombing there? There are lots of 
relatively stable governments in which insurgencies have 
continued to do that kind of thing, but nobody would question 
that there is a danger to them.
    Senator Obama. OK. So, that's something very specific, 
right? And----
    Secretary Rice. Right.
    Senator Obama [continuing]. So, that is a meaningful goal 
and what I consider a benchmark that I understand----
    Secretary Rice. Right.
    Senator Obama [continuing]. Which is that the insurgency is 
not capable of collapsing an Iraqi Government.
    Secretary Rice. That's right.
    Senator Obama. OK.
    Secretary Rice. And the Iraqi forces are, themselves, 
capable of ensuring that.
    Senator Obama. All right.
    Secretary Rice. And so, that's how I see our military 
presence. And when we say ``break the back of the insurgency,'' 
that's what we mean.
    Senator Obama. OK.
    Secretary Rice. Now, when you come to the longer term goal 
at that point, you would have laid a foundation for a context 
of stability in which the Iraqis can work out their political 
problems and their economic development and so forth.
    When you talk about the longer term goal of stable, 
democratic, multiethnic, unitary Iraq, that's going to take a 
long time.
    Senator Obama. OK.
    Secretary Rice. But I see that as a political----
    Senator Obama. That's a political problem, as opposed to a 
military problem.
    Secretary Rice [continuing]. Not as a military problem.
    Senator Obama. So, I guess--here's my point. We've talked 
about how brave and effective our military is--as long as 
they're given missions that make sense.
    Secretary Rice. Yes.
    Senator Obama. Of course, our military is always effective, 
and they are always brave, and if there are problems with our 
military efforts, it's not because of our fighting forces. It 
is because we've given them missions that don't require 
military solutions, but, rather political solutions. So, let me 
just make this point, and maybe you can answer.
    My understanding is that we currently have a series of 
battalions made up of Kurdish forces, Shi'a militia forces, and 
so forth. These are all being counted as 91 battalions. Correct 
me if I'm wrong, but the vast majority of these battalions are 
not multiethnic forces made up of Sunnis, Shi'as, and Kurds. In 
fact, the Kurdish battalions, as I understand, don't even fly 
an Iraqi flag. There may be all sorts of centrifugal forces 
taking place politically that don't hold the country together.
    If our concern is just making sure that the insurgency 
doesn't bring down the government, how can we be certain that 
it's not, in fact, the political failures of the process that 
are collapsing the government and breaking things up into some 
sort of loose federation or civil war, rather than the 
insurgency? Do you understand my question? My point is that if 
our military presence there is designed, in the short term, 
solely to make sure that the insurgency doesn't bring down the 
political process, what happens if the political process 
collapses under its own weight? Are we committed to holding 
Iraq together in perpetuity, even if the parties involved, the 
Iraqi people, determine that they don't want to form the sort 
of visionary Iraqi nation that yourself and the President seem 
to envision?
    Secretary Rice. Let me just say that our military presence 
was there to make certain the insurgency could not--but also to 
create Iraqi security forces that can do that. That's an 
important part of our presence.
    Senator Obama. I understand.
    Secretary Rice. In terms of what kind of Iraq will emerge, 
obviously the sectarianism and centrifugal forces would be a 
threat, also, to a stable and unified Iraq.
    Senator Obama. And, just to pinpoint this, I think the 
concern that a lot of people have is that these are the more 
relevant issues involved than the insurgency. It may be that 
some of these centrifugal forces and ethnic divisions are going 
to determine our success, and not the insurgency itself.
    Secretary Rice. I would say that either is a threat to the 
kind of success that we want. Obviously, if there's an armed 
insurgency, they can overthrow a government.
    Senator Obama. I understand.
    Secretary Rice. That's a real threat. But the political 
side, of course, is hard, and that's why we are working within 
the context of the transitional administrative-law path that 
was laid out, to get them to stable political institutions.
    Now, I understand that there are centrifugal forces. And 
yes, there are problems with the ethnic composition of the 
armed forces. General Casey has gone on a personal effort to 
recruit more Sunnis into the rank and file. The leadership is 
actually quite representative, but it's into the rank and file. 
But it's not principally, of course, a military task to work 
the political side. It is a military task to provide a secure 
environment in which politics can be worked. For instance, when 
the Iraqi Islamic Party decided that it was going to support 
the Constitution, the insurgency went after their offices. The 
fact that they were unable to deter the Iraqi Islamic Party, 
anyway, from supporting the Constitution is a good sign, 
because it says that the insurgency isn't having that kind of 
impact on the political circumstance.
    But, yes, it is up to our diplomats and our politics and 
our civil-society-building and our economic development and the 
building of national institutions to nurture what I think are 
actually centripetal, rather than centrifugal, forces in Iraq 
that would hold them together. It's going to be a federation. 
It is not going to be, I think, as tight a federal structure as 
it might later be.
    Senator Obama. I know I'm out of time, but you haven't 
really answered my question. What happens if the politics don't 
work in this thing? Does ``stay the course'' mean that we are 
there to hold the country together even if the politics of it 
dictate that, in fact, that's not what is possible?
    Secretary Rice. Senator, I don't think that there's 
evidence, at this point, that that is what we're facing. I 
think what we are there to do is to nurture, which, what I 
think, are actually strong centripetal, not centrifugal, 
forces. And I know we read a lot about sectarianism and civil 
war, and yes, they're having to overcome their differences 
through politics, not through violence and repression, which is 
how they did it in the past, but there is a sense of being 
Iraqi. Yes, there is a strong sense of being Shi'a or Sunni or 
Kurd, but there is also a sense of being Iraqi. And if we do 
this well--and I think we're starting to do it well--in a unity 
of our political and the military strategy, I think we will 
nurture those centripetal forces. Their neighbors want a 
unified Iraq, and I think they can help with this process, as 
well.
    I understand that, yes, it might not work. But every day, 
we have to get up and work at our hardest to make it work, and 
everything, thus far, suggests that they're trying to hold 
together, when it really did come time to think about changes 
to this Constitution. Because the politics is actually not as 
sectarian as it appears, there are a lot of cross-cutting 
alliances and coalitions that are building. One of the things 
that I think we and others can encourage is that the coalitions 
and the politics for the December elections be cross-cutting, 
not sectarian. And that's what we will work toward.
    The Chairman. Thank you very much.
    Senator Obama. You're very generous. I wish I had more 
time.
    The Chairman. Senator----
    Secretary Rice. Thank you.
    The Chairman [continuing]. Nelson. Senator Nelson.
    Secretary Rice. Yes, we've got to go. I'm sorry, Senator, 
We have 5 minutes, yes? We have to be at the House in 5 
minutes, I'm told.
    The Chairman. Can we take just the 5, please?
    Secretary Rice. Of course; yes. Sure.
    The Chairman. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    I think the frustration that you've heard here, Madam 
Secretary, is that, for those of us who were here and voted for 
the resolution authorizing the President to expend funds for 
the purpose of invading Iraq, we were clearly given an 
impression, at the time, that the interests of the United 
States were severely threatened because of weapons of mass 
destruction in Iraq. You've heard the stories about the 
unmanned aerial vehicles even being poised by Saddam Hussein to 
launch from ships off the east coast of the United States. But 
we were not told about the disputes in the intelligence 
community with regard to them--over whether those unmanned 
aerial vehicles were for offensive purposes, or for 
reconnaissance purposes. And so, I think the expression of 
frustration that you've heard from the two previous Senators 
comes from seeing that the reason we were given for invading 
Iraq has now morphed into a much different reason.
    And then we hear that, for example, there are 91 Iraqi Army 
battalions in the fight. According to General Petreus, it's 
actually 116. But General Petreus has also said that there are 
different degrees of support, and there is only one battalion 
that is fully independent and combat-ready.
    And so, I think, at the end of the day, you and I would 
come down at the same bottom line, which is that in order for 
our troops to be able to train the Iraqi Army so it can 
stabilize that country, we need the support of the American 
people. I would urge clarity and transparency, as Senator Biden 
has also mentioned, in your future comments about this 
conflict.
    The final thing that I would like to ask about--because it 
is affecting the daily lives of people here right now--is 
energy price spikes, a lot of which is caused by manipulation 
by OPEC and the increased demand for oil in China. What have 
you been doing, diplomatically, to persuade the leaders of 
OPEC, at this time of very high energy prices, to increase 
their production?
    Secretary Rice. Senator, on the last question, we, 
obviously, have been talking to the OPEC producers, and they, I 
think, would agree that very high oil prices, while good for 
budgets for them, are a threat to the international economy, 
and so, therefore, concerned about that. I think it's also the 
case that with oil prices very high, they have an incentive to 
produce.
    The problem is that there is very strong demand pressure, 
as you mentioned, from places like China and India and other 
places. And so, our strategy has to be, over the long term, as 
the President's energy bill would do, to diversify us and, in 
fact, the rest of the world away from just hydrocarbons as the 
energy supply, because these very fast-growing dynamic 
economies, like China, if they have to depend simply on oil for 
energy, we're going to continue to have a demand crunch.
    The Saudis have said that they would try to increase 
production over the longer term, but I think most people 
believe these countries are running pretty hard to try to take 
advantage of the very high prices.
    As to the first statement, Senator, I think that we were 
very clear that we wanted to liberate Iraq because Saddam 
Hussein was a threat to peace and stability. He had been 
sanctioned by numerous U.N. Security Council resolutions, not 
to mention probably some of the toughest sanctions that have 
ever been put on a single state, because people thought he was 
a threat to international peace and security. We all thought he 
had weapons of mass destruction. And certainly those were the 
basis of most of the resolutions. He had materially supported 
terrorism. That was in the resolutions. He had attacked his 
neighbors. He had used weapons of mass destruction against his 
own people and his neighbors. He was fighting us over the skies 
of southern and northern Iraq. So, he was a threat.
    Having overthrown him, though, it was important to have a 
vision for what we thought Iraq should be, not to just say, 
``We've overthrown him, and now it's over.''
    And in structuring that vision, we went to our principles, 
and our principles say that the world is safer when democracy 
spreads, and the world is less safe when democracy is in 
retreat. That's what we've always believed. We've been right 
about it across the world--in Europe, where we made that the 
basis for a new Germany; in Asia, where we made it the basis 
for a new Japan--and we're going to be right about it in Iraq, 
where we've made it the basis for a new Iraq and, ultimately, 
the basis for a new Middle East.
    Senator Nelson. Thank you, Mr. Chairman. And I hope the 
Secretary is right. But to continue this kind of operation you 
have to have the American people with you. I wore the uniform 
of this country during a time in which we did not have the 
support of the American people, and that didn't turn out too 
good. And we don't want it to turn out like it did last time.
    Secretary Rice. I agree, Senator. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Thank you very much, Secretary Rice.
    Secretary Rice. Thank you very much.
    The Chairman. We appreciate a great hearing.
    And the hearing is adjourned, and hopefully our staff can 
expedite your way to the House.
    Secretary Rice. Thank you.
    The Chairman. Thank you.
    [Whereupon, at 1:33 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


Responses of Secretary of State Condoleezza Rice to Questions Submitted 
                            by Senator Lugar

    Question. On Sunday, October 16, the Washington Post Outlook 
section featured a story about some of the Arabic linguist challenges 
our foreign service is facing. It suggested only 27 FSO's were top-
rated Arabic speakers. How many of those have done tours in Baghdad? 
Why is that number so low? (Perhaps a full breakdown would be helpful.)

    Answer. Twenty-nine active-duty Foreign Service Generalists 
currently speak and read at least one dialect of Arabic at a level 4/4 
or better. An additional 192 Foreign Service Generalists speak and read 
Arabic at least at the 3/3 level but below the 4/4 level (3/3, 3/4, 4/
3, etc.). In total 196 Foreign Service Generalist positions require 
proficiency in Arabic, 91 of which require 3/3 or better proficiency.
    Of the 29 advanced Arabic speakers, 11 have served in Iraq in the 
last 3 years. All but two relatively junior employees have served in an 
Arabic country, and many have served a significant portion of their 
careers in Arabic-speaking countries. Currently, 14 are serving in 
Arabic-speaking countries (including Chief of Mission in Sudan) and 
only six are serving overseas in non-Arabic speaking countries (one of 
whom serves as U.S. Ambassador in Islamabad and one as U.S. Ambassador 
to the Gambia).
    Eight Arabic-speaking posts--including Baghdad, Khartoum, Beirut, 
and three posts in Saudi Arabia--are ``unaccompanied'' posts requiring 
most employees to be separated from their families for long periods of 
time. The conditions at many of the other Arabic-speaking posts involve 
a high level of hardship and limits on educational and other 
opportunities. It is appropriate that Foreign Service employees, even 
those with the most advanced Arabic skills, serve some of their careers 
outside the Arabic-speaking world, for service need reasons and career 
development as well as for personal considerations.

    Question. Some State Department jobs on the ground in Iraq have not 
been filled, such as those with the State Embedded Teams with the major 
subordinate commands. Other positions have been filled by junior 
personnel who have volunteered. It is great that so many of our young 
FSO's have signed up for these challenging assignments, sometimes for 
repeat engagements. Nevertheless, the importance of this mission 
demands our best, and Ambassador Khalilzad's Provincial Reconstruction 
Team plan will need such assets to succeed. Have you considered using 
``directed assignments'' to fill these critical jobs? In what sort of 
situation would you use that authority?

    Answer. The Department agrees that filling these critical jobs is 
of the utmost importance. The Department has been very successful in 
staffing the Embassy in Baghdad, including a current 90-percent fill 
rate for senior and mid-level positions in the Embassy (due to training 
and transfers the fill rate at most missions is not typically as high).
    Although we have not always been able to fill positions for the 
Regional Embassy Offices (REOs) and the State Embedded Teams (SETs) as 
far in advance as we would like, we have ultimately been able to fill 
the vast majority of these positions, albeit sometimes with officers at 
a lower personal grade than the position. In the REO/SETs we currently 
have 92 percent of the 47 positions filled. All officers, and 
particularly entry-level officers, being proposed for service in the 
REO/SETs are vetted through several offices in the Department for 
suitability, past performance and experience. In the case of entry-
level we also consider what life/work experiences they brought with 
them into the Department.
    Given our past successes, we have every confidence that the men and 
women of the Foreign Service will continue to answer the call for our 
best to serve in Iraq. Nevertheless, the Secretary has the authority 
and tools in place to direct assignments should critical vacancies not 
be filled through the normal assignment processes. The Department is 
prepared to do so should it become necessary.
                                 ______
                                 

Responses of Secretary of State Condoleezza Rice to Questions Submitted 
                            by Senator Biden

    Question. Beyond the holding of elections, which I agree are very 
important, what measures should the American people use to tell whether 
or not our policies are succeeding in Iraq?

    Answer. The Department of Defense, in close consultation with the 
Department of State, has submitted an October 2005 Report to Congress, 
``Measuring Security and Stability in Iraq,'' in accordance with 
Conference Report 109-72 Emergency Supplemental Appropriations Act, 
2005. I refer you to this report, which outlines USG efforts to develop 
and use metrics in assessing progress toward achieving our objectives 
in Iraq. The report's overview states ``the broad purpose of the 
strategy is to assist in creating an Iraq that is at peace with its 
neighbors, is an ally in the war on terror, has a representative 
government that respects the human rights of all Iraqis, and has 
security forces that can maintain domestic order and deny a safe haven 
for terrorists in Iraq.''
    The report may be viewed at the following website: http://
www.defenselink.mil/home/features/Iraq_Reports/Index.html. In addition, 
we suggest you review the State Department's ``Iraq Weekly Status 
Report'' available at: http://www.state.gov/p/nea/rls/rpt/iraqstatus/
2005/.

    Question. Recently you said during an appearance on Fox News Sunday 
that, ``There is no political base any longer for this insurgency,'' 
and that, ``The political process will sap the energy from this 
insurgency because an insurgency cannot ultimately survive without a 
political base.''

  <bullet> If there is no longer a political base for the insurgency, 
        how quickly should we expect it to diminish?
  <bullet> How should we measure whether or not the insurgency has a 
        political base?
  <bullet> Is it possible that the insurgency could stay at the same 
        level or even increase while at the same time Sunnis are 
        participating in the political process?
  <bullet> Do you have an estimate of how Sunnis voted on the 
        Constitution. Was it more like 90-10 against, or more like 60-
        40 against? How do you read that?

    Answer. The insurgency has relied on intimidation and terror as a 
means of operating against the Iraqi people, Iraqi security forces, and 
the coalition. Jihadist elements of the insurgency have correctly 
identified democracy and the democratic process as the greatest threat 
to their ambitions of ruling Iraq and using it as a base to attack 
other regional states. Even Iraqis, who oppose what they see as 
occupation, increasingly reject attacks that are more deadly to Iraqis 
than coalition forces, widening a division between the terrorists and 
those who have supported insurgent attacks against the coalition. As 
more Iraqis are drawn into the political process and the building of a 
free and democratic Iraq, the insurgency will be seen as increasingly 
detrimental to the long-term interests of all Iraqis, including those 
whose cities, towns, and villages the insurgency is now operating. 
Evidence of the insurgency's loss of a political base was seen in the 
turnout in the October 15, 2005, constitutional referendum and the 
engagement of Sunni populations in peaceful political action. Turnout 
in mostly Sunni Salah al-Din province exceeded that of many of the 
provinces in the south, and turnout in mostly Sunni Al-Anbar province 
was many times higher than what it was in January. While it is not 
possible to give a precise estimate of its potential impact on the 
insurgency, the December 15 election is likely to produce a Sunni Arab 
leadership with a stake in the political system that is motivated to 
oppose the insurgency, rather than tolerate or support it.
    The October 15 referendum was a ``Yes'' or ``No'' vote, and the 
ethnicity of voters is not recorded. The vote in mostly Sunni provinces 
ranged from 3 percent in favor in Al-Anbar to 45 percent in favor in 
Ninewa (Mosul). Endorsement of the draft constitution by the Iraqi 
Islamic Party appears to have had an impact in persuading a number of 
Sunnis, though not a majority, to vote in favor of the draft 
constitution. Nationwide, most of the Sunni Arabs in Iraq who voted did 
appear to have voted against the draft constitution. It is also true, 
however, that most of Sunni Arabs voted in this referendum, a major 
change in their position since the January election.

    Question. I'd like to better understand the administration's 
position on the federalism provisions of the Iraqi Constitution. The 
President, in a recent speech, said the following: ``. . . democratic 
federalism is the best hope for unifying a diverse population, because 
a federal constitutional system respects the rights and religious 
traditions of all citizens.'' This appeared to be a not so subtle 
endorsement of the Constitution's federalism provisions. In recent 
remarks at Princeton, you said: ``. . . it needs to remain a unified 
Iraq, a united Iraq . . . it cannot be several Iraqs.'' While not 
necessarily contradictory, you clearly emphasized the need for Iraq's 
unity. Over the past several weeks, as I understand it, our Ambassador 
has been largely focused on convincing Kurds and Shi'a to address Sunni 
concerns. I think he has done a superb job after having been handed a 
tall order.
    But there appears to be a certain degree of schizophrenia in the 
attitude toward federalism. Yesterday, a Washington Post editorial 
said: ``It is certainly the case that . . . Zalmay Khalilzad has been 
working as hard, or harder, than any Iraqi politician to forge an 
agreement among Sunnis, Shiites and Kurds. Yet at other times President 
Bush and his senior aides publicly praise and defend the extreme form 
of `federalism' written into the Constitution by Shiites and Kurds--
even though it is that agenda that fuels Sunni opposition and threatens 
to tear the country apart.''

  <bullet> What is our position on the provisions related to federalism 
        in the current draft of the Iraqi Constitution?

    Answer. The provisions of the Iraqi Constitution, including those 
related to federalism, are for the Iraqi people to decide. We continue 
to support the principles outlined in UNSCR 1546 and to work with the 
Government of Iraq to develop a federal, democratic, pluralistic, and 
unified Iraq.
    Due to the horrific repression and violence visited upon the Iraqi 
people by the former dictatorial regime, many Iraqis believe it is very 
important to ensure that the Iraqi Government never again becomes a 
tool of repression. The Iraqi draft constitution has several provisions 
related to this objective, including those that establish a democratic 
electoral system implemented by an independent electoral authority; 
checks and balances between the executive, legislative, and independent 
judicial branches of the national government; and federalism through 
local governments with defined authority that are directly answerable 
to the local population.
    Some Iraqis, in particular some Sunni Arabs, believe that the 
federalism provisions in the draft constitution may lead Iraq to break 
apart. I believe exactly the opposite. While much about federalism 
remains to be decided by the Iraqi people as they interpret, implement, 
and possibly amend their Constitution, the federalism articles and 
other provisions will contribute to the belief by a number of Iraqi 
communities that they need not attempt to break from Iraq to avoid a 
repetition of Iraq's unfortunate history. In other words, it may be 
these federalism provisions that keep Iraq together.
    The Iraqi central government under the draft constitution is hardly 
powerless. All regions and governorates must comply fully with the 
provisions of the federal Constitution. All of Iraq's oil and gas 
resources belong to all of the Iraqi people. The central government has 
full and exclusive authority over the formulation of national security 
policy, foreign policy, and fiscal/monetary policy. The national 
legislature is responsible for promulgating a law that will define the 
procedures to form any new regions.
    In fact, evidence suggests that the various Iraqi communities are 
participating in a unified Iraq: Iraqi Kurds, the community many 
observers have seen as most likely to attempt to leave Iraq, are 
instead heavily engaged in national politics. Iraqi Kurds serve as the 
President, Deputy Prime Minister, Foreign Minister, and several other 
senior posts in the national government. High voter turnout in the 
predominantly Sunni western provinces during the constitutional 
referendum demonstrated a willingness of Sunni Arab Iraqis to 
participate in the political process.

    Question. The Constitution doesn't permit amendments to the very 
substantial powers of regions unless the regions agree.

  <bullet> Would the administration support the federalism provisions 
        staying as is, with implementing legislation that essentially 
        codifies those provisions as drafted?

    Answer. The draft constitution states in Article 122 ``Articles of 
the Constitution may not be amended if such amendment takes away from 
the powers of the regions that are not within the exclusive powers of 
the federal authorities except by the consent of the legislative 
authority of the concerned region and the approval of the majority of 
its citizens in a general referendum.'' Separately, a provision in the 
agreed October modifications to the Constitution suspends Article 122 
of the Constitution until amendments arising out of a special and 
temporary mechanism ``have been decided upon.''
    We believe that the current draft constitution provides a basis for 
Iraq to establish a federal and united state. How these provisions are 
interpreted and implemented will determine the reality on the ground.
    Again, these are matters for the Iraqi people to decide.

    Question. What is the administration's position on the creation of 
a strongly autonomous nine-province ``super region'' in southern Iraq 
as one powerful Iraqi politician has proposed? What relationship would 
you expect between that region and Iran?

    Answer. This will be a decision for the Iraqi people. In making 
this decision, they will need to consider, among other things, whether 
such a large region would be the best way to ensure efficient and 
responsive governance.
    Under the draft constitution, the national government has exclusive 
authority over the formulation of foreign policy. I do not believe that 
Iraqis in the south, or anywhere else in Iraq, seek or would accept the 
domination or interference of Iran in their country.
    The United States understands that it is important that Iraq have 
good and transparent relations with Iran.

    Question. Which countries in the region support the current 
federalism provisions in the Constitution? Which countries have 
expressed concerns about them?

    Answer. Most countries in the region have congratulated the Iraqi 
people on the completion of the constitution drafting and the 
referendum of a few days ago, but--appropriately--have not taken a 
stance on the substance of individual provisions of the draft 
constitution.
    However, all of Iraq's neighbors agreed to the statement from the 
June 2005 International Conference on Iraq in Brussels, which ``. . . 
expressed support for Iraqi efforts to achieve a democratic, pluralist, 
and unified Iraq, with a federal structure if so decided by the Iraqi 
people.''

    Question. Have you heard some Sunnis express support for a regional 
entity based in western Iraq? What would be the likely political 
orientation of a Sunni ``ministate''? Are you concerned that it might 
have close ties to foreign jihadists as seems to be the case today in 
key parts of western and central Iraq?

    Answer. We have heard a few Iraqi Sunni Arabs discuss such a 
possibility. Iraqis, including insurgents through their public 
statements consistently reject ties to foreign jihadists. At this time, 
I do not believe the formation of such a region would significantly 
affect the larger political and security issues in Iraq: Iraqis much 
reach a national accord that respects and represents the interests of 
all Iraqis. We will continue to work with the GOI to encourage an 
inclusive political process to that end.

    Question. Many liberal, secular Iraqis who supported the war have 
expressed deep disappointment over the Constitution. In addition to 
concerns over federalism, they are worried about the door being opened 
to the application of Shari'a and the possible limitations on women's 
rights.

  <bullet> What steps do you intend to take to ensure that women do not 
        end up in a situation where they have fewer rights than they 
        did before the war?

    Answer. Women in Iraq, and all Iraqis for that matter, now have 
rights and freedoms not known to them under the former regime. Iraqis, 
representing Iraq's diverse communities, were successful in forging a 
compact that not only embodies fundamental democratic and human rights 
principles, but also makes special mention of the rights and privileges 
afforded to women. The Constitution provides that all Iraqis, 
regardless of gender, are equal before the law and that there is equal 
opportunity for all citizens. Both men and women have the right to 
participate in public affairs and enjoy full political rights, 
including voting, nomination for public office, and serving in public 
office. In this Constitution, women are allowed to transmit citizenship 
to their children--something many constitutions of other states in the 
region do not provide. The Constitution contains a provision, similar 
to the one in the Transitional Administrative Law, whereby the 
electoral law for the Council of Representatives aims to achieve the 
goal of women constituting no less than one-quarter of the Council's 
members.
    Our goal in Iraq remains to support Iraqis as they build democratic 
institutions and a thriving civil society that promote and protect the 
rights of all Iraqis on an equal basis. Through programs sponsored by 
USAID and the Department of State, including the $10 million Iraqi 
Women's Democracy Initiative, we are conducting activities designed to 
improve the status of women and securing the rights of women in the new 
democracy. Grantees under this Initiative have provided Iraqi women 
with leadership training. A large proportion of these women were 
included in registered political entity lists for the January 30 
elections and at least 40 percent of women Transitional National 
Assembly (TNA) members were trained with funds under this Initiative.
    We continue to organize conferences for various women's groups to 
facilitate and ensure their fully informed participation in the 
political process. At the same time, we continue to provide 
opportunities for public speaking, and training in media skills, 
coalition-building, and networking, with a focus on legal, judicial, 
and constitutional reform. We also supported the establishment of a 
women's advocacy group, the purpose of which is to lobby Iraqi 
Government officials, politicians, and community leaders to support 
interpretations of legislation that would enshrine human rights 
protections in the Iraqi Constitution, including the rights of women.
    In addition, a USAID partner organized an Engendering the 
Constitution Committee that includes members from government and 
nongovernmental organizations. The committee worked to ensure the 
inclusion of gender considerations in the draft constitution. We also 
conducted a technical analysis of the Constitution, focusing on 
numerous legal implications of its applications vis-a-vis women's 
rights. A multiparty women's caucus has also been created to bring 
women from different political parties together to seek agreement on 
points related to protecting women's rights. USAID and the Department 
of State will continue to find successful programs and establish new 
programs that will focus on guaranteeing legislation that protects the 
rights of all Iraqis. Our focus in the coming months is to continue to 
support programs that empower women and ensure that they play an active 
role in building a strong economically viable and pluralistic society. 
This will include expansion of previous programs plus training of new 
female Parliamentarians, support of judicial watchdog organizations, 
judicial training, and access to cutting edge skills for women to 
enhance their economic opportunities.
    We recognize there is concern about interpretation and 
implementation of some articles, specifically the role of the religious 
and civil courts. Article 39 of the Constitution clearly states that 
``Iraqis are free in their commitment to their personal status 
according to their religions, sects, beliefs, or choices and that shall 
be regulated by law.'' This article specifically provides freedom of 
choice for all Iraqis with respect to their personal status. The 
Constitution provides a sound basis for the protection of women's 
rights, and while the Constitution leaves certain issues to the new 
government to implement, we will continue to work with the Iraqi 
Government to ensure the protection of the rights and principles 
guaranteed in their Constitution. We intend to continue our engagement 
with Iraqi Government, civil society, and women leaders as they 
continue to advocate for the rights of Iraqi women.

    Question. Eight months ago, I asked you about foreign offers to 
train Iraqi Security Forces. Three months later, you replied that the 
Iraqis had not yet responded to the French and Egyptian offers to train 
substantial numbers of Iraqi Security Forces. My understanding is that 
they still have not responded.
    Please describe any steps the administration has taken to encourage 
the Iraqi Government to accept these offers.
    Could you provide an updated, comprehensive list of offers to train 
Iraqi Security Forces, a description of the specific offers that were 
made, and what steps we have taken in each instance to facilitate 
delivery of the offer?

    Answer. Many countries have made offers to train Iraqi Security 
Forces (ISF), both inside and outside of Iraq. Iraqi Government 
officials have stated their perception that out-country training is 
disruptive and expressed their preference for in-country training of 
ISF. We have supported the Iraqi Government preference for in-country 
training, while we have encouraged Iraqi officials to also seriously 
consider out-country training opportunities and we have emphasized to 
donor countries that Iraq prefers in-country training. The Iraqi 
Government has the final decision in bilateral agreements. 
Nevertheless, the Government of Iraq has accepted some ISF training 
opportunities outside of Iraq. We are aware of training in many of the 
countries:
    (1) Egypt is hosting ongoing ISF training.
    (2) Germany has conducted, and continues to conduct training for 
both the Iraqi Police Service and the Iraqi Army in the United Arab 
Emirates (UAE) under bilateral agreements. The UAE provides 
transportation and facilitates; Germany provides equipment and 
instructors. Belgium has pledged to send 15 to 20 trainers to assist in 
the effort and may increase that commitment.
    (3) Greece has offered to train military doctors.
    (4) Jordan provides pilot and crew training for the UH-1 
helicopter, C-130 aircraft and other training for Iraqi officers and 
senior Non-Commissioned Officers. Jordan also hosts the International 
Police Training Center where police trainers from 16 countries 
(including Austria, Australia, Belgium, Canada, Croatia, Czech 
Republic, Estonia, Finland, Hungary, Jordan, Singapore, Slovakia, 
Slovenia, Sweden, the United Kingdom, and the United States) teach 
basic police skills.
    (5) France has offered to provide gendarme training for the ISF.
    (6) Italy has trained Iraqi staff officers at the Italian War 
College. Italy's Chief of Police has expressed interest in training 
Iraqi police in antiterrorism and organized crime; the Iraqis have not 
made a policy decision on that offer.
    (7) Malaysia has shown a willingness to provide ISF training. 
Malaysia also offered to train Iraqi Government officials at their 
Civil Service Institute and the Iraqi Government has agreed to send 
some civil servants to Malaysia for training.
    (8) King Mohammed VI of Morocco offered ISF training at all 
Moroccan training centers and institutes.
    (9) NATO has opened a training facility just outside of Baghdad, 
where it conducts training for junior and senior officers. The 
following countries have contributed officers to the NATO Training 
Mission in Iraq (NTM-I): Bulgaria, Czech Republic, Denmark, Estonia, 
Hungary, Iceland, Italy, Lithuania, the Netherlands, Norway, Poland, 
Portugal, Romania, Slovakia, Turkey, United Kingdom, and the United 
States. However, all 26 NATO allies are providing equipment or 
financial contributions to the mission. Iraqis also attend NATO schools 
outside of Iraq.
    NTM-I has also requested all 26 NATO allies to provide training 
courses to the ISF under the following categories: Police and Strategy; 
Intelligence; Management; Training; Finance, Budgeting and Programs; 
Acquisition, Logistics and Equipment; Infrastructure; Communication, 
Command and Control; General; Army; Air Force; and Public Affairs. 
Furthermore, the United States is supporting this NATO training 
requirement by encouraging non-NATO allied countries to make training 
contributions as well.
    (10) The Netherlands has conducted Junior Officer leadership 
courses for Iraqis.
    (11) Spain is currently training ISF on demining techniques.
    (12) Slovakia is training ISF in specialized Military Police 
training.
    (13) Turkey has trained Iraqi officers in crowd and riot control 
and is scheduled to offer courses this year in military observer 
training, combating smuggling and trafficking, and internal security. 
Turkey has also offered several courses for 2006, ranging from border 
security to explosive ordnance detection.
    Both MNF-I and our Embassy in Baghdad are ready to support any 
offer by our allies to contribute to the MNF-I and MNSTC-I programs to 
train the ISF. However, the Iraqi Government and its allies are free to 
conclude their own bilateral agreements. We will offer the Iraqi 
Government resources and expertise to assist them in evaluating and 
facilitating bilateral training offers where possible.

    Question. You stated in your testimony that ``Now our police 
training efforts are receiving new levels of attention.'' Could you 
elaborate? What are we doing differently? Please describe the training 
program? Please describe the field training program for new recruits? 
How many international police trainers are involved in the field 
training program? How long is the program? What is the budget for the 
police training program? How much has the United States contributed and 
how much do we plan to contribute?

    Answer. Our underlying objective of training 135,000 Iraqi police 
by March 2007 remains unchanged. Basic police training continues at the 
Jordan International Police Training Center and at several sites 
throughout Iraq. The police training effort is moving to a new level in 
several respects, however. Basic police skills training will be 
expanded from 8 to 10 weeks in duration in the near future. Specialized 
and technical training programs are being delivered to build police 
institutional capacity for management, supervision, and a range of 
required operational police skills. With the exception of Basra, where 
British civilian police experts are mentoring Iraq civilian police, all 
police technical assistance, training, and mentoring in Iraq is 
furnished by 500 U.S. International Police Liaison Officers (IPLOs) and 
259 U.S. international police trainers (IPTs). Operational difficulties 
emanating from the insurgency have delayed full implementation of a 
planned traditional field training program by the IPLOs. Alternatively, 
using these personnel, CENTCOM has developed and is using innovative 
field training and mentoring techniques suitable to the current 
conditions. For example, the nascent CENTCOM Police Partnership Program 
(P\3\) embeds IPLOs and IPTs within small military teams in order to 
work with local police stations to deliver technical assistance and on-
the-ground training to operational police units in selected areas. In 
conjunction with MNF-I, Embassy Baghdad is moving to develop and deploy 
provincial reconstruction teams (PRTs) that will include additional 
police and other criminal justice development advisors to assist police 
stations and districts at the local level as well as prosecutors and 
judges. The U.S. budget for the Iraq police training program in both 
Jordan and Iraq for FY06 is $530.7 million. Since 2003, the United 
States has expended more than $1.1 billion in training the Iraq police. 
In addition, the U.S. military has supplied uniforms, weapons, and 
refurbished police infrastructure.

    Question. Two years ago, international donors gathered in Madrid 
and made pledges for Iraq's reconstruction. Delivery of these pledges 
has been slow and was the subject of discussions during the June 
conference in Brussels.
    (a) How much of the $13.6 billion pledged at the Madrid donors' 
conference has been disbursed?
    (b) What is the administration doing to encourage our allies to 
make good on their promises.

    Answer. According to our estimates, through the middle of October, 
other donors have disbursed about $3 billion from their treasuries for 
assistance in Iraq through deposits to the United Nations and World 
Bank trust funds, through bilateral projects, or through U.N. agencies 
for implementation.
    The administration is actively engaged with the Iraqi Government 
and with other donors to persuade donors to make good on their pledges 
and encourage greater support for Iraq's transition. Senior 
administration officials regularly raise the issue with our allies and 
potential donors. In addition to these frequent contacts, there have 
been four meetings of the International Reconstruction Fund Facility 
for Iraq (IRFFI) since Madrid in October 2003: In Abu Dhabi, Doha, 
Tokyo, and the Dead Sea, Jordan. These meetings have proved venues for 
donors to engage with senior Iraqi Government officials and discuss 
assistance strategies. At these meetings, donors have announced 
disbursements, and made some additional pledges. We envision a 
continuation of the IRFFI conferences and increased engagement with the 
newly elected Iraqi Government early next year. The Department will 
continue to work with other donors and with the Government of Iraq to 
encourage timely, effective, and well-coordinated disbursements of 
assistance.

    Question. You stated in response to my question about a British 
proposal to partner countries with individual Ministries or clusters of 
Ministries, that ``the Brussels conference did give specific 
arrangements that countries were prepared to take with various 
Ministries, with various Departments, with various sectors of the 
economy.'' Could you elaborate on these arrangements? Which countries 
have partnered with which Iraqi Ministries? What is their strategy in 
each case? How many personnel and financial resources have they devoted 
to the effort?

    Answer. A number of countries have expressed interest in helping 
the Iraqis build their governing capacity, both at the national and 
local level. At Brussels, and at the follow-on Dead Sea meeting of the 
International Reconstruction Fund Facility for Iraq (IRFFI) Review 
Board meeting, Iraq outlined its national development priorities, 
including for capacity-building.
    Iraq has followed up on these meetings by organizing, in 
cooperation with the United Nations, an international donors' 
coordination mechanism in Baghdad, which in turn has set up sectoral 
working groups. These working groups have fostered a multilateral 
approach, under which donors coordinate their policy and development 
assistance in individual sectors. Four have begun to meet, in the areas 
of health, education, electricity, and rule of law. One of the key 
topics ITG representatives and donors discuss are specific ways to 
build capacity.
    We will continue to work with Iraq and our international partners 
to develop programs. To date, several countries have expressed interest 
in participating in capacity-building activities, including Canada, the 
United Kingdom, Italy, Japan, Poland, and the Netherlands, in addition 
to support from the World Bank and United Nations. As Iraqi priorities 
become clearer, we hope that donors will step forward and identify 
Ministries with which they are willing to work on concrete projects, 
and we will encourage such developments. To date, no final agreements 
have been reached on such proposals.

    Question. Which countries who are now part of the coalition with 
military personnel in Iraq have informed you or the Iraqis that they 
will be withdrawing their forces? Please provide a list, naming each 
country, its contribution, and when it has indicated it will withdraw 
its forces.

    Answer. The coalition in Iraq has remained at or about 30 nations. 
NATO is also on the ground in Iraq. Our coalition partners have been 
steadfast, courageous, and determined despite the fact that many are 
also overextended and facing increasing domestic pressure. All 
coalition partners, including the United States, look forward to the 
day when Iraqis can secure Iraq. Yet, together, we remain committed to 
creating the conditions and stable environment that will permit all 
troops to return home.
    Norwegian Prime Minister Jens Stoltenberg has declared that Norway 
will withdraw its six officers from the Multinational Force-Iraq and 
its eight officers from the NATO Training Mission-Iraq by the end of 
the year. We are aware of no other nations that have plans to withdraw 
from Iraq.
    At the same time, in the past days, Latvia has extended their 
mandate for a year, Korea has agreed to protect U.N. workers, Mongolia 
has offered additional commitments, Singapore has again decided to 
redeploy a Landing Ship Transport (LST) and the associated 100-or-so 
soldiers, and Tonga has expressed a desire to rejoin the coalition in 
2006.

    Question. The upcoming December elections and the agreement to 
create a committee next year to recommend amendments to the 
Constitution offers a chance--perhaps the last chance--to fully engage 
Sunnis in the political process. Whether or not it succeeds depends 
upon the degree to which Sunnis are convinced they can have a 
meaningful stake in Iraq and protect their interests through politics. 
And that, in turn, depends upon convincing Shiites and Kurds that it is 
in their interest to compromise.

  <bullet> Please describe your strategy for involving Sunnis in the 
        political process and breaking them off from the insurgency.
  <bullet> Please describe your strategy for convincing the Kurds and 
        Shiites to compromise with the Sunnis.

    Answer. As Sunni Arab Iraqis see that their interests are protected 
through the political process--and that supporting or tolerating the 
insurgents and terrorists only yields violence and death, breakdown of 
public services, economic devastation and lawlessness--they will 
continue to increasingly turn against the insurgents and terrorists.
    The most important means to achieve this goal is to ensure that all 
Iraqis have the opportunity to participate in selecting their leaders 
in the December election. The choice of these leaders, and the conduct 
of the election, is the responsibility of Iraqis. The United States 
will continue to assist the electoral and security authorities, as 
requested, to see that all Iraqis are able to participate safely in the 
election.
    Fortunately, we can already see that Iraqi Sunni Arabs understand 
the importance of their participation in the political process. Sunni 
Arab representatives participated in the writing of the draft 
constitution, and secured several compromises. In contrast to the 
January elections, the Independent Electoral Committee of Iraq (IECI) 
reported significantly larger turnouts in Sunni majority regions in the 
recent referendum. Sunni leaders are also organizing themselves to 
participate in the December election, and it appears Sunnis will join 
other Iraqis in voting in high numbers in the election. Changes in the 
Iraqi electoral process make it more likely that the new Parliament 
will have representation from all elements of Iraqi society.
    Iraqi leaders of all communities understand that is in all Iraqis' 
interests to ensure that Sunni Arabs (and all Iraqis) are represented, 
and feel they are represented, in the Iraqi Government. We will 
continue to encourage Iraqi leaders, including the Shi'a and Kurds, to 
increase the participation of all communities in the political process 
and the government. Leaders and members of all communities have 
consistently told us they understand the need for full participation by 
all and are continuing to conduct cross-sectarian political dialog.

    Question. A united international front would make it easier for 
Iraqis to make the hard compromises necessary for the political process 
to trump violence. It was just that kind of strong international 
pressure that forced the Shiites and Kurds to reverse their last minute 
gambit to rig the referendum in their favor.

  <bullet> Will our Ambassador continue to be the primary interlocutor 
        during political negotiations in the coming months, or will you 
        attempt to get others to join him so that the effort is not 
        seen as exclusively American?

    Answer. The United States continues to engage all international 
partners--including regional states, coalition members, the United 
Nations, NATO, and the European Union--in support of the political 
process in Iraq.
    We are in close touch with the United Nations and United Kingdom, 
among others in Baghdad and elsewhere, to determine joint positions and 
approaches to Iraqis on issues of shared concern. The U.K. Ambassador 
and the U.N. Representative in Iraq both played key roles in achieving 
the compromises that led to agreement on the Constitution. U.N. 
advisers continue to work closely with Iraqis in arranging the 
elections and training national assembly members and staff.
    From September 29 to October 10, the Secretary's Senior Advisor and 
Coordinator for Iraq traveled to Egypt, Saudi Arabia, Kuwait, Jordan, 
UAE, and Qatar to encourage those countries to become more involved in 
reconstruction and stability efforts within Iraq and to play a helpful 
political and security role.

    Question. You stated in your testimony that as part of the 
administration's new strategy to ``clear, hold, and build,'' that we 
would have to clear ``the toughest places--no sanctuaries--as we 
enlarge security in major urban areas and as the insurgents retreat, 
they should find no large area where they can reorganize and operate 
freely.'' Which areas would you describe as the ``toughest?'' Which 
areas remain to be cleared?

    Answer. The insurgency is primarily a Sunni Arab phenomenon and is 
not a national movement; it has a very narrow base in the country. It 
continues to be composed of semiautonomous and fully autonomous groups 
with a variety of motivations. The insurgency remains concentrated in 
Baghdad, Ninevah, Al-Anbar and Salah ad Din provinces. Multi-National 
Force-Iraq operations have disrupted a number of key insurgent cells, 
limited their freedom of action, and maintained cooperation with 
influential local leaders in order to keep reconstruction and 
democracy-building moving forward. A significant factor enabling 
progress against the insurgency is the dramatic increase in 
intelligence tips received from the population in the past several 
months.

    Question. We are receiving reports from Iraq which suggest militias 
remain more powerful than Iraqi security forces. Obviously, Iraq cannot 
become a united and stable country if the de facto powers on the ground 
are a patchwork of militias.

  <bullet> Has the influence of militias waned or increased in recent 
        months? Are militias more powerful than Iraqi security forces 
        in places such as Basra?
  <bullet> Which militias are active in Baghdad and which areas of the 
        city do they control?
  <bullet> Who is the primary provider of security for the President--
        Iraqi security forces, coalition forces, or the Pesh Merga?
  <bullet> Who is the primary provider of security for members of SCIRI 
        in the government--is it Iraqi security forces or the Badr 
        organization?
  <bullet> Who has the primary power in the Sadr City--Iraqi security 
        forces or the Mahdi army?
  <bullet> To what extent are Iraqi security forces comprised of former 
        militia members?
  <bullet> How many Iraqi security force units consist primarily of one 
        ethnic or sectarian group? How many units rated at being Level 
        I or Level II consist of primarily one ethnic or sectarian 
        group? Please identify these units and their composition.

    Answer. We agree Iraq cannot become a united and stable country if 
the de facto powers on the ground are a patchwork of militias. 
Recruitment of militiamen into the Iraqi Security Forces (ISF) has 
helped the situation in recent months somewhat; however, there must be 
a gradual process of weaning security forces drawn from militias away 
from loyalty to their ethnic or religious group and fostering sole 
loyalty to the Government of Iraq.
    Beginning October 1, 2005, the ISF assumed responsibility for Iraqi 
Presidential security. The Badr organization provides security for 
government officials that are members of the Supreme Council for 
Islamic Revolution in Iraq (SCIRI). In Sadr City the ISF is in control, 
though the Mahdi army continues to maintain a presence.
    At this time, specific data reflecting ethnic or sectarian 
composition of Iraqi units is unavailable. Iraqi security personnel are 
assigned to regional units within the guidelines of the Iraqi 
Constitution. Specifically, Article 9 of the Iraqi Constitution states: 
``The Iraqi Armed Forces and Security Services will be composed of the 
components of the Iraqi people with due consideration given to their 
balance and representation without discrimination or exclusion.'' 
Trained Iraqi security personnel are usually assigned to the region 
from which they are recruited. This practice often results in a force 
composition which reflects the region protected.

    Question. We have seen reports of sectarian violence in places such 
as Samarra, Basra, and the area south of Baghdad. Some Iraqi officials 
have told the committee that there is ``ethnic cleansing'' underway.

  <bullet> Please describe the extent of sectarian violence in Iraq. 
        What is the trend? Which areas have been most affected? What 
        has been the scale of population shifts? What effect has this 
        sectarian violence had on polarizing politics?

    Answer. We monitor sectarian violence closely. Such violence is 
deplorable and unjustifiable. Given the number of actors in Iraq, it is 
sometimes difficult to categorize specific incidents as sectarian 
violence, insurgent activity, or criminal violence, and I would defer 
to the intelligence community for an assessment of the trend. I would 
note, however, that the areas most affected are, not surprisingly, 
those areas in which Iraqis of different ethnicities or sects are 
intermixed.
    Violence that appears to be sectarian-driven is indeed polarizing. 
We and Iraqi leaders fear that such attacks may provoke retaliation, 
which does not seem to have happened on a large scale. We support Iraqi 
Government, as well as Iraqi religious, community, and political 
leaders, as they work to prevent both attacks and retaliation. It is 
very helpful that leaders from throughout Iraq--as well as members of 
the international community--have urged Iraqis to exercise restraint 
and to work toward comity among all Iraqi communities. We continue to 
urge Iraqi leaders to speak out against all sectarian acts of 
violence--to make clear that any such acts are anathema to all.
    Ending such violence will require continued progress on the 
political and security fronts. All communities will need to believe 
their interests and safety can be protected and advanced by politics, 
not violence. In this context, we are also urging Iraqis to focus on 
policy-based, rather than identity-based, politics. At the same time, 
Iraqi security services and justice system will continue to improve 
their ability to prevent such attacks and to hold responsible any 
attackers through the legal system.

    Question. Iraqi journalists who recently visited the United States 
and met with the President described to the committee a state of fear 
on the ground. They indicated that militias--not Iraqi security 
forces--were the main power in the streets. They said that fear of 
retribution from militias who answer to political parties was 
negatively impacting press freedom to the point where they felt that 
they could not criticize political figures, the political process, or 
even the Constitution. In fact, they indicated that the only party they 
felt safe in criticizing was the United States. The administration has 
cited the number of Iraqi publications as a ``striking indicator of the 
growth of commercial and independent media.''

  <bullet> Can you comment on the state of press freedom in Iraq today?

    Answer. A free, professional, and impartial press is essential to 
the development of institutions of democratic civil societies. Its role 
as the watchdog over government and in ensuring public accountability 
is crucial. Iraq's press will play a crucial role as the nascent 
democracy continues to develop.
    The latest available figures show that over 200 newspapers and 
other publications are currently published and distributed in the 
country. In addition, Iraqi viewers now have more choice of broadcast 
media than ever before; they appear to be watching pan-Arab media which 
carries significant Iraq-focused content, as well as approximately 
three dozen terrestrial and satellite channels that are attracting 
audiences inside Iraq and, to some extent, neighboring countries. Among 
the satellite offerings, perhaps fully half are still broadcasting from 
outside Iraq, due to a combination of security, economic, and 
political, and technical professional limitations on media.
    These statistics demonstrate that Iraqi press is now enjoying 
unprecedented freedom, despite many challenges. The rights to speak, 
publish, and broadcast are being exercised with little or no 
interference by the government. Despite threats of violence, 
journalists frequently and openly criticize the government, government 
Ministers and senior officials, with a freedom that is rare in the 
region. Iraqi Ministers and Commissions (such as the Special Tribunal 
and the Electoral Commission) routinely submit to critical questioning 
by Iraq's media.
    However, challenges remain. Many journalists have only limited 
professional training. The unsettled security situation has hindered 
media efforts in some areas. At least 22 journalists and media 
assistants were killed or abducted during the year. There was some 
self-censorship due to intimidation by politically affiliated militias 
and insurgents. Despite the enabling legal framework, the lack of 
independent commercial financing resulted in many media outlets being 
affiliated with political parties and candidates.
    We are working with other donors and the Iraqi Government to advise 
on media regulatory issues, promote security to facilitate media 
coverage, and provide training to ensure that Iraq continues to enjoy a 
competent free press.

    Question. A recent article in the New York Times on October 15, 
2005, indicated that American and Syrian forces have engaged in at 
least one clash along the border. The article contained conflicting 
accounts of whether U.S. forces have actually entered Syrian territory.

  <bullet> Have U.S. military personnel entered Syria since the 
        invasion of Iraq in March 2003? If the answer is yes, please 
        elaborate with specific details.
  <bullet> Please provide details on the clash between U.S. and Syrian 
        forces along the Iraq-Syrian border.
  <bullet> Please describe Syria's involvement in Iraq. What do you 
        believe is the most effective way to influence Syrian behavior? 
        Since the administration began criticizing Syria's role in 
        Iraq, has Syrian behavior improved or worsen?

    Answer. I defer to the Department of Defense regarding the New York 
Times article about Syrian border crossings. I can say that MNF-I 
forces continually operate along the Iraqi-Syrian border and are 
currently conducting operations there. We remained deeply concerned 
about the Syrian Government's failure to contribute to Iraq stability. 
There is little evidence to indicate that the regime in Damascus has 
taken serious steps to curtail the flow of terrorist elements from its 
territory into Iraq or to cease the use of Syrian territory as a base 
for former Iraqi regime elements. In fact, the Syrians have not 
demonstrated a willingness to meaningfully address or assume 
accountability for these issues as well as others that we have brought 
to their attention, beginning with the then-Secretary Powell's visit to 
Syria in May 2003. I have repeatedly called for Syrian action, 
including at the Brussels Conference in June and as I stated in my 
opening statement today. The international community, not just the 
United States, has made its dissatisfaction with Syrian behavior known 
on many occasions. In order to be a proper participant in this 
international community, Syria must do more.

    Question. Iran is said to have close ties to key actors in the 
Iraqi Shi'a establishment. Reports indicate that Iran has engaged in an 
intensive effort to extend its influence in southern Iraq in 
particular. The British Government recently pointed to Iran as the 
source of explosives technology which killed eight British soldiers.

  <bullet> Please describe Iran's role in Iraq.
  <bullet> What do you believe is Iran's strategic objective?
  <bullet> Does Iran have influence with elements of the Shi'a 
        community? Who are they?
  <bullet> How do you believe Iran's negative role can be curtailed? 
        How can it be induced to use its influence with the Shi'a to 
        play a more positive role?

    Answer. CLASSIFIED.

    Question. What has Turkey told us of its concerns in Iraq? How have 
we responded?

    Answer. Turkey shares our goal of a democratic, stable, and unified 
Iraq, but is concerned that political divisions in Iraq will lead to an 
independent Kurdish state. We are working with Turkey and with Iraq 
against the terrorist Kurdistan Workers Party (PKK)'s presence in Iraq. 
We have also organized trilateral discussions that encourage direct 
cooperation between Turkey and Iraq. We believe this approach 
strengthens Iraqi Government sovereignty, which advances our goal of a 
unified Iraq.

    Question. One of the problems with our reconstruction efforts in 
Iraq has been the large percentage of contracts that has gone to 
expensive international contractors who have charged huge premiums for 
security. By some estimates, these charges have amounted to 25-40 
percent of the value of some contracts. Iraqi contractors, on the other 
hand, are able to operate more freely. And using them has the benefit 
of stimulating the local economy and boosting employment.

  <bullet> Can you provide detail on steps that you have taken to 
        transfer contracts to Iraqi businesses?
  <bullet> Of the more than $20 billion appropriated for reconstruction 
        activity in Iraq, what is the total value of contracts that 
        have gone to Iraqis in nonsecurity areas?
  <bullet> What contracts with international companies have you 
        cancelled in order to transfer business to Iraqis, and what was 
        their value?

    Answer. We have accelerated efforts to shift to more cost-
effective, fixed-price contracts directly with local Iraqi firms. We 
have also shifted more funds into a pilot program to provide grants 
directly to capable Iraqi Ministries that enable Ministry staff to 
manage projects directly, increasing Iraqi participation and lowering 
project costs. The effects of these reforms will become clearer in the 
coming months. According to the Embassy, no contracts have been 
cancelled in order to transfer business to Iraqis.
    The Project and Contracting Office has sought to maximize the use 
of local Iraqi firms wherever possible. Between 40 to 50 percent of 
PCO's IRRF construction projects completed or now underway have been 
contracted directly to Iraqi firms. PCO expects an even higher 
percentage of future projects to be contracted directly to Iraqi firms. 
Iraqi firms receive between 20 and 25 percent of the dollar value of 
construction projects underway or completed, either under direct 
contracts or under subcontracts with Design-Build contractors.

    Question. A USA Today story on October 10 said that U.S. 
reconstruction resources are drying up, mostly due to skyrocketing 
security costs.

  <bullet> How much of the money Congress appropriated for 
        reconstruction has been spent or obligated?
  <bullet> How much additional international assistance does Iraq 
        require in the coming year? In the next 3 years?
  <bullet> Does the administration plan to ask Congress for additional 
        resources for Iraq? If so, how much? If you have not decided, 
        when will you plan to make such a decision?
  <bullet> What is your current estimate of the cost of security as a 
        percentage of reconstruction contracts in Iraq?
  <bullet> What is the average security-related delay in reconstruction 
        spending?
  <bullet> If contracts are unable to be carried out due to security, 
        does the U.S. Government continue to pay the contractor? Please 
        provide an estimate of the amount of money which has been lost 
        due to delays in spending?

    Answer. As of October 19, of the $20.9 billion in U.S. assistance 
funds (IRRF I and IRRF II) allocated to reconstruction, we had 
obligated to projects over $17.1 billion (82 percent) and disbursed 
over $11.2 billion (54 percent).
    The October 2003 Joint Needs Assessment prepared by the United 
Nations and the World Bank prior to the 2003 Madrid Donors Conference 
estimated Iraq's assistance needs to be approximately $56 billion. 
While we have learned much and the situation on the ground has changed 
since the time of this assessment, it illustrates that Iraq's 
assistance needs are immense. We expect that Iraq will continue to 
require major donor assistance over the next several years.
    The IRRF programs have created a solid base on which to achieve our 
long-term goal of a stable, prosperous, and democratic Iraq, but many 
challenges remain. We expressed some of these needs in the President's 
FY 2006 Budget request of $459 million, which the recent House-Senate 
Foreign Operations appropriations conference funded at $61 million in 
ESF and allowed the potential for some funding in INL. It is too early 
to speculate on what the President may decide regarding future funding 
requests.
    The terms of individual contracts determine whether the U.S. 
Government continues to pay contractors if they are unable to perform 
their contracts due to security concerns. Some contracts provide that 
they may be terminated if security risks are too high to permit 
performance.
    Currently, an estimated 16-22 percent of each IRRF construction 
project goes to providing direct security for both the implementing 
partner and the project itself. This represents an increase of 7-11 
percent from originally estimated costs and does not include indirect 
costs caused by delays related to security. We are currently refining 
our understanding of these indirect costs, and plan to provide further 
information on this subject in our next quarterly report to Congress on 
the IRRF, due January 5, 2006.

    Question. Please provide the committee with a breakdown by Iraqi 
governorate of both obligated and committed U.S. funds across the 
country. What is the strategy behind that spending? Is the strategy to 
spend funds equitably? Is the strategy to spend more money in those 
areas with greatest needs? Is more money spent in areas where the 
security environment is more favorable to reconstruction or is the 
strategy to spend more money and show more progress in those areas with 
the greatest insurgent activity?

    Answer. We seek to help foster a single national identity in Iraq 
that brings about stability and cooperation across Iraq's diverse 
political and cultural landscape. We are continuing to work to ensure 
we make best use of the Iraq Relief and Reconstruction Fund (IRRF) to 
support Iraq's reconstruction. We have dedicated considerable resources 
to addressing enormous national infrastructure needs in the energy, 
water and sanitation, transportation, and education sectors. We have 
also spent considerable sums on national democracy programs and Iraqi 
security forces. These services will benefit all of Iraq's people.
    U.S.-funded reconstruction efforts have not been restricted to 
areas where the security environment is more favorable. Indeed, our 
strategy includes undertaking major projects in areas where the 
security environment is very challenging, such as Sadr City. We 
continue to fund projects in these areas because we recognize the 
importance of those projects to the overall success of our mission in 
Iraq. The more we can do in these very challenging areas, the greater 
the confidence the local populace will have in the Iraqi Government.
    The Department will seek to respond to your request for a breakdown 
of U.S. assistance programs, by governorate, more completely by the end 
of November.

    [Editor's note.--The answer submitted at a later date to the above 
request follows:]

    Last fall, the Department promised to respond to your request for a 
breakdown of U.S. assistance programs by governorate. We are pleased to 
provide the attached set of seven maps, which provide an indicative 
picture of the distribution of construction programs in the following 
sectors of the Iraq Relief and Reconstruction Fund (IRRF): Electricity; 
water and sanitation; justice, public safety, infrastructure and civil 
society; oil; roads, bridges and construction (including school 
projects); transportation and telecommunications; and health.
    The totals in each of the sectors are current as of February 11, 
2006, and do not include overhead or contingency reserve funds, or 
projects which have not yet been obligated. They also do not include 
construction contracts issued through the Multinational Strategic 
Transition Corps-Iraq (MNSTC-I), which deal with the security sector of 
the IRRF. The distribution may change as remaining IRRF funds are 
obligated.
    IRRF programs are designed, after consulting with Iraqi 
authorities, first and foremost according to what is needed to 
facilitate Iraq's transition to self-reliance and prosperity. Equitable 
geographic distribution is a factor in this process, but is not the 
sole determinant for any IRRF project.

    [Editor's note.--The maps provided could not be converted for print 
and will be maintained in the committee's permanent files.]

    Question. I have heard reports that a U.S. Government contractor is 
importing ice to Baghdad from Kuwait. And that 70 percent of that ice 
melts by the time it reaches the Iraqi capital. Can you confirm this 
and provide any details on this particular contract? If it is accurate 
that we are importing ice by air, why are U.S. contractors not buying 
Iraqi ice?

    Answer. We have made inquiries and raised your question with the 
Embassy in Baghdad, but we have not located any information about the 
report you received concerning a U.S. Government contractor importing 
ice from Kuwait to Iraq. We will gladly follow up any additional 
information you provide us about this specific report.

    Question. Could you please provide for the record, the current 
status in each of the following areas, our goal in each area, and the 
date by which you plan to achieve that goal.

1. Iraqi Police Force on duty trained to Level I
2. Iraqi Armed Forces on duty trained to Level I
3. Border Patrol on duty trained to Level I
4. Total Iraqi Security Forces on duty trained to Level I
5. Crude Oil Production
6. Crude Oil Exports in million barrels per day
7. Amount of electricity in MW generated nationwide
8. Amount of electricity in MW generated in Baghdad
9. Average hours of electricity per day nationwide
10. Average hours of electricity per day in Baghdad
11. Average megawatt hours generated
12. Iraqi unemployment
13. Total non-American aid disbursed to Iraqi reconstruction
14. Percentage of sewage treated nationwide
15. Sewage treatment projects completed
16. Percentage of drinking water that is potable
17. Water treatment projects completed

    Answer.
1-4. Iraqi security forces
    Standing up Iraqi security forces is an important part of the 
administration's transition strategy in Iraq. With USG assistance, the 
Ministry of Defense and Ministry of Interior forces continue to make 
progress in their ability to provide security for the Iraqi people.
Ministry of Interior
    The Iraqi Police Force is trained to enforce the law, safeguard the 
public, and provide internal security at the local level. Currently the 
Iraqi Police Force is over 70,000 strong and projected to reach its 
full complement of 135,000 by February 2007. Over 17,000 Border Police 
have been trained and equipped, and the Government of Iraq has 
authorized a total force of more than 28,000 Border Police, which 
MNSTC-I plans to train and equip by May 2006. For police and border 
forces, we do not apply the metrics used for Defense forces (Level I, 
II, etc.).
Ministry of Defense
    The training progress of Iraqi Armed Forces should be considered in 
a broader context. The most accurate measure of progress is the number 
of Iraqi units that lead planning and successful execution of 
counterinsurgency operations with minimal assistance of coalition 
forces (Level II). At this level, Iraqi units control their areas of 
responsibility, and it is at this level where there has been steady 
progress.
    Currently more than 80,000 Iraqis have been trained as members of 
the military forces. In several parts of Iraq, Iraqi forces have 
already taken responsibility for security. One MOD battalion operates 
fully independently of MNF-I forces and has the lead in one province. 
Within 6 months, we expect a significant percentage of Iraqi MOD forces 
will achieve Level II readiness.
5-6. Oil
            Crude Oil Production
    Iraqi production averaged 2.11 million barrels per day (BPD) for 
the first 10 months of 2005, including an average of 1.94 million 
barrels per day in October 2005. The goal is to produce 2.8 million BPD 
by December 2006.
            Crude Oil Exports
    Iraq exported an average of 1.42 million BPD for the first 10 
months of 2005, including an average of 1.24 million BPD in October 
2005. The goal is to export 2.0 million BPD by December 2006.
    Iraq's ability to meet production and export targets is impacted by 
two factors:

  <bullet> Insurgent attacks, especially on the northern pipeline, 
        which have led to lower production and exports, and a resultant 
        $2.2 billion in foregone revenue for the first 9 months in 
        2005.
  <bullet> The deterioration of its oil and gas infrastructure over the 
        last 25 years, including mismanagement of reservoirs, corrosion 
        of pipelines and facilities, and damage after three wars and 
        looting.

    We are working with the Iraqi Government to address infrastructure 
security issues through the creation of dedicated security units 
(Strategic Infrastructure Battalions) to protect key oil and energy 
infrastructure nodes and routes, and by physically hardening key 
infrastructure points. USG projects in the oil sector are intended to 
eliminate logistical bottlenecks and to improve infrastructure for 
production and exports. The two most important projects are the 
rehabilitation of the Rumaila field to restore reservoir pressure and 
the reconnection of pipelines across the Tigris River at the al-Fathah 
crossing. These projects are scheduled to be completed in the second 
quarter of 2006.
7-11. Electricity
    Under USG programs ($5.2 billion in funds from IRRF 1 and 2), 
nearly 1,660 megawatts (MW) of new electricity generation capacity has 
been added, and we have increased the reliability of 1,100 MW in 
generation. Power in Iraq has generally averaged over 12 hours per day 
during July-November 2005, although power availability in Baghdad is 
often lower due to insurgent attacks on transmission and fuel 
infrastructures and to unequal power sharing by southern governorates. 
The USG is working with the Ministry of Electricity to strengthen 
technical skills and implement a fuel strategy to improve the 
efficiency and sustainability of power plants.
            Peak generation nationwide (megawatts, MW)
    Peak generation nationwide for November 1-7 averaged 4,200 MW. The 
goal for peak generation by end of December 2005 is 5,500 MW.
            Peak generation in Baghdad area (MW)
    Baghdad area generation includes five power plants near the city. 
Because Iraq's electricity is one network (excluding imports), power 
generated throughout the country supplies all geographical locations. 
Peak generation for Baghdad for November 1-7 averaged 810 MW. There are 
no set goals for Baghdad area plants. Current generation levels are 
significantly below the plants capacities because of ongoing fall 
maintenance, the overall deteriorated condition of the plants, 
insufficient skills within the Ministry of Electricity to perform 
required operations and maintenance, and the continued interdiction of 
fuel supplies.
            Hours of electricity per day nationwide
    The daily hours of electricity nationwide for November 1-7 averaged 
14.6 hours. The goal for hours of electricity by the end of December 
2005 is 12 hours, although insurgent attacks may impact performance of 
this sector.
            Hours of electricity per day in Baghdad
    Baghdad's daily hours of power, in general, have been severely 
limited by continuing attacks on the high voltage transmission lines 
and fuel supply infrastructure. The daily hours of power in Baghdad for 
November 1-7 averaged 10.6 hours. The Iraqi Government's goal by the 
end of December 2005 is 12 hours.
            Electricity supplied nationwide (megawatt-hours, MWh)
    The electricity supplied for November 1-7 averaged 91,000 MWh; the 
goal by the end of December 2005 is 110,000 MWh.
12. Iraqi unemployment
    We have not set a specific unemployment rate goal for Iraq. In 
April 2004, the date of the most recent nationwide survey, the Central 
Statistics Office estimated national unemployment at 22.5 percent 
(including both job seekers and long-term unemployed). This survey 
found much higher unemployment in some governorates, particularly among 
the young.
    Because unemployment provides a fertile breeding ground for 
insurgents, we have made short-term job creation for youth a major 
priority in our reconstruction assistance. IRRF projects directly 
employ over 135,000 Iraqis at present. From August 2004 through 
September 2005, USG managed reconstruction programs provided 
approximately 4.6 million job opportunities to Iraqis, ranging from a 
few weeks to 1 year in duration, making the USG one of the largest 
employers in Iraq.
    While short-term projects increase the number of employment 
opportunities, creating longer term and full-time jobs is primarily the 
task of Iraq's private sector. We are helping the Iraqi Government 
address long-term job creation through programs aimed at strengthening 
private sector development, lending programs and support for market-
oriented reforms.
13. Total non-American aid disbursed to Iraqi reconstruction
    The entire international community will benefit from a stable, 
democratic, prosperous Iraq, and so we encourage strong multilateral 
support for Iraq's reconstruction. Our short-term goal is to ensure 
full disbursement of the $13.5 billion pledged as quickly as possible. 
The total non-American aid disbursed on Iraqi reconstruction, both to 
the United Nations and World Bank trust funds and to bilateral 
projects, was $3.14 billion as of October 19, 2005. We continue to 
support Iraqi Government efforts to encourage countries and 
international institutions to increase their pledges and disbursements 
of funds already pledged. We are working to foster greater donor 
coordination for assistance to Iraq.
14-17. Water
            Percentage of sewage treated nationwide
    Iraq's water and sanitation facilities currently operate at a 
fraction of their prewar capacity due to years of neglect, electricity 
shortages, and post-war looting. A June 2005 report from the Iraq 
Ministry of Public Works and Municipalities (MMPW) states that sewage 
treatment covers only 6 percent of the population, with the river 
system receiving untreated waste from more than 20 million people. The 
MMPW report estimates that 37 percent of all dwellings are connected to 
a sewage system, mostly in the urban areas. According to the United 
Nations Development Program's (UNDP) Iraq Living Conditions Survey 2004 
(ILCS 2004), 64 percent of households in Iraq are classified as having 
``improved'' sanitation toilet facilities, which are defined as covered 
dry pit latrines, latrines connected to a public sewage network, or 
latrines connected to a septic tank.
            Sewage treatment projects completed
    Seven total major sewage or wastewater treatment facilities have 
been rehabilitated to date in Iraq, including renovation of all three 
sewage treatment plants in the city of Baghdad. The completion of 
sewage and wastewater treatment projects to date has the capacity to 
serve 7.3 million people in Iraq.
    By the end of 2006, completion of additional U.S. projects are 
expected to serve another 1.5 million Iraqis. Rehabilitation is 
underway on a major sewage treatment plant in Karbala and is scheduled 
for completion in February 2006. This treatment plant will have the 
capacity to serve the population of Karbala, which is estimated at 
approximately 550,000 people.
            Percentage of drinking water that is potable
    According to the June 2005 MMPW report, approximately 50 percent of 
treated water that reaches a distribution system is lost due to 
leakage.
    There is little data available on water quality in Iraq, but the 
MMPW report assumed that nearly all water used for drinking fails to 
meet WHO standards due to poor operations and maintenance. According to 
the ILCS 2004, which used the U.N. definition of safe sources for 
drinking water, approximately 54 percent of households nationwide have 
access to a safe and stable supply of drinking water, while 17 percent 
of households have neither safe nor stable drinking water. Groundwater 
in the governorate of Basrah is largely not drinkable due to its high 
salinity. In the ILCS 2004, three in four households in Basrah were 
reported as having unsafe drinking water.
            Water treatment projects completed
    Rehabilitation or expansion has been completed on five large-scale 
water treatment plants and 14 compact water treatment plants, with the 
capacity to serve 3.1 million Iraqis. A new water treatment plant is 
being built in Nasiriyah, which will have the capacity to serve the 
entire population of the city (approximately 550,000 people). USAID's 
Rural Water Supply Initiative is underway and will provide wells, 
treatment plants, or storage facilities for approximately 200,000 
Iraqis living in rural areas where water is scarce or brackish. 
Fourteen of the planned 49 rural water supply projects have been 
completed.
    In January 2005 USAID completed the $23 million rehabilitation of 
the Sweet Water Canal to provide higher quality raw water to the Basrah 
and Umm Qasr region, serving approximately 1.8 million Iraqis.
                                 ______
                                 

Responses of Secretary of State Condoleezza Rice to Questions Submitted 
                            by Senator Hagel

    Question. During our exchange, you noted that (1) the 
administration is considering whether to pursue direct dialog with Iran 
in the context of Iraq, similar to the Afghanistan context, and, (2) 
Ambassador Khalilzad has some flexibility to engage through 
multilateral processes his Iranian counterparts. (Note: As necessary, 
please provide classified answers to fully respond to the questions.)
    Does the administration intend to allow Ambassador Khalilzad to 
engage his Iranian counterparts similar to the model in Afghanistan?
    Has Ambassador Khalilzad engaged Iranian Government officials in 
Iraq or elsewhere? What was discussed?

    Answer. CLASSIFIED.

    Question. In your testimony you announced that you will begin to 
apply in Iraq the successful Provincial Reconstruction Team (PRT) model 
that was used in Afghanistan. This is good news.
    Please give us a detailed description of this plan. How many teams 
will there be? Which U.S. agencies will be represented? Where will the 
teams be located? What is the time line for their deployment?

    Answer. There will be 15 Provincial Reconstruction Teams (one in 
each non-KRG province) and one Regional Reconstruction Team that covers 
the three KRG provinces. They will be located in or near the provincial 
capitals for the non-KRG provinces, and in Erbil for the RRT. The 
Department of State, Department of Defense, Department of Justice, and 
the U.S. Agency for International Development will be represented in 
the PRT program. It is likely that other agencies will be added to the 
PRTs in the future. In addition, we are inviting our coalition partners 
to place representatives in the PRTs.
    The initial three ``proof of concept'' PRTs will be established by 
mid-November in the provinces of Ninawa (Mosul), Tamim (Kirkuk), and 
Babil (Hillah). We will stand up the additional PRTs in the coming 
months.

    Question. The Special Inspector General for Iraq Reconstruction has 
determined that there is a reconstruction gap meaning that the FY 2003 
and FY 2004 funds that Congress allocated for Iraq's reconstruction 
will fail to achieve prewar levels of water, electricity, health and 
oil networks in Iraq. In some cases, security costs for specific 
projects reached 80 percent of a project's funds. At the same time, 
corruption in Iraq is endemic. For example, the current Iraqi 
Government has charged the Iraqi Defense Minister of the Interim 
Government and others for embezzling more than $1 billion.
    (a) Please describe in detail U.S. efforts, across the interagency, 
to ensure that U.S. funds are being effectively and transparently spent 
for the purpose of rebuilding Iraq.
    (b) Does the administration intend to request additional 
reconstruction funds from Congress for Iraq?

    Answer. (a) The Department works closely with our implementing 
partners, including USAID and DOD's Project Contracting Office, to 
monitor vigorously contract compliance for all projects. As we noted in 
the quarterly report on Iraq reconstruction of October 7, Embassy 
Baghdad is working to improve its information management system to 
better track the status of all contracts. This improved system will 
enhance our ability to correct problems and prevent abuse.
    In addition to our own internal monitoring, the Department 
cooperates closely with both the GAO and with the Special Inspector 
General for Iraq Reconstruction (SIGIR), which conduct their own 
investigations into allegations of malfeasance to minimize abuse of 
taxpayer funds. Beyond monitoring our projects, IRRF funds support 
several projects to combat corruption in Iraq, including providing 
technical training and operational support to the Commission on Public 
Integrity, the agency in the Iraqi Government charged with fighting 
corruption.
    (b) The Iraq Relief and Reconstruction programs have created a 
solid base on which to achieve our long-term goal of a stable, 
prosperous, and democratic Iraq. For example, IRRF assistance has added 
1,600 megawatts and rehabilitated facilities providing an additional 
1,100 MW of electricity, which will increase Iraq's generation capacity 
by roughly 50 percent over the estimated prewar levels. IRRF programs 
have also provided clean water and sewage treatment to millions of 
Iraqis denied services under the previous regime. Many challenges 
remain to reconstruction. These include attacks by insurgents, 
distortions in Iraq's economy caused by subsidies on food and fuel, the 
limited, but growing, capacity of Iraqi Ministries and the need to keep 
worn-out infrastructure operating. All of these factors have had an 
effect on slowing down and, in some cases, reducing the output of the 
reconstruction effort.
    Our strategy requires sustained commitment of personnel and 
financial resources. These are expressed in the FY06 budget request 
($459 million), which we urge Congress to fund fully. The FY 2006 
budget request is designed to ensure the successful continuation of 
ongoing nonconstruction programs initially funded from the FY 2003 and 
FY 2004 Supplemental IRRF funds, which we expect to be exhausted. 
Additional foreign assistance beyond FY 2006 is currently under 
discussion.

                                  <all>

</pre></body></html>
